<html>
<title> - VOICE OVER INTERNET PROTOCOL (VoIP) AND THE FUTURE OF 9-1-1 SERVICES</title>
<body><pre>[Senate Hearing 110-1190]
[From the U.S. Government Publishing Office]






                                                       S. Hrg. 110-1190

  VOICE OVER INTERNET PROTOCOL (VoIP) AND THE FUTURE OF 9-1-1 SERVICES

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 10, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

77-868 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
Kenneth R. Nahigian, Republican Deputy Staff Director and Chief Counsel














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 10, 2007...................................     1
Statement of Senator Inouye......................................     1
Statement of Senator Klobuchar...................................    45
Statement of Senator Nelson......................................     3
Statement of Senator Snowe.......................................    41
Statement of Senator Stevens.....................................     2
    Prepared statement...........................................     2
Statement of Senator Sununu......................................    39

                               Witnesses

Barbour, ENP, Jason, on Behalf of the National Emergency Number 
  Association (NENA).............................................    18
    Prepared statement...........................................    19
Hatfield, Dale N., former Chief, Office of Engineering and 
  Technology, Federal Communications Commission; Independent 
  Consultant and Adjunct Professor, Interdisciplinary 
  Telecommunications Program, University of Colorado at Boulder..     4
    Prepared statement...........................................     6
McCarley, Wanda S., President, Association of Public-Safety 
  Communications Officials (APCO) International and Operations 
  and Training Manager, Tarrant County 9-1-1 District, Fort 
  Worth, Texas...................................................    10
    Prepared statement...........................................    12
Meer, Stephen, Chief Technology Officer, Intrado Inc.............    27
    Prepared statement...........................................    29
O'Leary, Sharon, Executive Vice President and Chief Legal 
  Officer, Vonage Holdings Corp..................................    24
    Prepared statement...........................................    26

                                Appendix

Lautenberg, Hon. Frank R., U.S. Senator from New Jersey, prepared 
  statement......................................................    51
Murphy, John, President and CEO, Vector Security Inc. on Behalf 
  of the Alarm Industry Communications Committee, prepared 
  statement......................................................    53
Speaks, Skip, Chief Executive Officer, Rosum Corporation, 
  prepared statement.............................................    51
Response to written questions submitted by Hon. Maria Cantwell 
  to:
    Jason Barbour, ENP...........................................    61
    Dale N. Hatfield.............................................    58
    Wanda S. McCarley............................................    59
    Stephen Meer.................................................    66
Response to written questions submitted by Hon. Frank R. 
  Lautenberg to:
    Dale N. Hatfield.............................................    59
    Wanda S. McCarley............................................    61

 
  VOICE OVER INTERNET PROTOCOL (VoIP) AND THE FUTURE OF 9-1-1 SERVICES

                              ----------                              


                        TUESDAY, APRIL 10, 2007

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
SR-253, Russell Senate Office Building, Hon. Daniel K. Inouye, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. This afternoon, the Committee will examine 
the provisions of Enhanced 911, known as E-911, as well as 
specific issues related to S. 428, introduced by Senators 
Nelson and Snowe earlier this year.
    9-1-1 is the most effective means for Americans to contact 
emergency services. It was created nearly 30 years ago, and it 
has come to mean that help is only a phone call away. As 
technology has advanced, so has 9-1-1 service.
    Now many places in the Nation have E-911. In these areas, 
when you call for help, your phone number and your location are 
automatically transmitted to emergency personnel. If your call 
is disconnected or you're disoriented or do not know your 
location, this information can make all the difference in 
securing your safety.
    But the E-911 system was built for wireline service. So as 
technology advanced and wireless phones grew in popularity, we 
worked to apply E-911 principles to wireless service. With the 
advent of Voice over Internet Protocol, we are challenged again 
to ensure that our 9-1-1 polices are up to date.
    In 2005, the FCC required interconnected VoIP providers to 
offer E-911 service. With millions of VoIP customers in the 
United States, there is no doubt that this measure has saved 
lives. Today, we'll consider what additional measures are 
needed to ensure that VoIP E-911 not only works, but works 
well.
    When it comes to public safety, and services like E-911, we 
must always strive to do better. If questions arise about new 
communications services, we should tackle them. If questions 
arise about the location accuracy of E-911 in existing 
services, we must tackle them, too. When lives are on the line, 
first responders need location information that is as accurate 
as possible.
    I'd like to thank Senator Nelson and Senator Snowe for 
their leadership on E-911 and IP-enabled services. I look 
forward to hearing from our witnesses today. But, before we do, 
may I call upon the Vice Chairman, Senator Stevens, who will 
soon become the Strom Thurmond of the Arctic Circle.
    [Laughter.]

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. I don't know what I'm going do with you, 
Dan.
    [Laughter.]
    Senator Stevens. Mr. Chairman, thank you very much. I hope 
you'll print my full statement in the record.
    In my statement, I point out that the Committee already 
secured $43.5 million for grants to improve our country's 9-1-1 
capability in the 9/11 Commission's Recommendations bill. 
Ensuring that 9-1-1 capability exists for all voice services, 
including wireline, wireless, and Internet Protocol is the next 
critical step.
    What's not in that statement is my favorite story of the 
two snow mobilers that were going across the snowfilled area 
south of Mount McKinley, and they were sort of racing and 
shouting at one another, and all of a sudden one of them hit a 
crevasse and just disappeared. And the other one raced up to 
the edge of the crevasse and looked down, and there is the 
first snow-mobiler, his skis and the wheels had stuck in the 
crevasse, and he's standing on the seat trying to figure out 
how to get up about 70 feet to where his friend was, at the 
land level. And he couldn't figure out what to do, and he 
suddenly remembered his cell phone, and he dialed 9-1-1, and 
luckily there was a satellite going over. It was picked up, and 
25 minutes later the National Guard pulled him out of that 
crevasse. Now, that's what 9-1-1 means to my part of the 
country. And E-911 will mean even more.
    So, I'm delighted to have you all here this afternoon.
    Thank you very much.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    I would like to thank Chairman Inouye for calling this afternoon's 
hearing. 
9-1-1 calls serve as the first point of communications between the 
public and our Nation's first responders and is critical to our 
Nation's safety and security.
    As a co-chair of the 9-1-1 caucus, I hope that we will be able to 
move forward with legislation to address the outstanding issues related 
to 9-1-1. I also look forward to hearing from the witnesses about how 
we can improve our 9-1-1 service throughout the country, including in 
Alaska.
    Upgrades to the 9-1-1 network are critical, but we will fail if 
rural America is left behind.
    The Senate already secured $43.5 million for grants to improve our 
country's 
9-1-1 capability in the 9/11 Commission bill. Ensuring that 9-1-1 
capability exists for all voice services, including wireline, wireless 
and Internet protocol, is the next critical step.
    It is also critical that the technology work properly. I was 
concerned to hear recent reports that have indicated that the location 
accuracy can vary greatly throughout the country. It is important that 
we continue to improve this capability.
    The FCC, under Chairman Martin's leadership, has done an 
outstanding job regarding 9-1-1. But issues of liability protection and 
ensuring that everyone has the same access to 9-1-1 components, 
including the disabled community, are issues that require the further 
attention of Congress.
    I am pleased to see that under Senator Inouye's capable leadership, 
public safety communications and 9-1-1 will continue to be a central 
focus of this committee's communications agenda. Thank you.

    The Chairman. I thank you, sir.
    And, Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Well, let me thank you, Mr. Chairman. And 
thanks to you and Senator Stevens for bringing up this 
legislation.
    I'll tell a story that happened in my State of Florida, in 
Deltona, which is a town just north of Orlando, a couple of 
years ago. A young mother had an emergency with her daughter, 
and she dialed 9-1-1. Well, what they didn't know was they had 
VoIP service. And so, there was no 9-1-1 on VoIP, which is one 
of the personal stories that has spurred me to action in 
offering this legislation.
    Thanks to you all for your leadership, the two of you. You 
took the essence of this bill that's in front of us and passed 
it last year in the Senate, and then the House stripped it out. 
Since then, the Federal Communications Commission has taken 
some action. I appreciate that very much. But there are some 
holes that we need to fill, and that's why, along with Senator 
Snowe and Senator Clinton, we filed this legislation, S. 428. 
It resolves any remaining issues regarding the FCC's 
jurisdiction over VoIP services by putting it in the code and 
building on the regulations that have been issued by the FCC. 
In addition, it resolves issues relating to the potential 
liability of VoIP providers who provide that access to 9-1-1 
services. Finally, the legislation takes a critical step toward 
ensuring the development of a new 9-1-1 network. Boy, did we 
see the need for that in Katrina, when people would call, but 
the 9-1-1 center wasn't operating because it was under water. 
Well, when you go completely digital, those little packets of 
information will find their way around until they find a center 
that is working. And so, this new network will be resilient, it 
will be redundant, and it will allow calls to be automatically 
rerouted so that they can get them to working facilities.
    Despite the tragedy--and we've had others you know--we now 
have Professor Gray, at Colorado State University saying that 
because of La Nina, this is going to be a very active hurricane 
year. And I certainly hope that they do not hit a land mass, 
but, if they do, it's just another example that we'd better be 
ready.
    So, time is not on our side. Lives are at stake. And I'm 
very grateful to you, Senator Inouye, Mr. Chairman, and Mr. 
Vice Chairman, Senator Stevens, for having a hearing on the 
bill.
    The Chairman. I thank you very much.
    This afternoon, we have five outstanding witnesses: Mr. 
Dale Hatfield, former Chief of the Office of Engineering and 
Technology at the Federal Communications Commission, now at the 
University of Colorado at Boulder; Ms. Wanda McCarley, 
President, Association of Public-Safety Communications 
Officials International, Incorporated, and Operations Manager, 
Tarrant County 9-1-1 District in Texas; and Mr. Jason Barbour, 
President, National Emergency Number Association, and 9-1-1 
Director, Johnston County, North Carolina; Ms. Sharon O'Leary, 
Executive Vice President, Chief Legal Officer, Vonage, of New 
Jersey; Mr. Stephen Meer, Chief Technology Officer, Intrado, 
Incorporated, of Colorado.
    And may I now recognize Mr. Hatfield?

          STATEMENT OF DALE N. HATFIELD, FORMER CHIEF,

             OFFICE OF ENGINEERING AND TECHNOLOGY,

               FEDERAL COMMUNICATIONS COMMISSION;

         INDEPENDENT CONSULTANT AND ADJUNCT PROFESSOR,

         INTERDISCIPLINARY TELECOMMUNICATIONS PROGRAM,

               UNIVERSITY OF COLORADO AT BOULDER

    Mr. Hatfield. Thank you very much, Mr. Chairman and members 
of the Commerce Committee. I'm very pleased and honored to 
appear before you today to testify on important national issues 
associated with Voice over Internet Protocol and the future of 
9-1-1 services.
    My name is Dale Hatfield, and I'm currently an independent 
consultant and adjunct professor at the University of Colorado 
at Boulder. As detailed in my prepared testimony, I have some 
other affiliations, but today I'm testifying on my own behalf 
as a private citizen.
    My involvement in 9-1-1 issues goes back to the late 1990s, 
when I was Chief of the Office of Engineering and Technology at 
the FCC. I retired from that position and government service in 
2000, and, about a year later, the Commission asked me to 
conduct an independent study into the technical and operational 
issues associated with wireless 9-1-1. The final report of my 
inquiry was submitted to the agency in October of 2002.
    In my full written testimony, I touch on three of the 
overarching findings from my 2002 report, including the need to 
modernize our wireline E-911 infrastructure, a critical need 
that I was, of course, pleased to see is being addressed in S. 
428, introduced by Senators Nelson and Snowe.
    The FCC came back to me in 2005 and asked me to update my 
earlier report. At the time, they were unable to fund a 
comprehensive update, and consequently settled on the state of 
work that encompassed three areas, one, providing an 
independent view of the current state-of-the-art in wireless 
location technologies; two, reviewing the technical and other 
interrelationships between wireless E-911 and nomadic Voice 
over IP issues; and, three, evaluating the technical and other 
challenges faced by smaller wireless carriers in deploying what 
we refer to as Phase II wireless E-911.
    As some of you may know, the FCC stopped my work on the 
second report in the spring of last year. However, in the time 
I have remaining, I'd like to share with you some of the 
recommendations that I was contemplating when the work was 
terminated.
    First, the Commission should take appropriate steps to 
encourage the stakeholders to agree on a common testing 
methodology for assessing location accuracy in wireless 9-1-1 
systems. This recommendation stemmed from my finding that even 
when public or non-public measurement data is available, 
differences in testing methodologies make it extremely 
difficult to interpret the results and to compare overall 
accuracies attained. That is, it's extremely difficult to make 
apples-to-apples comparisons across carriers, location 
technologies, types of geographic areas, and over time. 
Moreover, for reasons that I will explain in a moment, the 
revised methodology should take into account increased indoor 
usage of wireless devices.
    Second, the Commission should arrange for the filing of 
aggregated accuracy measurement data using the common or more 
standardized methodology. This aggregated data could, in turn, 
be used by the Commission staff or others to ascertain and 
routinely track the current state-of-the-art in location-based 
technologies in various environments, such as rural or urban or 
suburban. It may also be appropriate to report the state-of-
the-art to the Congress on a regular basis, as well, since it 
affects all of us so directly.
    Third, the Commission should take appropriate steps to 
encourage the development of hybrid, or blended, technologies 
that combine handset or GPS-satellite-based location solutions, 
which tend to work best outdoors and in less congested areas, 
and network or terrestrial triangulation-based systems, which 
tend to work best in more congested urban areas, where the 
cellular antenna sites are more densely packed and evenly 
distributed. This could go a long way toward solving the 
legitimate problems that rural carriers using network-based 
solutions face in meeting accuracy requirements where there are 
not enough antenna sites or the sites are geographically 
distributed in such a way that reliable triangulation is not 
possible.
    Fourth, the Commission should formally investigate the 
issues associated with reliably locating wireless customers who 
call 9-1-1 when they are indoors. This was, and is, perhaps my 
most important recommendation. Its importance stems from two 
observations: (a) that an increasing fraction of all cellular 
calls, perhaps 40 to 60 percent, are made indoors from offices, 
homes, dormitories, hotel rooms, sports arenas, airports, and 
so forth; and (b) that an increasing number of customers are 
giving up their landline telephone and relying entirely upon 
their cellular phone for traditional voice communications 
services. Issues arise with handset-based solutions which 
depend upon the reception of GPS satellite signals to function 
properly. The fact that the GPS signals come in from far out in 
space means they are typically much weaker than the signals 
arriving at the handset from a nearby cellular tower. The 
result is that a cellular subscriber may be able to 
successfully complete a 9-1-1 call from within a building, but, 
in contrast, the satellite signals are too few or too weak to 
allow an accurate position fix to be obtained. Moreover, 
indoors, even network-based location systems may suffer, in 
terms of location accuracy, due to the weakening of additional 
terrestrial signals needed for triangulation. A solution, of 
course, that provides good in-building coverage for wireless 
customers could also be used to automatically locate nomadic 
VoIP-based use, as well.
    Fifth, and finally, the Commission should work with their 
wireless carriers to ensure that customers understand the 
limitations of current location technologies, as compared to 
the wireline system, when they call 9-1-1.
    That finishes the summary of my testimony, and I will 
conclude by saying that I applaud the Committee for addressing 
the critical issues associated with 9-1-1. And, of course, I'd 
be happy to answer any questions, when it's appropriate.
    [The prepared statement of Mr. Hatfield follows:]

    Prepared Statement of Dale N. Hatfield, Former Chief, Office of 
    Engineering and Technology, Federal Communications Commission; 
    Independent Consultant and Adjunct Professor, Interdisciplinary 
     Telecommunications Program, University of Colorado at Boulder
    Chairman Inouye, members of the Committee on Commerce, Science, and 
Transportation, and congressional staff, I am pleased and honored to 
appear before you today to testify on important national issues 
associated with Voice over Internet Protocol (``VoIP'') and the Future 
of 9-1-1 Services. My name is Dale Hatfield and I am currently an 
independent consultant and adjunct professor at the University of 
Colorado at Boulder. In the interest of full disclosure, I should 
mention that I am also on the board of directors of Crown Castle 
International, a major operator of radio towers for the wireless 
industry here in the United States and Australia. In addition, along 
with two colleagues of mine at the University of Colorado, I was 
recently engaged by an industry group to study certain funding issues 
associated with the continued rollout of wireless E-911 services in the 
U.S. However, today I am testifying before you on my own behalf as a 
private citizen.
    In today's testimony, I will emphasize how our E-911 policy should 
be responsive to a changed telecommunications landscape. The way we use 
our phones is markedly different than just a decade ago. People 
increasingly rely upon VoIP or cellular phones for voice communication, 
sometimes fully substituting such services in lieu of traditional 
wireline services. Moreover, VoIP and cellular calls are commonly made 
from indoor locations which present challenges relating to in-building 
location abilities. Today's changed telecommunications landscape makes 
the topic of E-911 particularly important and I commend this Committee 
for its attention to the topic.
    Specifically, I would today like to explore three perspectives 
concerning the Future of 9-1-1 services. First, to provide some 
background context on the issue, I'll quickly provide a high-level 
overview of the results of an independent inquiry that I conducted for 
the Federal Communications Commission (``FCC'' or ``the Commission'') 
in 2002. Second, I'll discuss my current observations on the topic, 
many of which stem from a subsequent investigation commissioned by the 
FCC in 2005, which requested that I update portions of my prior report. 
As some of you may know, the FCC stopped my work on this second report 
in the spring of last year. Accordingly, third, I will conclude by 
sharing some of the recommendations which I was contemplating when my 
work was terminated. As I will explain, I think it is important that 
the Commission take appropriate steps to encourage stakeholders to 
agree on a common testing methodology (or to at least reduce the 
differences and ambiguities associated with existing methodologies) for 
assessing location accuracy involved in finding 9-1-1 callers. 
Moreover, this revised methodology should take into account increased 
indoor usage of wireless devices.
    My involvement in 9-1-1 issues goes back to the late 1990s when I 
was Chief of the Office of Engineering and Technology at the Federal 
Communications Commission (``FCC'' or ``the Commission''). I retired 
from government service in the year 2000 and about a year later--in 
November of 2001--the Commission asked me to conduct an independent 
inquiry into the technical and operational issues associated with 
wireless E-911. Early in the following year--2002--the agency announced 
the details of the inquiry whose purpose was--and I am essentially 
quoting from the Commission's formal notice--to obtain an expert, 
informed, unbiased assessment of the technical and operational issues 
that impact wireless E-911 deployment including any obstacles to 
deployment and steps that might be taken to overcome or minimize them. 
My independent inquiry got started in earnest in April 2002 and the 
final report was submitted to the agency in October of that same year.
    While I do not intend to go back and review the findings and 
recommendations of that report in any detail in this testimony, certain 
aspects of the findings are still relevant today. In the report, I 
highlighted three over-arching findings:
    First, I stressed the importance of E-911 in general and wireless 
E-911 in particular to the safety of life and property and to homeland 
security. I noted that Congress had acknowledged this importance with 
the passage of the Wireless Communications and Public Safety Act of 
1999. I also noted how the continued growth in wireless--cellular 
phone--networks and the public's dependency upon them had further 
underscored the importance of wireless E-911. If I were writing that 
passage today I would point out that the importance and dependency has 
further increased as a rising percentage of all E-911 calls are made 
from wireless devices and some subscribers even give up their landline 
service and rely solely upon their cellular phones for basic voice 
services.
    Second, in 2002, I pointed out that in the preceding years the 
center of attention of the industry had clearly shifted from 
discovering, developing, evaluating and selecting the ways of locating 
mobile units in wireless systems to integrating the location 
information into the existing E-911 system. I regarded that as good 
news at the time because it indicated that there was no longer any real 
disagreement regarding the technical feasibility of providing wireless 
E-911 to the then approximately 130 million wireless subscribers in the 
United States. I went on to argue that the challenge at that point was 
to successfully complete the implementation of wireless E-911--a 
process that was still in its early stages at that point. The report 
also noted that the shift in emphasis to actual deployment of the 
technology had surfaced other issues and challenges that needed to be 
overcome to facilitate the timely rollout of wireless E-911--issues and 
challenges that I addressed in the main body of the report.
    Viewed from today's perspective--nearly 5 years later--I would note 
that we have fallen short in terms of implementation because, as 
recently reported by National Emergency Number Association--NENA--``. . 
. only fifty-four percent of Public Safety Answering Points (``PSAPs'') 
covering two-thirds of the population have the necessary technology to 
locate wireless 9-1-1 callers.'' I would also note that--besides the 
emergence of VoIP which has created an additional set of challenges--
the increased use of wireless devices inside buildings presents 
formidable challenges, a topic that I will address in more depth later 
in my testimony.
    In the third initial finding in my report in 2002, I raised 
concerns about the technical limitations associated with the existing 
wireline E-911 network infrastructure. Namely, the existing 
infrastructure was largely built upon outdated analog technology in an 
increasingly digital world. I concluded that while the wireline E-911 
network was generally recognized as being reliable, it was also 
recognized that it had serious limitations in terms of speed, 
scalability, and adaptability--limitations that not only burdened the 
development of wireless E-911 at the time but also constrained our 
ability to extend E-911 access to a myriad of emerging non-traditional 
devices and networks. While those limitations were understood to a 
certain extent in 2002, they are even more apparent today. For example, 
with the camera phone that I have in my pocket, in calling E-911, I 
could send a picture of a suspect's car speeding away from a crime 
scene because modern, all-digital packet switched networks based upon 
the Internet Protocol suite are perfectly capable of conveying voice, 
data, image and even video traffic. The challenges to that vision 
include not only the still-remaining limitations of the existing 
wireline E-911 infrastructure but also the ability of the PSAP to 
receive, process, and display such information.
    While I have not studied in great detail S. 428, the bill known as 
the ``IP-Enabled Voice Communications and Public Safety Act of 2007,'' 
I was gratified to find that it requires the National E-911 
Implementation Coordination Office ``to develop and report to Congress 
on a national plan for migrating to a national IP-enabled emergency 
network capable of receiving and responding to all citizen activated 
emergency communications. . . .'' Such a network would not only 
facilitate wireless E-911 calling but also the handling of VoIP calls 
made over broadband wired networks.
    With that background on my first report done on behalf of the FCC, 
I would now like to turn to some more recent efforts--and some of the 
tentative findings and recommendations that stem from that work. The 
FCC came back to me in 2005--about 3 years after the completion of my 
first report--and asked me to update it. At the time, they were unable 
to fund a comprehensive update and, consequently, we negotiated and 
settled on a statement of work that encompassed three areas:

  <bullet> Providing an independent view of the current state-of-the-
        art in location technologies that were currently deployed

  <bullet> Reviewing the technical and other interrelationships between 
        Wireless E-911 and nomadic VoIP issues

  <bullet> Evaluating the technical and other challenges faced by 
        smaller carriers/telecommunications providers in deploying 
        Phase II services

    My proposed methodology for the update was the same as I used in my 
original report. Namely, I would conduct interviews with stakeholders 
and other technical experts, study peer-reviewed technical journal 
articles, review industry produced white papers, evaluate anecdotal 
evidence, etc. One hope was that stakeholders would be a little more 
open with me than they might be when dealing with other stakeholders or 
with the Commission itself. Additionally, in the spirit of achieving 
open communications with stakeholders, it was agreed early-on that I 
would focus my attention on longer range issues and not on the really 
contentious issues of the moment. For example, at that time, one of the 
really hot issues was the question of how big an area the wireless 
carriers should be allowed to average over in carrying out the accuracy 
measurements to demonstrate that they were in compliance with the 
Commission's rules and regulations. That is, the issue was whether the 
averaging should be done on a PSAP-by-PSAP basis or, alternatively, 
over a statewide or other larger area. While I had identified this 
issue in my earlier study, it had become so charged and contentious by 
the time of my second report that to address the issue would risk 
overshadowing the remainder of the study. Accordingly, this issue was 
left outside the scope of my second inquiry.
    With regard to the first question I was to address in the second 
study--the state-of-the-art in location technology--I would like to 
offer the initial comment that I think it is an extremely important 
topic. We--including the general public--need to know how well the E-
911 systems are doing in terms of the overall accuracy with which they 
are locating wireless callers. Specifically, it is important to know 
how well they are actually performing in operational systems in the 
field rather than in laboratory or other, more controlled settings. As 
the old management adage says, ``You can't manage what you don't 
measure.'' Without information from measurements on operational 
systems, how can we tell whether things are improving and how, as 
consumers, can we make informed purchasing decisions? If, as has been 
reported, the FCC takes action to require wireless providers to improve 
accuracy, how will public safety officials and the public know that 
improvements are actually being achieved in the field?
    Going directly to this point, when I began the second study, I 
quickly discovered that, in terms of the overall performance of 
currently deployed wireless E-911 systems, there was very little in the 
way of publicly available information upon which to ascertain the 
actual state-of-the-art in location technologies. However, by signing 
Non-Disclosure Agreements--NDAs--I was able to gain access to some 
actual performance information--routine measurements made on working 
systems. And, as it turned out, APCO, under its project LOCATE, had 
recently completed a series of accuracy measurements of their own in 
several markets with different topological and other characteristics. 
By signing an NDA, APCO very graciously made that information available 
to me; unfortunately, however, I was unable to fully absorb it before 
the FCC stopped my work in the spring of last year. Because of the NDAs 
I signed, I cannot talk now about that aspect of my work--the actual 
accuracy results being obtained--and will not do so.
    Rather, what I would like to do in the remainder of my testimony 
here this afternoon is to give you a flavor of my tentative conclusions 
regarding other aspects of the study--conclusions relating to issues 
other than the one dealing with the actual position accuracies being 
obtained in the field. First, with regard to the overall problem of 
measuring location accuracy, I found that even when public or non-
public measurement results were available, differences in testing 
methodology make it extremely difficult to interpret the results and 
compare the overall location accuracies obtained. That is, it is 
extremely difficult to make ``apples to apples'' comparisons across 
carriers, location technologies, types of geographic areas--urban, 
suburban and rural--and over time. Such differences in methodologies 
are primarily the result of the flexibility in test procedures 
permitted under the FCC's rules and the test procedures recommended by 
industry groups. These procedures--such as the ones addressed in Office 
of Engineering and Technology Bulletin 71 (``OET-71'')--do not specify 
a detailed testing methodology; rather they provide what amounts to as 
guidance for the carriers and their vendors in creating such a detailed 
test methodology or plan.
    From a regulatory perspective, there are some good reasons to 
provide such flexibility so that changes in technology, for example, do 
not require time consuming regulatory proceedings to change the 
agency's rules. Clearly such flexibility has advantages to the wireless 
carriers. But I found that such flexibility produces the difficulties 
in making valid comparisons as I touched upon a moment ago. More 
specifically, I observed that a major factor producing differing--or 
hard to compare--test results is how the locations for making the 
required test calls are determined.
    Although not as important a factor, differences in the way handset- 
and network-based solutions work add an additional level of complexity 
in terms of comparing the performance of different location 
technologies. This is because, within the two basic technological 
approaches, there are significant tradeoffs among yield, time-to-first-
fix and accuracy that have not been fully explored. For example, one 
technology (or one implementation of a technology) may produce a less 
accurate position location but produce it very quickly while another 
technology or implementation may produce a more accurate estimation of 
the location but at the cost of some delay. In that case, is the more 
accurate fix always to be preferred? Now that the location technologies 
are more mature, it may be time to investigate these tradeoffs in more 
detail.
    Now otherwise legitimate differences in test methodologies--e.g., 
how test calls are distributed geographically--or system 
implementations can result in potentially serious disagreements in 
terms of regulatory compliance and, for the purposes of the study I was 
conducting, in terms of ascertaining the current state-of-the-art and 
the associated trends. Having observed this, I felt strongly--and still 
feel strongly--that serious repercussions could result if these and 
other differences in methodology (e.g., between public safety entity-
sponsored accuracy testing and carrier-sponsored testing) are left 
unresolved.
    A critical example of the importance of location weighting is what 
percentage of the test calls are made from inside buildings as opposed 
to out in the open. For reasons that I will expand upon in a moment, 
this is especially true of handset-based solutions which depend upon 
the reception of Global Positioning System (``GPS'') satellite signals 
to function properly. The fact that the GPS signals come from far out 
in space means that they are typically much weaker than the signal 
arriving at the handset from a nearby cellular tower. The result is 
that a cellular subscriber may be able to successfully complete a 9-1-1 
call from within the building while, in contrast, the satellite signals 
are too few or too weak to allow an accurate position fix to be 
obtained. That is, you can complete the call but you cannot be 
automatically located. If it is true that as many as 40-60 percent of 
all cellular calls are made indoors--from an office, home, sports 
arena, restaurant, airport or whatever, then it follows that a 
corresponding percentage of test calls should be made from such 
locations. I do not believe that is the case today.
    Still another factor that bears heavily upon this issue is the 
phenomenon that younger people--such as college students--and other 
people in our society are increasingly giving up their landline 
telephone and relying entirely upon their cellular phone for 
traditional voice communications. This continuing trend, known as 
wireless for wireline substitution, clearly compounds the problem of 
in-building accuracy performance. I should also mention that various 
devices and systems--such as bi-directional amplifiers (``BDAs''), 
distributed antenna systems, ``leaky-coax systems,'' and pico-cells--
have been developed and deployed to enhance in-building cellular 
coverage without a corresponding ``boost'' in GPS signals. While these 
systems may have important consumer benefits in terms of better 
coverage, they may exacerbate the problem of accurately locating in-
building E-911 callers. Moreover, even network-based location systems 
may suffer in terms of location accuracy due to the weakening of the 
additional terrestrial signals needed for triangulation.
    Since this issue of in-building coverage is perhaps the most 
important finding that emerged from my study, I would like to say a few 
more words about it. One thing I want to make clear is that, in raising 
this in-building coverage issue, I am not being critical of past 
efforts to develop and deploy wireless E-911 location systems. When we 
embarked upon this program of locating wireless E-911 callers well over 
a decade ago--cellular phones were still rather clunky devices and the 
cost of cellular service was still relatively high compared to landline 
calling. At that time, few could have fully appreciated the increasing 
percentage of calls that would be made from inside buildings and the 
technological advances that would facilitate such calling. The systems 
that have been developed have, in many ways, been truly amazing and we 
should all be thankful for them. But the fact of the matter is, people 
are making more indoor calls and, with existing technology, we may have 
trouble locating them there. Hence, it doesn't make sense to me--and it 
is potentially misleading to consumers--to have test methodologies that 
require placing only a small fraction of the test calls from inside 
buildings when it is likely that a significantly greater fraction of 
cellular calls are made from such locations.
    Turning now to another part of my second study, the 
interrelationship between wireless E-911 and nomadic VoIP, a major 
challenge for nomadic VoIP services is the lack of a system for 
automatically entering or confirming the location of VoIP phone or 
other end-user device. Requiring customers to manually enter their 
location information when movement is not infrequent is fraught with 
problems. When a VoIP user moves his or her device from a certain 
location and fails to update his or her new location information, then 
a call to 9-1-1 may not be properly routed. For example, if a VoIP user 
moves from a home or office location in Washington, D.C. to a rented 
beach house in Rehobeth, Maryland and fails to update his or her 
location information, then a call to 9-1-1 may be answered in 
Washington rather than Rehobeth with potentially disastrous results. 
Moreover, and not surprising, since nomadic VoIP calls require a 
broadband connection for good performance, they are more apt to be made 
from indoors. This means that wireless and VoIP E-911 systems share a 
common need for an automatic location system that works well from 
within buildings. Thus in considering the interrelationship between 
wireless and VoIP E-911 requirements, it is quite possible that there 
could be substantial benefits from developing an automatic location 
system that would serve both needs.
    I will come back to this issue in a moment but, before I do, let me 
add just a few words about the rural issue. Rural carriers using 
network-based terrestrial solutions face legitimate problems in meeting 
accuracy requirements where there are not enough antenna sites or the 
sites are geographically distributed in such a way that reliable 
triangulation among them is not possible. An extreme example of this 
would be a small and rural community served by a single cellular base 
station antenna site. Under these circumstances, network-based 
terrestrial triangulation will not work in the absence of additional 
cellular base station antenna sites. Ultimately, technology may produce 
a solution to this rural problem through the use of ``hybrid'' or 
blended solutions that combine handset (GPS satellite) based solutions, 
which tend to work best outdoors and in less congested areas, and 
network (terrestrial triangulation) based solutions which tend to work 
best in more congested urban areas where the cellular base station 
antenna sites are more densely packed and evenly distributed. However, 
even a hybrid solution could leave in-building coverage problems for 
wireless E-911 and for nomadic VoIP providers who might try to solve 
their automatic location problem using the same blended approach.
    With that background, I would like to conclude by suggesting to you 
some of the recommendations that I was contemplating at the time my 
work was terminated last year:

  <bullet> First, that the Commission take appropriate steps to 
        encourage the stakeholders to agree on a common testing 
        methodology (or to at least reduce the differences and 
        ambiguities associated with existing methodologies) for 
        assessing location accuracy. Moreover; the revised methodology 
        should take into account increased indoor usage of wireless 
        devices

  <bullet> Second, that the Commission arrange for the filing of 
        aggregated accuracy measurement data using the common or more 
        standardized methodology. This aggregated data could, in turn, 
        be used by the Commission (or by a third-party with appropriate 
        protection of proprietary data) to ascertain and track the 
        current state-of-the-art in location-based technologies in 
        various environments--e.g., urban, suburban and rural. It may 
        also be appropriate to report the state-of-art to the Congress 
        on a regular basis as well

  <bullet> Third, that the Commission take appropriate steps to 
        encourage the development of hybrid or combined technologies 
        that would solve the rural location problem I described earlier

  <bullet> Fourth, that the Commission, through an appropriate forum 
        such as its own Technological Advisory Counsel (``TAC'') or the 
        National Academy of Engineering, and, perhaps, in conjunction 
        with other governmental agencies such as the Department of 
        Homeland Security and the National Telecommunications and 
        Information Administration of the Department of Commerce, 
        investigate the broad issue of in-building location taking into 
        account wireless and perhaps nomadic VoIP requirements as well

  <bullet> Fifth, that the Commission work with the wireless carriers 
        to ensure that customers understand the limitations of location 
        technologies as compared to the wireline system when they call 
        9-1-1.

    That concludes my testimony and I would be happy to entertain any 
questions that you might have.

    The Chairman. I thank you very much, Mr. Hatfield.
    And may I assure the panel that all of your full statements 
will be made part of the record.
    And now, may I recognize Ms. Wanda McCarley? President 
McCarley?

           STATEMENT OF WANDA S. McCARLEY, PRESIDENT,

          ASSOCIATION OF PUBLIC-SAFETY COMMUNICATIONS

         OFFICIALS (APCO) INTERNATIONAL; OPERATIONS AND

        TRAINING MANAGER, TARRANT COUNTY 9-1-1 DISTRICT,

                       FORT WORTH, TEXAS

    Ms. McCarley. Good afternoon, and thank you, Chairman 
Inouye and Co-Chairman Stevens and members of the Committee, 
for the opportunity to appear before you here today to testify 
on behalf of the Association of Public-Safety Communications 
Officials International, APCO, and its more than 15,000 members 
who manage and operate emergency communications centers 
worldwide.
    My name is Wanda McCarley, and I'm the Operations and 
Training Manager for the Tarrant County 9-1-1 District in Fort 
Worth, Texas. I also serve as the President of APCO 
International.
    We're here today to discuss the future of 9-1-1. Public 
safety faces three major challenges to meeting the public's 
expectations for 9-1-1 in the future. Among these challenges 
are technology, funding, and staffing. My testimony will focus 
mostly on the challenge of technology, but I would also like to 
request that my full testimony, which also discusses funding 
and staffing challenges in more detail, be submitted for the 
record.
    On behalf of APCO and its members, I would like to applaud 
the leadership of Senators Nelson, Snowe, and Clinton for 
introducing Senate bill 428. We strongly support the bill's 
intent to require VoIP service providers to provide 9-1-1 
capability, including E-911 functionality, to subscribers in 
accordance with the FCC's order. Also, we support extending 
liability protection to PSAPs for VoIP 9-1-1 calls. APCO 
strongly supports ensuring a State and local government's 
ability to impose and collect a 9-1-1 fee from VoIP service 
providers. Finally, APCO asserts that VoIP providers should not 
be able to offer services to new customers where the provider 
is not able to comply with the FCC's requirements.
    The public expects that when they dial 9-1-1, regardless of 
the technology, they will receive immediate and effective 
emergency response. As public-safety communications officials, 
meeting these expectations is our primary goal, and there is no 
room for error.
    A key element to meeting these expectations is ensuring the 

9-1-1 call-taker is able to obtain, quickly, the best location 
information possible for the caller. To address location issues 
raised by wireless 9-1-1 calls, APCO established Project 
LOCATE. In 2005, Project LOCATE began an independent study to 
test wireless location data delivered to PSAPs by wireless 
carriers. I would like to request that the Project LOCATE final 
report also be submitted for the record.<SUP>*</SUP>
---------------------------------------------------------------------------
    \*\The information referred to is retained in Committee files.
---------------------------------------------------------------------------
    The Chairman. Without objection.
    Ms. McCarley. To summarize, the study found that wireless 
location accuracy performance of the wireless carriers in the 
designated PSAP test areas did not meet Project LOCATE's 
expectations, that the public-safety community would be best 
served by developing a positive partnership with the wireless 
service providers, and that the efforts to maximize the 
usefulness of location data delivered to the PSAP with wireless 
9-1-1 calls must be continuous and supported by appropriate 
Federal, State, and local regulatory, legislative, and 
Executive Branch authorities.
    In 2006, APCO also established Project 41, a part of 
Project LOCATE, to address the impact on operational practices 
facing public safety communications specific to VoIP and 
emerging technologies. We need to be proactive with new 
consumer telecommunications services to ensure they are able to 
provide effective and comprehensive E-911 services to the 
calling public. 9-1-1 must not be an afterthought to new 
consumer services. Congress needs to be proactive about 
legislative solutions that ensure technologies of tomorrow meet 
today's public expectations for 9-1-1 services.
    Future 9-1-1 services will be based on radically different 
technology and architecture. Absent new and consistent funding 
solutions, local county executive decisionmakers will be truly 
challenged to migrate legacy systems in favor of new 
technology. The IP PSAP of the future will offer many benefits; 
however, without adequate funding, the disparity between the 
capabilities of PSAPs across the country that exist today will 
only be exacerbated.
    We ask Congress to keep the promise it made in 2004, when 
it passed the ENHANCE 911 Act, and appropriate the authorized 
$250 million for the 2008 budget year. This grant program will 
help many local PSAPs, especially in rural communities, that 
are struggling to upgrade their systems to meet technological 
challenges.
    As discussed in my written testimony, PSAPs also face 
staffing, retention, and training issues. We need your help to 
ensure that local emergency communications centers have what 
they need to keep their most valuable resource, that resource 
being people.
    Once again, I would like to thank you for allowing me the 
opportunity to be here today. Our Nation's 9-1-1 systems need 
your support. Their challenges are many. APCO looks forward to 
working with you toward solutions for the future of 9-1-1.
    Thank you.
    [The prepared statement of Ms. McCarley follows:]

  Prepared Statement of Wanda S. McCarley, President, Association of 
Public-Safety Communications Officials (APCO) International; Operations 
 and Training Manager, Tarrant County 9-1-1 District, Fort Worth, Texas
    Thank you, Chairman Inouye and Co-Chairman Stevens, and members of 
the Committee for the opportunity to appear before you today to testify 
on behalf of APCO International and its members, who manage and operate 
emergency communications centers worldwide. My name is Wanda McCarley 
and I am the Operations and Training Manager for the Tarrant County 9-
1-1 District in Fort Worth, Texas. I also serve as the President of 
APCO International.
    APCO was established in 1935 and it is the Nation's oldest and 
largest public safety communications organization, representing members 
around the world who manage and operate communications systems and 
facilities for police, fire, emergency medical services and other state 
and local government public safety agencies. APCO International's 
mission is to be a member-driven association of communications 
professionals that provides leadership; influences public safety 
communications decisions of government and industry; promotes 
professional development; and, fosters the development and use of 
technology for the benefit of the public.
    From the very beginning, APCO International's members have played a 
critical role in the development of 9-1-1 services. Our members were 
there when the first 9-1-1 call was placed in Haleyville, Alabama on 
February 16, 1968 and today they are responsible for answering and 
dispatching emergency services to thousands of 9-1-1 calls made every 
day around the country.
    Over the past 30 years, APCO's members have done a great job of 
educating the public to dial 9-1-1 in case of an emergency. Today, 9-1-
1 is the primary lifeline the public uses to reach emergency services 
when a one-year-old child accidently falls in to a pool and is not 
breathing, when a person feels chest pains and believes they are having 
a heart attack, when a eyewitness sees a major car accident occur on 
the highway, when a passerby sees a suspicious package left alone near 
an office building, and the hundreds of other emergencies that happen 
every day around the country.
    However, I am here to tell you that not all is well with 9-1-1. 
Public safety faces three major challenges to meeting the public's 
expectations of the future, including technology, funding, and 
staffing.
Technology
    The prompt, effective dispatch of appropriate emergency services to 
any reported event is dependent upon obtaining the best location 
information possible from the caller. This essential element of 
competent dispatching must occur regardless of the technology used to 
access the emergency number, 9-1-1.
    Since the beginning, the 9-1-1 and Enhanced 911 (E-911) 
infrastructure has been built to process hard wire/landline 9-1-1 calls 
from people's homes and offices. Consumers who use wireless or Voice 
over Internet Protocol (VoIP) services often recall the hard wire/
landline 9-1-1 service at their home, which translates the assigned 
telephone number to a unique, physical address and believe that the 
same is true for wireless and VoIP 9-1-1 calls. Today, while 
technologies such as wireless and VoIP services provide a wide array of 
new telecommunications services to their customers, they have been 
challenged to provide a comprehensive and effective solution for E-911 
that meets the public's expectations.
    APCO International applauds the leadership of Senators Nelson, 
Snowe and Clinton for introducing the IP-Enabled Voice Communications 
and Public Safety Act of 2007 (S. 428). We are grateful that this bill 
has taken in to consideration issues that are very critical to 
improving VoIP 9-1-1 services. While APCO International has not taken a 
formal position on the bill, we strongly support the bill's intent to 
require VoIP services to provide 9-1-1 service, including E-911 
service, to its subscribers in accordance with the orders of the 
Federal Communications Commission (FCC). Also, we strongly support the 
provision of the bill that extends liability protection to public 
safety answering points for VoIP 9-1-1 calls. Finally, APCO 
International strongly supports the provision of the bill that ensures 
a State and local government's ability to impose or collect a 9-1-1 fee 
from VoIP service providers. We believe that VoIP providers should not 
be able to offer services to new customers in geographic areas where 
the provider is not able to comply with the FCC's 9-1-1 and E-911 
requirements contained in the FCC's Order in WC Docket Nos. 04-36 and 
05-196.
Project LOCATE Report
    Shortly, APCO will be releasing a report on location performance 
testing of wireless 9-1-1 calls. In August of 2005, APCO's Project 
Locate Our Citizens At Times of Emergency (LOCATE) began an independent 
study to test wireless location data delivered to Public Safety 
Answering Points (PSAPs) by wireless carriers. Project LOCATE's 
assessment of the location data delivered to the PSAP was conducted in 
a manner consistent with the published FCC guidelines. The effort 
demonstrated by Project LOCATE showed that public safety and the 
wireless service providers share a common, sincere goal in improving 
location data delivered to the PSAP.
    This is the first public safety study to review wireless E-911 
system performance conducted at selected sites, representing a wide 
variety of topography and demographics. The goal of the testing was to 
assess overall wireless location performance and the operational impact 
of inaccurate data on PSAPs. Some of the issues addressed in the study 
included:

  <bullet> The value of the location data in terms of prompt, effective 
        dispatch of the appropriate emergency services;

  <bullet> The variables that contribute to the quality of the location 
        data presented to a PSAP when emergency calls are made from 
        wireless devices;

  <bullet> The lessons that have been learned since the deployment of 
        Phase II wireless E-911; and

  <bullet> The best practices that can be adopted to improve the 
        effective deployment and performance monitoring of Phase II 
        wireless E-911, as well as the processing of per call location 
        data at the PSAP.

    Since 1996, the FCC has taken action to improve the quality and 
reliability of 9-1-1 emergency services for wireless telephone users by 
adopting rules to govern the availability of basic 9-1-1 services and 
the implementation of Enhanced 9-1-1 (E-911) for wireless services. The 
Commission's wireless 9-1-1 rulings seek to improve the reliability of 
wireless 9-1-1 services and to provide emergency services personnel 
with location information that will enable them to locate and provide 
assistance to wireless 9-1-1 callers more quickly. To further these 
goals, the agency has required wireless carriers to implement E-911 
service, subject to certain conditions and schedules.
    Truly effective wireless deployment will continue to require 
accurate location data, as defined in FCC Docket Number 94-102. 
However, the standard of location accuracy established by the 
Commission is not routinely delivered to the PSAP, nor is it required 
under current FCC rulemakings. Further, the vast majority of PSAPs 
often have no means to assess the location performance deviation per 
PSAP based on credible end-to-end performance testing.
    This Project LOCATE Final Report seeks to offer PSAPs and others a 
number of effective practices. The findings of Project LOCATE show that 
a good partnership with all wireless services providers involved is 
critical to timely deployment, implementation and accurate delivery of 
wireless 9-1-1 information.
    The findings of Project LOCATE Final Report include:

        1. There is a clear expectation that the PSAP, as well as 
        traditional first responders, will have consistent and accurate 
        location data delivered with all wireless 9-1-1 calls to the 
        PSAP. The wireless location accuracy performance of the 
        carriers in the designated ``PSAP Test Area'' did not meet 
        these expectations.

        2. The authority having jurisdiction should implement 
        ``baseline performance testing'' to better evaluate and 
        understand how the system(s) serving the PSAP(s) collects and 
        processes location data that is delivered to the PSAP.

        3. The Effective Practices contained in the study, many of 
        which have gained consensus by public safety, should be 
        reviewed, understood and practiced to maximize system service 
        potential.

        4. The public safety community would be best served by 
        developing a positive partnership with the wireless service 
        providers within their service area, demonstrating a solid 
        understanding of the technology and options available as well 
        as maintaining open and candid communications regarding 
        performance and service.

        5. The supportive information contained within the Project 
        LOCATE report should be reviewed and used properly to better 
        understand wireless 9-1-1 services as well as better manage the 
        expectations of the public and public safety/service 
        stakeholders.

        6. The efforts to maximize the usefulness of location data 
        delivered to the PSAP with wireless 9-1-1 calls must be 
        continuous and supported by appropriate Federal, state and 
        local regulatory, legislative and executive branch authorities.

Project 41
    In August 2006, APCO International established Project 41--VoIP and 
Emerging Technology Location Delivery Challenges that is a part of 
Project LOCATE to address the impact upon operational practices facing 
the public safety communications community specific to VoIP and related 
technologies. APCO International's Project 41 looks to develop 
partnerships with vendors and service providers to improve the location 
information provided, provide public education to manage the 
expectations of consumers, and create an effective practice guide to 
include technical and operational alternatives for public safety 
answering point (PSAP) response. Project 41 is responsible for:

  <bullet> Establishing strategies to ensure public safety interests 
        related to the deployment of nontraditional technologies, 
        funding concerns, location challenges, and other such matters 
        are effectively represented in related forums; and,

  <bullet> Establishing effective educational strategies for public 
        safety personnel and elected officials related to current and 
        emerging technology, location challenges, funding concerns, 
        current public and private strategies and APCO activities.

    Next Generation 9-1-1 (NG-911) systems will ultimately occur within 
a broader array of interconnected networks comprehensively supporting 
emergency services; from public access to those services to the 
delivery of emergency information to call-takers, dispatchers and first 
responders. This development is an evolutionary process to enable the 
general public to make a 9-1-1 call from any wired, wireless, or 
Internet Protocol (IP) based device. These advances allow the emergency 
services community to take advantage of Enhanced 911 call delivery and 
other functions through new IP-based, internetworking technologies. As 
a result, transition to both new technology and new operational 
environments will be essential to that process.
    On March 30, APCO International and the National Emergency Number 
Association (NENA) released a statement that outlined that the 
activities of both organizations will be mutually supportive, 
coordinated, and focused on achieving the best transition possible to 
NG-911 systems for the 9-1-1 community, without diminishing the ability 
to promptly and effectively locate the ``caller'' or ``initial request 
for service location.'' APCO and NENA acknowledge that:

  <bullet> NENA's focus is on the technical and architectural 
        components of NG-911 systems, along with the operational 
        environment in which those systems must operate; and

  <bullet> APCO's focus is on the operational utility of those systems, 
        including the development of effective educational and related 
        strategies to optimize their use by the public, the public 
        safety community, and the governance and public policy entities 
        ultimately responsible.

    It is the goal of APCO International to be more proactive with new 
consumer telecommunications services to ensure they are able to provide 
effective and comprehensive enhanced 9-1-1 services to their customers. 
Unfortunately, for technologies such as wireless and VoIP services, the 
principle of 9-1-1 seems to have been an afterthought as they emerged 
on the telecommunications marketplace to compete with traditional 
telephone services.
    APCO International looks forward to working closely with this 
Committee, Congress, the FCC and all telecommunications service 
providers, including VoIP services, to ensure that before a consumer 
buys a product or service to replace their traditional telephone 
services with full 9-1-1 and E-911 capabilities, the provider is able 
comply with current public safety obligations that are inherent to 
today's telecommunications industry. While it is great to be able to 
take a picture with your wireless phone or be able to connect your VoIP 
phone to any broadband service, it is vital to be able to call 9-1-1 
and be assured you will get prompt, effective dispatch of appropriate 
emergency services to the location information reported by the wireless 
and VoIP service provider for the event. If this information is 
inaccurate or missing, the results could be tragic. All of us here 
today have the obligation to the public we serve to ensure their safety 
is not compromised when a consumer decides what type of telephone 
service they would like to purchase.
Funding
    The second challenge is funding for public safety when they are 
trying to meet the new demands placed on 9-1-1 systems with a change in 
the funding paradigm for 9-1-1 surcharges. There is a considerable 
discrepancy in the amount of revenue a 9-1-1 surcharge brings to a 
particular jurisdiction to maintain 9-1-1 services. While most 
jurisdictions with large subscriber bases may be able to generate 
enough revenue from wireless and wireline 9-1-1 surcharges, areas that 
have sparse population and few subscriber units often struggle to meet 
even the basic needs of maintaining a 9-1-1 services.
    Funding for services from basic 9-1-1 to E-911 (wireline and 
wireless) is provided from a number of sources. The oldest and most 
common form of funding is a surcharge on wireline telephone subscribers 
within a given service area. In many states, there is also a separate 
surcharge on wireless subscribers within the service area. The amount 
of the surcharges vary based on local and state laws. A great deal of 
states that distribute surcharge monies at the state level to PSAPs do 
so based on the number of landline telephones in the jurisdiction. 
Unfortunately, the number of landline phones is dwindling with the 
increasing popularity of wireless telephones used as the primary 
residential communications service. While the surcharge model had a 
measure of appropriateness in years past, the expansion of access to 9-
1-1 services at the PSAP from other devices and technology such as VoIP 
has created a pattern of diminishing revenue amidst increased 
expectation of service.
    Future 9-1-1 services are expected to be based on radically 
different technology and architecture than are in existence today. 
There are some PSAPs that may make this transition easily and 
comfortably; while others will struggle and many will not be able to 
afford any changes. Absent new and consistent funding solutions, local/
county executive decision-makers will be truly challenged to discard 
legacy systems, stranding their investment paid in most cases with 
public tax dollars, in favor of new and more expensive technology. The 
IP-based PSAP of the future has benefits in a homogenous environment; 
however without adequate funding mechanisms, the disparity between the 
capability of PSAPs across the country now, will only be exacerbated by 
yet another layer of disparate technology.
    The increased public interest in and expectation of effective 9-1-1 
services, which is unmatched by the revenue mechanisms in place, is not 
solely a function of technology changes however.
    The survivability and sustainability of public safety communication 
services, including public access through 9-1-1, cannot be assumed by 
any political entity. There are reasonable precautions and preparations 
that can improve the chance to survive disasters; however each element 
has fiscal impact. Local/county executive decision-makers often lack 
the funds necessary to implement any ``back-up'' processes. At a 
``Telephone Service Priority Summit,'' convened by the FCC, it was 
reported that only about 10 percent of the primary 9-1-1 circuits 
across the country are protected by this service, which is seen by many 
to be an additional 9-1-1 expense in uncertain revenue times.
    Significant challenges remain ahead for 9-1-1 managers seeking to 
reach even the basic level of service integrity at the local/county 
level amidst disaster. Each class of such challenges has a fiscal note 
attached, which has delayed the discussion and activity in many 
locations.
    In order to address some of the funding issues and move PSAPs to 
deploy Phase II technologies, Congress passed the ENHANCE 911 Act of 
2004. We are grateful to the leadership of this Committee that there 
has been considerable progress made to allocate $43.5 million in 
auction proceeds from the DTV spectrum. We applaud the efforts of the 
Committee and we continue to urge Congress to also appropriate the full 
authorized amount of $250 million for Fiscal Year 2008 for 9-1-1 grants 
programs established in the ENHANCE 911 Act. APCO International would 
also like to work with the Members of the Committee to expand the 
purpose of the program to ensure grant funds can be used for planning, 
project management, training, and equipment for computer-aided dispatch 
(CAD) systems and IP emergency networks.
Staffing and Training
    Finally, the third challenge is the ability of local emergency 
communications centers to adequately staff their operations. 
Recruiting, retaining, and training communications center personnel, 
call takers, and dispatchers has proven to be one of the greatest 
challenges 9-1-1 faces today. Having well qualified and trained staff 
can make the difference between life and death. Keeping this staff 
after they have been trained has become a daunting challenge for public 
safety.
    To fulfill the mission of 9-1-1 and provide efficient service to 
the public and the law enforcement, fire/rescue and emergency medical 
services (EMS) agencies served, an adequate number of qualified 
personnel should be on duty in the communications center. When this is 
not the case, the quality of service can diminish and the short and 
long term effect on communications center personnel often leads to 
staffing issues, personnel being overworked because the centers are 
understaffed and the increase of attrition rates. Communications 
centers need to strive to maintain adequate staffing levels to ensure 
expected services levels for the public and required by the law 
enforcement, fire/rescue, and EMS agencies are not jeopardized. One 
measure for adequate levels of staffing include developing a 
methodology that allows a communication center to identify the number 
of qualified 9-1-1 call takers necessary to answer 9-1-1 calls and 
other telephone lines for which the agency is responsible in an 
acceptable manner, within acceptable call answering and call processing 
times. The second measure involves developing a methodology to identify 
the number of qualified on-duty law enforcement, fire/rescue, EMS 
dispatchers necessary to adequately and safely communicate with, 
provide command and control assistance for and manage an acceptable 
number of law enforcement, fire/rescue and EMS units on a given number 
of radio channels. While these two functions are separate, they need to 
be able to work together seamlessly to ensure response times are met 
and lives are saved. In response to these issues, APCO International 
established Project RETAINS. The purpose of the program is to educate 
public safety and local government officials as to what they have to do 
to retain and improve the professionalism of their call takers and 
dispatchers.
    While the recruitment and retention of communications center 
personnel is the responsibility of the local officials, there is a need 
to develop and promote national standards for staffing and training of 
communications center personnel. APCO International, as an ANSI 
accredited standards setting organization, is working to develop these 
standards.
    APCO International and its members are committed to funding the 
development of these standards, but it will take the time and 
cooperation of all parties involved to establish nationally accepted 
standards for emergency communications center personnel. Local 
emergency communications centers should be able use Federal grants to 
train their staff to comply with nationally accredited training 
programs that meet the standards. However, currently there is no 
Federal grant program for 9-1-1 that can be used to train 
communications center personnel. Most often Federal grant programs go 
to funding equipment, but they neglect the most important element in 
any emergency--the human element.
    Often, the first budget item that gets cut in most local 
governments is training. However, when it comes to 9-1-1, this is the 
last thing a local government should cut. Imagine if you were in a PSAP 
in Wenatachee, Washington and you got a 
9-1-1 call from someone in the Lake Wenatchee State Park without any 
location information. The trained call taker should be able to ask the 
appropriate questions to determine the caller's locations. In order to 
do this the call takers will need to have a reasonable understanding of 
the location, terrain and landmarks within their jurisdiction. Without 
proper training, the local public safety agency will have to expend 
considerable resources (including man power) to conduct a search and 
rescue operation rather than a rescue operation. While seconds, minutes 
and hours tick away in the search, the potential for having a 
successful rescue operation diminishes drastically. Training in the 
front end of the call will most like save money but more importantly 
save lives. Public safety communications grant programs should be used 
for training, as well as equipment, however the use of these grants 
should be tied to the acceptance of a nationally accredited standard by 
the local emergency communications center.
    Once again, I would like to thank Chairman Inouye, Co-Chairman 
Stevens and all the members of the Committee for allowing me the 
opportunity to speak on behalf of the thousands of public safety 
communications professionals that are served by APCO International. In 
conclusion, I would like to say that our Nation's 9-1-1 systems need 
your support to meet the current challenges that are being faced by 
many of the of local public safety call centers today. APCO 
International looks forward to working with the members of this 
Committee to find effective solutions for technology, funding and 
staffing challenges to ensure the viability of our Nation's 9-1-1 
systems.
Project LOCATE Report Summary<SUP>*</SUP>
---------------------------------------------------------------------------
    \*\The full report will be retained in Committee files.
---------------------------------------------------------------------------
    A new generation of telephone customers is being raised without the 
benefit of land-based telephone lines. But they still expect rescuers 
to be able to find them. The issue has become more critical as the 
number of 9-1-1 calls from cell phones exceeds those coming from land 
lines, according to public safety experts. CTIA reports that 230,000 
calls to 9-1-1 are made from cell phones each day. The group also 
estimates that 8.4 percent of households are ``wireless only.''
    The FCC requires companies that use ``network'' technology--
triangulating among cell towers to determine the caller's location--to 
come within 300 meters of the caller 95 percent of the time. Generally 
speaking, the network solution works better in urban areas where it may 
be difficult for a satellite signal to penetrate buildings. but not so 
well in rural areas because of a lack of towers. Phones that use 
satellite technology are excellent in rural areas where there is little 
overhead interference.
    Carriers are required to test their location systems and to be able 
to pinpoint callers within certain distances. But they are not required 
to share their test results with 9-1-1 dispatchers, police and 
firefighters. And the Federal Communications Commission does no testing 
of its own.
    The Project LOCATE test is the first independent evaluation of 
wireless location technology. Tests were conducted in seven different 
communities across the country--Palo Alto, CA; Marion County, FL; 
Jasper County, MO; Onondaga County, NY; Rowan County, NC; Bexar County, 
TX; and Laramie, WY. The cities were selected based on topography, 
demographics, existing technology and other factors.
    Two companies tested used network technology primarily while five 
used ``handset'' technology, meaning they use global positioning system 
satellites to locate callers. Federal rules require companies using 
satellites to come within 150 meters for 95 percent of calls. The 
company identified as ``carrier No. 001'' in the testing was unable to 
come within 300 meters of the 9-1-1 caller 73 percent of the time in 
Onondaga County; 64 percent of the time in Marion County; and 61 
percent of the time in Jasper County. Carrier No. 002 was able to hit 
inside the target area 90 percent of the time in Bexar County; 89 
percent of the time In Laramie; 87 percent of the time in Onondaga 
County and 80 percent of the time in Palo Alto.
    Results varied based on carriers and geography. A few communities, 
however, stood out for poor performance, among them Marion County, 
Florida, which includes the City of Ocala; Onondaga County in New York 
and Jasper County, Missouri.
    If accuracy were measured at the community level, according to 
APCO's results, 71 percent of the tests would get a failing grade. But 
companies are allowed to measure their accuracy over a much larger 
area--an entire state, for example. That means highly accurate results 
in one area may drive up the average overall.
    While the report pointed out the generally poor performance of the 
wireless industry in locating 9-1-1 callers, it also pointed out the 
need for 9-1-1 call centers to work closely with providers and the 
importance of public education.

    The Chairman. I thank you very much, Ms. McCarley.
    And now, may I recognize Mr. Barbour?

  STATEMENT OF JASON BARBOUR, ENP, ON BEHALF OF THE NATIONAL 
              EMERGENCY NUMBER ASSOCIATION (NENA)

    Mr. Barbour. Thank you, Mr. Chairman, Vice Chairman 
Stevens, and members of the Committee. Thank you for bringing 
the 9-1-1 community to the table for these vital discussions.
    My name is Jason Barbour, and I am the Director of the 
Johnston County 9-1-1 System in North Carolina. I'm also a 
volunteer firefighter, a deputy sheriff, and the President of 
the National Emergency Number Association. I'm also a member of 
APCO, and am pleased to be joined here by my friend and 
colleague, APCO President Wanda McCarley.
    I'd like to begin by discussing the current state of 9-1-1. 
Today, we're averaging over 200 million 9-1-1 calls per year. 
Ninety-seven percent of the American public has access to 
enhanced wireline 
9-1-1 service, and nearly 85 percent of the population now 
lives in areas covered by Phase II wireless E-911. However, 
over 40 percent of the counties do not have wireless Phase II 
E-911 service, and there are still over 250 counties, mostly 
rural, that lack E-911 service for their landline telephone 
service, let alone wireless or VoIP. The last year and a half 
has seen a tremendous amount of progress on the issue of 9-1-1 
and E-911 for VoIP. Still, many areas lack VoIP E-911 service, 
and we believe that the passage of S. 428 and other 
congressional action will help solve this issue.
    NENA supports S. 428, as it strengthens the FCC's VoIP E-
911 order by requiring VoIP providers to provide 9-1-1 in 
accordance with the FCC regulations and addresses the issue of 
liability parity, State and local authority over 9-1-1 fees and 
the migration to an IP-enabled emergency network.
    NENA wholeheartedly supports the liability provision of S. 
428, which only Congress can provide at the Federal level. With 
that being said, we believe that we need to be forward-thinking 
to craft a bill in a manner that provides liability parity for 
current VoIP services and other appropriate current and future 
services, so we do not need to repeat this process every time a 
new technology comes along with 9-1-1 expectations.
    Second, maintaining the current funding levels and 
providing funding for the development of the Next Generation 9-
1-1 system is perhaps the most important issue facing 9-1-1 
today. The public-safety community is extremely concerned by 
the immediate and growing impact of changes in communication 
landscapes that are leading to a loss of conventional 9-1-1 
revenues. As we work to address current and future funding 
needs, it is essential that Congress do nothing to compromise 
current State and local authority to impose and collect fees on 
all services. Thus, NENA supports the current language in S. 
428, confirming State and local authorities authority to impose 
and collect 9-1-1 fees on IP-enabled voice services.
    Finally, the future of 9-1-1 and emergency communications. 
One of the challenges we have struggled with in deploying 
wireless and VoIP E-911 service is that we are forcing new 
technologies into an old 9-1-1 system that has been pushed to 
the limit. It is time to update our 9-1-1 system. NENA started 
with ``one nation, one number,'' and has now added ``any 
device, from anywhere, at any time.'' Migrating to a next-
generation 9-1-1 system will certainly require some legislative 
and regulatory change. The Federal Government has a key role to 
play in providing overall system coordination, and funding, 
where appropriate, to assist efforts in the states to implement 
standardized IP-based emergency communication networks. The 
Federal highway system of the 1950s comes to mind as a similar 
example. Therefore, NENA fully supports section 5 of S. 428, 
requiring the national 9-1-1 office to provide a plan for the 
migration from today's 9-1-1 system toward an IP-enabled 
emergency network.
    Additionally, NENA is a firm believer in the value of 
public-private partnerships, and believe that there is a need 
for increased public safety spectrum. The advantages I have 
described today concerning next-generation 9-1-1 can be 
realized on wired or wireless broadband networks. Thus, NENA 
supports the implementation of a national public-safety 
broadband network, and believes it is important that we give 
public safety appropriate control of the development of such a 
network.
    In closing, I want to leave you with this. Today, we 
average over 200 million 9-1-1 calls a year, 500,000 per day, 
25,000 per hour, and 400 per minute. As I have testified here 
in the last 5 minutes, approximately 2,000 people in this great 
Nation have placed a 9-1-1 call for help. Let's hope they were 
all made in areas where Enhanced 911 is available, and let's 
hope there wasn't a deaf person trying to connect to 9-1-1 via 
text or video device, experiencing a delay because he or she 
could not connect directly to 9-1-1. We have made progress, but 
we have a lot of work to do, and ask for your support in 
helping us get to a next-generation 9-1-1 service.
    Thank you very much.
    [The prepared statement of Mr. Barbour follows:]

  Prepared Statement of Jason Barbour, ENP, on Behalf of the National 
                  Emergency Number Association (NENA)
    Mr. Chairman and Members of the Committee, thank you very much for 
providing me the opportunity to appear before you today. My name is 
Jason Barbour and I am a nationally certified Emergency Number 
Professional (ENP), serving Johnston County, North Carolina as the 9-1-
1 Director. I am also a volunteer firefighter and a Deputy Sheriff. I 
have been working in the field of public safety communications for the 
better part of two decades and know firsthand the importance of our 
Nation's 9-1-1 system.
    I'm also the President of the National Emergency Number Association 
(NENA), an organization consisting of nearly 7,000 members in 47 
chapters across the U.S., Canada and Mexico representing public 
officials, fire, EMS, law enforcement and equipment and service vendors 
of the 9-1-1 community. Finally, I am also a member of the Association 
of Public Safety Communications Officials (APCO) International and I am 
pleased to be joined today by my friend and colleague, APCO President 
Wanda McCarley.
    It is fitting that we are here today on the second day of National 
Public Safety Telecommunications Week, a Congressionally recognized 
week honoring the important work of 9-1-1 and public safety 
communications professions. Today I appear before the Committee on 
behalf of NENA, but also on behalf of the thousands of 
9-1-1 professionals in America who work tirelessly to help those people 
who dial 9-1-1 in times of need. Admirable colleagues like those on my 
team in Johnston County, and others across the country, who continue to 
find ways to get the job done regardless of the technical obstacles or 
challenges of modern communications. I would like to thank the national 
leadership of the Co-chairs of the Congressional E-911 Caucus, Senators 
Stevens and Clinton, and Representatives Shimkus and Eshoo, and other 
leaders of this Committee including Chairman Inouye, Senator Nelson, 
Senator Snowe and all of the members of this Committee for working with 
NENA to promote policy to make our 9-1-1 system work like it should.
Opening Comments
    Mr. Chairman and Vice-Chairman Stevens, thank you and your staff 
for bringing the 9-1-1 community to the table for these vital 
discussions concerning current 9-1-1 issues and the future of 9-1-1 and 
emergency communications. I applaud your initiative as well as the 
leadership of Senators Nelson, Snowe and Clinton for introducing the 
IP-Enabled Voice Communications and Public Safety Act of 2007 (S. 428), 
and I am here today to testify in support of this important 
legislation. In doing so, my comments will focus on three areas: First, 
the current overall state of 9-1-1, including 9-1-1 and E-911 for Voice 
over Internet Protocol (VoIP) service; Second, funding issues in 
today's world of emerging technology; and Third, the future of 9-1-1 
and emergency communications. All three of these issues are 
interrelated and require sound national policy to maintain the 
stability of 9-1-1 and to transition to Next Generation 9-1-1 (NG-911) 
and emergency communications. The IP-Enabled Voice Communications and 
Public Safety Act provides a solid foundation to advance these issues.
The Current State of 9-1-1 and E-911 Service
    Since its inception, the 9-1-1 system has been the first responder 
in times of individual and mass emergencies. Every day, Americans call 
9-1-1 at the time of their greatest need. Today we are averaging over 
200 million 9-1-1 calls per year. Ninety-seven percent of the Nation's 
geography is covered by at least some basic 9-1-1; ninety-nine percent 
of the American public has access to 9-1-1. For the caller and the 
public, the successful completion of a 9-1-1 call can mean the 
difference between danger and security, injury and recovery, or life 
and death.
    In the past year alone tremendous strides have been made regarding 
a number of critically important issues facing the 9-1-1 industry. One 
year ago in April of 2006, less than 75 percent of the population of 
the United States resided in areas covered by Phase II wireless E-911. 
Today, that number has jumped to nearly 85 percent, representing an 
increase in coverage for over 30 million Americans who previously were 
not protected by this vital aspect of our 9-1-1 system. Additionally, 
the percentage of counties that are covered by Phase II wireless E-911 
has increased from 47 percent to 58 percent from a year ago, an 11 
percent increase. Progress is being made. At the same time, there is 
still a 9-1-1 divide between densely populated and low population 
areas. As of today there are still over 250 counties, mostly rural, 
that lack E-911 for their landline telephone service, let alone 
wireless or VoIP service. It is important that the U.S. population is 
increasingly being covered by wireline and wireless E-911, but we are 
truly a mobile society so we must consider not only where people live, 
but also where they may travel to. And thus, we need to continue to 
strive for 100 percent E-911 deployment for all areas and all 
technologies. This is a top priority for NENA.
    Of course the last year and a half has also seen a tremendous 
amount of progress on the issue of 9-1-1 and E-911 for VoIP. NENA 
applauds the continued leadership of FCC Chairman Martin and his 
colleagues at the Commission for adopting the VoIP E-911 Order and 
their focus on improved emergency communications. FCC action and the 
steps taken by the public safety community working together with VoIP 
providers and their vendors has led to the fastest ever national 
rollout of E-911 service. Like the early days of wireless, it has been 
no easy task to retrofit an existing 9-1-1 system that was not designed 
for a new technology. But we have stepped up and largely met the 
challenge. The system currently being employed for VoIP is not perfect 
and it requires significant cooperation among numerous parties to work. 
We have only touched the surface on where we need to be concerning 
Internet Protocol (IP) enabled services. I would like to take this 
opportunity to commend the diligent work of the all volunteer NENA 
Technical, Operations and Regulatory Committees who have done an 
amazing amount of work developing standards, deployment checklists and 
policies to assist with VoIP E-911 implementation. Still, many areas 
lack E-911 for VoIP service for largely the same reasons that E-911 is 
not universally available for wireline or wireless service. Primarily, 
those reasons can be boiled down to a lack of funding, a lack of 
technical know-how in some instances and a failure of leadership at the 
state and local level in some areas where 9-1-1 service has not been 
made the priority it needs to be. Additionally, there has been a lack 
of Federal action in certain areas which we are confident will be 
addressed through the passage of S. 428 and in other measures by this 
Congress.
Needed Tools for VoIP E-911 and NG-911 Implementation
    NENA supports the IP-Enabled Voice Communications and Public Safety 
Act of 2007 because it strengthens the FCC VoIP E-911 Order by 
codifying the obligation of all IP-enabled voice service providers to 
provide 9-1-1 and E-911 in accordance with FCC regulations. 
Additionally, the bill provides needed tools to assist in the 
completion of E-911 deployment for VoIP service in all parts of the 
United States and addresses the issue of NG-911. Having said that, we 
believe that a few modifications to the bill will fine tune its 
effectiveness.
    S. 428 provides several key elements to enable nationwide VoIP E-
911 deployment including the following:

  <bullet> liability parity for PSAPs, VoIP providers and their third 
        party vendors equivalent to existing liability protections 
        already in place for wireline and wireless service;

  <bullet> confirmation of state and local authority to impose and 
        collect 9-1-1 fees from IP-enabled voice service providers;

  <bullet> a requirement on the National 9-1-1 Implementation and 
        Coordination Office (ICO) to produce a report to Congress on 
        the migration to an IP-enabled emergency network; and

  <bullet> a statutory requirement that owners of the E-911 
        infrastructure provide access to VoIP providers who require 
        such access to provide E-911 service.

    Each of these items will assist with current VoIP E-911 
implementation and 9-1-1 service for future technologies.
    The three most important elements of the bill for NENA are the 
sections on liability parity, state authority over fees and the 
migration to an IP-enabled emergency network. I will address each of 
these issues with some detail on the critical issues of funding and NG-
911.
Liability Parity
    S. 428 provides immunity from liability to PSAPs and providers of 
IP-enabled voice service and their third party providers to the same 
extent currently available for wireline and wireless service as 
provided by the Wireless Communications and Public Safety Act of 1999. 
It is important to note that the 1999 Wireless Act was passed before 
the widespread deployment of Phase I and Phase II wireless, an action 
that was deemed critical and applauded by both the 9-1-1 community and 
industry.
    Past experience in the deployment of E-911 has shown that a lack of 
legal clarity on the issue of liability parity can lead to a lack of E-
911 deployment and delays in the provisioning of E-911 service. 
Therefore, NENA wholeheartedly supports the liability provision of S. 
428, which only Congress can provide at the Federal level. With that 
being said, while we are content with providing flexibility to the FCC 
to issue future rules on new technologies as they emerge, we think it 
is a mistake to limit the liability parity provision of S. 428 to 
currently defined IP-enabled voice services. We need to be forward 
thinking to ensure that every time a new service is given 9-1-1 
obligations or needs to provide 9-1-1 for the public safety, we do not 
need to return to Congress and ask for a further extension of liability 
parity. That is not in anyone's best interest. Ideally, the liability 
section of the bill can be crafted in a manner that provides liability 
parity for current IP-enabled voice services and other appropriate 
services now and in the future. We have provided suggested language on 
this issue.
Funding: State and Local Authority Over Fees and Future Funding Issues
    Maintaining current funding levels and providing funding for the 
development of the next generation 9-1-1 system is one of the most 
important issues for 9-1-1 today. The public safety community is 
extremely concerned by the immediate and growing impact of changes in 
the communications landscape that are leading to a loss of conventional 
9-1-1 revenue through 9-1-1 fees and surcharges. Ten percent of 
households have abandoned their wireline service relying only on 
wireless service and millions are turning in their traditional 
telephone service for VoIP service with relative uncertainty in states 
as to how the traditional revenue from 9-1-1 fees on wireline service, 
collected at the local level, will be replaced.
    NENA is keenly aware of the limitations of the current 9-1-1 system 
funding model and that changes will be needed to sustain service while 
also advancing toward an IP-based NG-911 system. While that may be the 
case, it is essential that Congress do nothing to compromise current 
state and local authority to impose and collect 9-1-1 fees on all 
services regardless of the type of technology involved. Some parties 
advocate for sweeping Federal action to replace the layered funding 
approach in the states that often imposes differing fees for different 
technologies and service areas. NENA has initiated a dialogue in a 
variety of forums on funding issues to sustain high quality 9-1-1 
service today and advance 9-1-1 into the next generation. This issue 
needs to be thoroughly discussed and debated to identify effective 
solutions, but changes to 9-1-1 funding models are best handled within 
the states that know the intricacies of individual state and local 9-1-
1 systems and funding needs. Thus, NENA supports the current language 
in S. 428 confirming state and local authority to impose and collect 9-
1-1 fees on IP-enabled voice services. Conversely, NENA opposes any 
efforts to preempt state and local authority over 9-1-1 fees.
    While we wish to preserve state and local authority over 9-1-1 
fees, NENA also understands it is important to do more than just 
maintain the status quo. Efforts need to be made to not only determine 
how to sustain the current system but also how to advance to a NG-911 
system. As the deployment of NG-911 will depend on identified funding 
sources, a clear solution must be identified for long term 9-1-1 
funding issues in a parallel track with the technical evolution of the 
9-1-1 system. Current funding models for 9-1-1 and other emergency 
services functions do not provide a good fiscal foundation for the 
envisioned NG-911 architecture. Today, funding for emergency 
communications and 9-1-1 assumes that individual agencies and 
professions (9-1-1, law enforcement, EMS, public health, emergency 
management, transportation, etc.) must bear all of the costs for their 
communications needs and that the communications needs of each of these 
professions is unique to the individual profession. Thus, funding for 
individual agencies and professions is fragmented and uncoordinated, 
leaving agencies often competing for the same funds and developing 
systems that are not interoperable. This is a mistake.
    The NG-911 model envisions a system with shared networks, databases 
and applications in which the communications costs of public safety 
agencies are shared amongst all participants in the NG-911 system. This 
will result in less reliance on individual 9-1-1 centers paying for all 
aspects of the system at the local level, and will potentially reduce 
costs through sharing with many non-9-1-1 agencies. Providing 
guidelines and funding for the interconnection of IP-based emergency 
service networks to create a coordinated national IP emergency services 
infrastructure is a very important role for the Federal Government. The 
Federal Government should not dictate specific solutions; rather, it 
should provide grant money and clear guidelines to assist state and 
local governments in the implementation of IP emergency services 
networks and other needed elements to enable NG-911. Funding 
requirements should be tied to these guidelines, which is akin to the 
1950s Federal Government program that designed and funded the creation 
of a national highway program. A similar effort is needed here.
    Congress has already recognized the Federal role in funding 9-1-1 
when it passed the ENHANCE 911 Act of 2004. I would like to make two 
points about that grant program. First, obtaining funding for the 
ENHANCE 911 Act grant program is critical to allow under-funded PSAPs, 
typically in low population areas as I mentioned earlier, to obtain the 
resources they need to upgrade their wireless E-911 capabilities and 
for necessary staffing and training needs. Even in areas that have 9-1-
1 surcharge in place, such areas may never raise sufficient funds to 
deploy wireless or VoIP E-911 which is precisely why a Federal grant 
program was initiated. Thus it is essential that funds be appropriated 
in the FY 2008 budget as requested by the E-911 Caucus. Second, the 
scope of the ENHANCE 911 Act should be expanded to broaden the eligible 
use of funds to include not only wireless E-911 deployment, but also to 
foster the development and implementation of IP-based solutions that 
enable access to 9-1-1 from all technologies (including wireless). S. 
428 contains such a provision which we believe is of significant 
importance.
    Additionally, a direct appropriation to fund the 9-1-1 
Implementation and Coordination Office created by the ENHANCE 911 Act 
should be provided to the Departments of Transportation and Commerce in 
the FY 2008 budget. The Office has been established but it has been 
unable to live up to its full potential without the necessary funding 
to staff the office and fulfill its Congressional obligations. 
Authorizing such support ensures little effectiveness without providing 
the appropriations to make the goals of the Office a reality.
The Future of 9-1-1 and Emergency Communications
    Advancements in communications and network technologies are quickly 
blurring the lines of familiarity in the world of emergency 
communications and 9-1-1. No longer can we discuss 9-1-1 solely in the 
context of the public-switched telephone network (PSTN). No longer can 
we discuss the routing of 9-1-1 calls as being dependent on the use of 
the existing analog, circuit-switched telephone network. NENA started 
with ``One nation--One number'', and now we add, ``any device, from 
anywhere, at anytime.'' As 9-1-1 and emergency communications continue 
to advance, it is critical that communications regulation at all levels 
of government evolve in a parallel fashion and is flexible enough to 
accommodate future advancements that have yet to be considered.
    Already, nearly 100 million Americans are using some form of 
broadband Internet access offering exciting new communications 
possibilities. Voice over IP is no longer just coming, it is here. WiFi 
and WiMax networks continue to expand. IP-enabled services are dynamic, 
competitive, innovative and most of all, an opportunity to improve all 
of our communications systems. Better, faster, cheaper technology and 
communications service is vital to American consumers and business, but 
it may prove even more vital for emergency communications.
    An NG-911 system is not just a luxury, it is essential. Let me 
provide one example to explain why: Ensuring direct access to 9-1-1 for 
those who are deaf and hard of hearing and those with speech 
disabilities. A large and growing number of deaf individuals are 
replacing their traditional TTY's in favor of text messaging, IP-Relay 
Services and Video Relay Services. These text and video based 
technologies are very popular among deaf users, but they are not 
currently able to connect directly to 9-1-1 over the existing E-911 
system due to limitations in the current system. This causes delays in 
access to 9-1-1 and will inevitably lead to unnecessary death or injury 
which is unacceptable in today's world of modern technology. So too are 
the youngest Americans increasingly communicating with text messaging 
and instant messaging. These technologies continue to gain in 
popularity and users will have a reasonable expectation that our 9-1-1 
system will be able to accept communications to 9-1-1 from these 
devices.
    There are other information and communications services currently 
available that 9-1-1 is ill-equipped to handle as well. Automatic crash 
notification (ACN) data from telematics service providers like OnStar; 
bio-chemical information from sensors in a subway system; video from 
bank cameras or video taken by a bystander to a vehicle crash; photos 
from a cell phone capturing the identity of a criminal. The data is 
available, but the 9-1-1 system simply is not equipped to receive it, 
much less seamlessly share the data with appropriate emergency response 
agencies. However, increasing public expectations are beginning to 
demand that we be able to receive text and multi-media messages over a 
system that was not designed to handle such data. With that reality in 
mind, NENA continues to make NG-911 one of our top priorities. We are 
pleased to be working on this important issue with our sister 
organization APCO and many other organizations like COMCARE, the Red 
Cross, and the United Way just to name a few.
    As with any other effort of this magnitude, the transition to an 
IP-based NG-911 system will only happen if all parties work together in 
an open collaborative environment. NENA has taken numerous steps to 
address this topic including the development of a forty member public/
private Next Generation Partner Program and the formation of a Next 
Generation 9-1-1 Transition Planning Committee focused on the 
development of a NG-911 System and PSAP Transition Plan. This effort is 
just one component of NENA's overall NG-911 Project Plan that will 
provide a detailed roadmap of present and future activities toward the 
transition to an NG system. Also, the first major NENA design standard 
for NG-911 system architecture is nearly complete.
    Migrating to a fully IP-based next generation 9-1-1 system will 
certainly require some legislative and regulatory change. Issues of 
funding, jurisdiction, cost sharing, interoperability, and automatic 
location requirements for IP devices and networks are only a few areas 
that have to be addressed. The Federal Government has a key role to 
play in providing overall system coordination and funding where 
appropriate to assist efforts in the states to implement standardized 
IP-based emergency communications networks, much like the Federal 
Government did in the 1950s in establishing the Federal highway system. 
Therefore, NENA fully supports section five of the IP-enabled Voice 
Communications and Public Safety Act requiring the National 9-1-1 
Implementation and Coordination Office to provide a plan for the 
migration from today's 9-1-1 system toward an IP-enabled emergency 
network.
9-1-1, Homeland Security and Interoperable Communications
    One of the most discussed topics on Capitol Hill is the issue of 
interoperability. Yet, the discussion is consistently narrowly focused 
on ``first responder'' radio communications with no mention of 9-1-1 or 
other aspects of emergency communications. One might ask what 9-1-1 has 
to do with traditional first responder voice communications. In the 
past, it made sense to think of these issues separately as the 
technology and funding needed for such technology were independent 
issues. This is simply no longer the case within the context of next 
generation IP-based technologies. The same IP network that will allow a 
9-1-1 center to receive voice, text, video and multi-media information 
from the emergency calling public should be the same network that 
enables increased information sharing, voice and data, on a variety of 
traditional and new devices among all aspects of the emergency response 
system.
    It is for this reason that I have not referred to an IP-based 9-1-1 
network. Rather, I have discussed an IP-based emergency services 
network in which 9-1-1 is just one aspect. Additionally, these concepts 
must be considered as discussions proceed about the need for increased 
public safety spectrum and the creation of a nationwide public safety 
wireless broadband network. The same considerations previously 
discussed are equally relevant in the context of a wireless IP-based 
emergency services network. Whether wired or wireless, the network 
should achieve benefits for 9-1-1 and interoperable voice and data 
sharing among emergency response agencies and individuals. 
Additionally, it is important to note that some proposals being 
advocated would establish a wireless broadband public safety network 
where there is currently no such wireline connectivity. Thus, NENA 
believes that such proposals offer significant benefits to public 
safety communications, including NG-911, and should be adopted. 
Optimally, public safety will be given as much control as possible of 
such a network through the establishment of a public safety broadband 
trust who would manage decisions about the creation and management of 
such a network.
    Whether wired or wireless, Congress, the Federal Government, state 
and local governments need to think holistically about 9-1-1 and 
emergency communications as part of one emergency response enterprise. 
As emergency communications technology advances toward a common IP-
based platform, Federal funding, grant programs and homeland security 
policy should reflect this reality. Legislation should allow funds to 
be used for equipment, software and services that will enable the use 
of shared IP-based emergency service networks and services to enable 
next generation emergency communications.
Conclusion
    Our nation's 9-1-1 system is a vital public safety and homeland 
security asset. Everyday 9-1-1 callers seek critical emergency 
assistance and are the eyes and ears helping others during emergencies 
in local communities and assisting with our Nation's homeland security. 
Modern communication capabilities offer an opportunity to improve the 
system as we know it, but they also offer challenges. The 9-1-1 
community must embrace and react to change quickly, to better serve the 
American public, industry, and the mobile consumer in all emergencies. 
We need help from Congress to do so.
    NENA supports S. 428 because it addresses current VoIP E-911 needs, 
including the issues of 9-1-1 funding and liability parity, and also 
includes language requiring a report on the migration to a fully IP-
based NG-911 system and would allow ENHANCE 911 Act grants to be used 
to fund the ``migration to an IP-enabled emergency network''.
    As previously mentioned we believe a few minor modifications will 
improve the bill that will make great contributions toward public 
safety and security. On behalf of thousands of NENA members, 9-1-1 
professionals and all involved in supporting their work, I thank you 
for your support and the opportunity to be here today.

    The Chairman. I thank you very much, Mr. Barbour.
    And now, may I recognize Ms. Sharon O'Leary?

          STATEMENT OF SHARON O'LEARY, EXECUTIVE VICE

               PRESIDENT AND CHIEF LEGAL OFFICER,

                     VONAGE HOLDINGS CORP.

    Ms. O'Leary. Thank you. Chairman Inouye, Vice Chairman 
Stevens, and members of the Committee, thank you for the 
opportunity to testify today.
    My name is Sharon O'Leary. I am the Executive Vice 
President and Chief Legal Officer of Vonage Holdings Corp. My 
comments this afternoon will focus on S. 428, and specifically 
Vonage's experience in building and supporting our 9-1-1 
system.
    There is no higher priority within Vonage than delivering 
Enhanced 911 service to all of our customers nationwide. As the 
leading standalone provider of broadband telephone service, 
with over 2.2 million subscriber lines, we currently deliver 
Enhanced 911 to 95 percent of our customers. This is the 
fastest deployment of nomadic 9-1-1 service in this Nation's 
history. As many on this Committee know, Vonage offers 
consumers Voice over Internet Protocol service, which enables 
anyone to make and receive phone calls almost anywhere a 
broadband Internet connection is available.
    Working with our partners in the public-safety community, 
the Vonage network completes nearly 1,000 9-1-1 calls every 
day. With the help of a dedicated operational staff, working 
24/7, we handle all aspects of 9-1-1 delivery, including data 
collection, network management, call testing, and operational 
support for PSAPs.
    Despite our tremendous efforts and progress achieved to 
support our customers in the public-safety community with 9-1-
1, many challenges remain. S. 428 would significantly help 
overcome a number of these obstacles.
    Specifically, S. 428 addresses two of the most important 
challenges for VoIP providers: first, access to the native 9-1-
1 network; and, second, the liability parity among all 
communication providers.
    Nomadic VoIP providers like Vonage need access to parts of 
the telephone network to complete a 9-1-1 call. Unfortunately, 
there are areas in the country where Vonage cannot gain access 
to these vital network elements. By including access provisions 
in the legislation, you ensure that the 9-1-1 system remains a 
public trust, not a tool to block competition.
    Second, some 9-1-1 authorities are reluctant, or even 
refuse, to complete VoIP emergency calls, because they lack the 
legal safeguards that protect them from liability. These 
protections exist today for wireline and wireless emergency 
calls. In 1999, this Committee and Congress passed the Wireless 
Communications and Public Safety Act granting wireless carriers 
equivalent liability status to wireline services for all 9-1-1 
calls. This same provision must be extended to VoIP. If 
Congress does nothing else to advance the rollout of 9-1-1, it 
should pass the necessary legal protections to ensure that 
public-safety call-takers and VoIP providers have legal parity 
when resolving emergency situations.
    Vonage supports this legislation, and would suggest only 
minor changes to improve it:
    First, the legislation should make it clear that the FCC 
has flexibility to clarify or alter its 9-1-1 rules. The 
current language can be read to limit the FCC's 9-1-1 rules to 
the status quo. As these rules were written almost 2 years ago, 
they only cover two-way interconnected VoIP services. Key 
parties remain absent from the requirements. Specifically, the 
FCC's current E-911 regulations apply to Vonage, but not 
certain other VoIP providers. While many VoIP providers 
interconnect with the public-switched telephone network in one 
form or another, they do not offer E-911 services to their 
customers. Codifying the existing 9-1-1 order, as S. 428 
appears to do, may limit the Commission's authority to expand 
9-1-1 to other VoIP providers and narrowly focuses on one 
aspect of 9-1-1 call delivery.
    Second, in supporting a united 9-1-1 system, Vonage would 
urge the Committee to examine how S. 428 contemplates 9-1-1 fee 
remittance. Today, Vonage voluntarily remits 9-1-1 fees on a 
statewide basis in 23 states and is in the process of 
negotiating with many more. Our voluntary agreements have 
mirrored the manner in which most wireless companies pay 9-1-1 
fees on a unified statewide basis. We believe this is the 
approach that makes the most sense for VoIP providers.
    As drafted, section 4 requires VoIP providers to remit 9-1-
1 fees according to the wireline fee structure. This would have 
the unintended result of encouraging fiefdoms of 9-1-1, rather 
than a ubiquitous system. By supporting fee remittance on a 
statewide basis, 9-1-1 fees are more likely to be spent the way 
they should, in support of the 9-1-1 system. Thus, we ask the 
Committee to consider mandating a statewide unified fee 
structure for the payment of 9-1-1 fees by VoIP providers.
    Finally, I would like to comment on innovations in 
communications technology and how they interact with the 
Nation's 9-1-1 system. The mobility of any service presents a 
unique challenge to the present 9-1-1 system. This is true for 
wireless, it is also true for VoIP. The Nation's 9-1-1 system 
was built in 1968 to serve fixed and local communications. In 
our experience, this has been one of our biggest challenges. 
New service offerings, like wireless and VoIP, have been forced 
to retrofit their technologies to be backward-compatible. We 
shouldn't limit our vision to 1968. Vonage supports next-
generation thinking, where 9-1-1 is the headlights, not the 
taillights, of our public-safety communications system.
    In closing, I would like to be clear that we support the 
FCC's efforts to bring E-911 to VoIP services, and appreciate 
this Committee's efforts to assist in this process. As the 
recognized 9-1-1 leader of the VoIP community, we embrace 
public safety and the notion that Congress can help provide a 
forward path that is sensible for all parties involved and 
moves us forward toward a next-generation 9-1-1 infrastructure.
    [The prepared statement of Ms. O'Leary follows:]

  Prepared Statement of Sharon O'Leary, Executive Vice President and 
               Chief Legal Officer, Vonage Holdings Corp.
    Chairman Inouye, Co-Chairman Stevens and members of the Committee, 
thank you for the opportunity to testify today. My name is Sharon 
O'Leary, I am the Executive Vice President and Chief Legal Officer at 
Vonage Holding Corporation. My comments this afternoon will focus on S. 
428, the IP-Enabled Voice Communications and Public Safety Act of 2007 
and specifically Vonage's experience in building and supporting our 9-
1-1 system.
    There is no higher priority within Vonage than delivering Enhanced 
911 service to all of our customers nationwide. As the leading 
standalone provider of broadband telephone service with over 2.2 
million subscriber lines, we currently deliver Enhanced 911 to 95 
percent of our customers. This is the fastest deployment of nomadic 9-
1-1 service in this Nation's history.
    As many on this Committee know, Vonage offers consumers Voice over 
Internet Protocol or VoIP service, which enables anyone to make and 
receive phone calls almost anywhere a broadband Internet connection is 
available. Working with our partners in the public safety community, 
the Vonage network completes nearly one thousand successful 9-1-1 calls 
every day. With the help of a dedicated staff working 24/7, we handle 
all aspects of 9-1-1 delivery, including data collection, network 
management, call testing, operational support for PSAPs, and next 
generation 9-1-1 initiatives.
    Despite our tremendous efforts and progress achieved to support our 
customers and the public safety community with 9-1-1, many challenges 
remain. S. 428 would significantly help overcome a number of these 
obstacles. Specifically, S. 428 addresses two of the most important 
challenges VoIP providers face in offering 9-1-1 to customers--(first) 
access to the native 9-1-1 network; and (second) liability parity among 
all communications providers.
    Nomadic VoIP providers, like Vonage, need access to parts of the 
telephone network to complete a 9-1-1 call. Unfortunately, there are 
areas in the country where Vonage cannot gain access to these vital 
network elements. By including access provisions in the legislation, 
you ensure that the 9-1-1 system remains a public trust, not a tool to 
block competition.
    Second, some 9-1-1 authorities are reluctant, or even refuse, to 
complete VoIP emergency calls because they lack the legal safeguards 
that protect them from liability. These protections exist today for 
wireline and wireless emergency calls, but not for VoIP calls. In 1999, 
this Committee and Congress passed the Wireless Communications and 
Public Safety Act, granting wireless carriers equivalent liability 
status to wireline services for all 9-1-1 calls. This same provision 
must be extended to VoIP. Unfortunately, there are instances today 
where PSAPs will not accept VoIP emergency calls without these same 
protections leaving some customers without access to critical emergency 
services.
    Mr. Chairman, members of the Committee, the need for liability 
protection for PSAPs that accept VoIP 9-1-1 calls is just as important 
as it was for wireline and wireless services. If Congress does nothing 
else to advance the roll-out of 9-1-1 it should pass the necessary 
legal protections to ensure public safety call-takers and VoIP 
providers have legal parity when helping resolve an emergency. This 
important provision is already apart of S. 428 and we commend the 
Committee for its inclusion.
    Vonage supports this legislation and would suggest only minor 
changes to improve it. First, the legislation should make it clear that 
the FCC has the flexibility to clarify or alter its 9-1-1 rules. The 
current language (Sec. 2) can be read to limit the FCC's 9-1-1 rules to 
the status quo. As these rules were written almost 2 years ago, they 
only cover two-way, interconnected VoIP services. Key parties remain 
absent from the requirements.
    Specifically, the FCC's current E-911 regulations apply to Vonage, 
but not certain other VoIP providers. While many VoIP providers 
interconnect with the public-switch telephone network in one form or 
another, they do not offer E-911 services to their customers. Codifying 
the existing 9-1-1 order, as S. 428 appears to do, may limit the 
Commission's authority to expand 9-1-1 to other VoIP providers and 
narrowly focuses on one aspect of 9-1-1 call delivery.
    Second, in supporting a unified 9-1-1 system Vonage would urge the 
Committee to examine how S. 428 contemplates 9-1-1 fee remittance (Sec. 
4). Today, Vonage voluntarily remits 9-1-1 fees on a statewide basis in 
23 states and is in the process of negotiating with many more. Our 
voluntary agreements have mirrored the manner in which wireless 
companies pay 9-1-1 fees--on a unified statewide basis. We believe this 
is the approach that makes the most sense for VoIP providers. As 
drafted, section 4 requires VoIP providers to remit 9-1-1 fees 
according to the wireline fee structure. This would have the unintended 
result of encouraging fiefdoms of 9-1-1 rather than a ubiquitous 
system. By supporting fee remittance on a statewide basis, 9-1-1 fees 
are more likely to be spent the way they should; in support of the 9-1-
1 system. Thus we ask the Committee to consider mandating a statewide 
unified fee structure for the payment of 9-1-1 fees by VoIP providers.
    Finally, I would like to comment on innovations in communications 
technology and how they interact with the Nation's 9-1-1 system.
    The mobility of any service presents a unique challenge to the 
present 9-1-1 system. This is true for wireless; it is also true for 
VoIP.
    The nation's 9-1-1 system was built in 1968 to serve fixed and 
local communications. Unfortunately, little has changed. New service 
offerings, like VoIP, have been forced to retrofit their technologies 
to be backward compatible. We shouldn't limit our vision to 1968. 
Vonage supports next generation thinking, where 9-1-1 is the 
headlights, not the taillights of our public safety communications 
system.
    In closing, I would like to be clear that we support the FCC's 
efforts to bring E-911 to VoIP services and appreciate this Committee's 
efforts to assist in this process. As the recognized 9-1-1 leader of 
the VoIP community, we embrace public safety, and the notion that 
Congress can help provide a forward path that is sensible for all 
parties and moves us all toward a next generation 9-1-1 infrastructure.
    In short, Vonage supports S. 428 and I want to thank the sponsors--
Senators Nelson, Snowe as well as the E-911 Caucus Co-chairs Senators 
Clinton and Stevens for their leadership on 9-1-1 issues. We look 
forward to working with the Committee toward its passage.
    Thank you.

    The Chairman. Thank you very much, Ms. O'Leary.
    And now, may I recognize Mr. Meer?

                  STATEMENT OF STEPHEN MEER, 
             CHIEF TECHNOLOGY OFFICER, INTRADO INC.

    Mr. Meer. Good afternoon. And thank you, Chairman Inouye.
    I am Stephen Meer, Chief Technology Officer and Co-Founder 
of Intrado. I appreciate the invitation to testify today on the 
topic of critical life-saving capabilities that America's 
citizens will continue to expect from our Nation's 9-1-1 
system.
    I would also like to take this opportunity to congratulate 
Senator Stevens in his new role as Co-Chair of the E-911 
Caucus. It is truly an honor to have his guidance and years of 
experience in such a pivotal role.
    Finally, I want to commend Senators Nelson and Snowe, along 
with their staffs, as well as Senator Clinton, E-911 Caucus Co-
Chair, and her staff, for their tireless effort and countless 
hours of work on 9-1-1 issues, and for their sponsorship of S. 
428. This legislation will make a significant contribution 
toward maintaining and improving emergency services.
    For over a quarter of a century, telecommunications 
providers and public safety organizations have turned to 
Intrado for their emergency communications needs. Intrado 
provides the core of North America's 9-1-1 call routing, data 
management, and communications infrastructure, and is the 
central figure in the integration of multiple technologies that 
feed into the 9-1-1 system.
    We employ many former first-responders and public safety 
communications professionals, as well as leading-edge 
engineering and operations experts. For example, I have served 
as a public safety call taker, dispatcher, communications 
supervisor, as well as a deputy sheriff and EMS responder. This 
combined experience provides those in our company with an 
insightful and appropriate perspective on the issues facing 9-
1-1, as well as valuable foresight into why and how this system 
must evolve.
    While Intrado supports the concepts of S. 428, we do have 
two policy suggestions:
    First, continue the current system for qualifying entities 
for access to the 9-1-1 network. Unqualified access can create 
a risk for security and the integrity of the 9-1-1 network and 
its increasingly sensitive and interconnected data.
    Second, the legislation should extend liability protection 
to all 9-1-1 providers, not just VoIP providers, particularly 
as the industry and public safety community move to next 
generation 9-1-1 services. There may be many forms of 9-1-1 
communications, including pure data and video that may or may 
not include VoIP technology. Rather than having to address the 
liability protection issue again while the ink is still drying 
on this bill, we believe that a more efficient approach would 
be to extend the liability protection broadly enough to cover 
all forms of emergency communications.
    With regard to the future of the 9-1-1 system, Intrado 
offers the following two thoughts:
    First, any communications delivery system or device 
accessing 
9-1-1 must be able to take advantage of the most advanced 
emergency assistance available. We must continue to ensure the 
Nation's emergency communications infrastructure has enhanced 
change-capacity, that it is resilient, secure, robust, and 
always available. As such, future policy must require that the 
9-1-1 network be able to integrate new users, call services, 
and data into a single redundant and interoperable system. The 
careful planning and execution needed to migrate from the 
current infrastructure to the next-generation infrastructure 
cannot be underestimated. We must not allow ourselves to be 
seduced by those who may claim that they have a simple magic 
solution to this complex environment.
    Second, with the advent of new and converged technologies 
comes the possibility for real degradation of Enhanced 911 
services. For many years, the traditional wireline E-911 system 
has provided emergency responders with the exact street address 
of the caller, enabling first responders to precisely and 
quickly locate the caller. With new technologies, the challenge 
becomes providing first responders with a meaningful address, 
including altitude, to help them know which door to kick in, 
should the need arise.
    Such fundamental public-safety requirements are part of a 
comprehensive 9-1-1 call continuum, and must be included in any 
future policy in order to preserve this level of service. 
Intrado believes the solution lies in establishing an auto-
location policy that is device- and technology-neutral to 
ensure that substantial modification is not needed every time a 
new device or new technology is introduced.
    In conclusion, IP, or Internet Protocol, brings substantial 
benefits over current networks, but history tells us it won't 
be the end-all, as new technologies will eventually supplant 
it. We can't continue, as we s have, to deal with new 
technologies after they are introduced and thrust upon us. It 
is also vital for policymakers to quickly and clearly define 
the end-state compliance regulations and the associated 
timelines. Anything short of that kind of clarity risks having 
a shortage of willing participants and a likelihood of ill- 
placed and ill-timed investment in the 9-1-1 infrastructure.
    Please know that we are more than willing to act as your 
resource in this matter, work along with the FCC and other 
agencies as policy is reformed in this area. Thank you, again, 
for the opportunity to testify here today, and I would be more 
than happy to answer any questions you may have.
    [The prepared statement of Mr. Meer follows:]

     Prepared Statement of Stephen Meer, Chief Technology Officer, 
                             Intrado, Inc.
    Good afternoon and thank you Chairman Inouye. I am Stephen Meer, 
Chief Technology Officer and co-founder of Intrado Incorporated. I 
appreciate the invitation to testify today on the topic of bringing 
critical lifesaving capabilities that America's citizens will continue 
to expect from our Nation's 9-1-1 system.
    I would also like to take this opportunity to congratulate Senator 
Stevens in his new role as Co-Chair of the E-911 Caucus. It is truly an 
honor to have his guidance and years of experience in such a pivotal 
role. Finally, I want to commend Senator Nelson, Senator Snowe and 
their staffs for their tireless effort and countless hours of work. 
Their legislation, Senate Bill 428, will make a significant 
contribution toward maintaining and improving upon emergency services.
    For over a quarter of a century, telecommunications providers and 
public safety organizations have turned to Intrado for their emergency 
communications needs. Intrado provides the core of North America's 9-1-
1 call routing, data management and communications infrastructure and 
is a central figure in the integration of multiple technologies that 
feed into the 9-1-1 system.
    Intrado is a unique company in that we employ many former first 
responders and public safety communications professionals as well as 
leading-edge engineering and operations experts. I, myself, have served 
as a public safety call-taker, a dispatcher, communications supervisor, 
as well as a law enforcement officer and EMS responder. This combined 
experience provides those in our company with an insightful and 
appropriate perspective on the issues facing 9-1-1 today, as well as 
valuable foresight into why and how the system must evolve.
    With respect to Senate Bill 428, Intrado extends its full support 
for the efforts behind this critical public safety legislation. It is 
our belief, however, that additional policy elements are needed to 
ensure that the integrity of the 9-1-1 infrastructure is preserved.
Qualified Access
    While we applaud Congress for addressing access into the 9-1-1 
network, we believe that the current system for qualifying entities 
works well and should largely be kept in place, but improvements for 
expediting access, once granted, could be made. This process, which 
involves the states, has ensured that the 9-1-1 network cannot be 
disabled or sabotaged by illegitimate or poorly managed enterprises or 
governments. Without standards, domestic or foreign service providers 
lacking appropriate systems practices could inadvertently gain access 
to America's 9-1-1 network. The consequences of failing to secure the 
infrastructure would not only impact citizens seeking assistance but 
would hamper efforts by first responders. Therefore, we recommend that 
Congress affirmatively ensure that the existing process for granting 
access into the 9-1-1 network be fundamentally maintained, regardless 
of the entity type seeking such access.
Liability Protection
    Our second recommendation is the inclusion of liability protection 
for all 9-1-1 providers. Denial of the same statutory immunity is 
fundamentally unfair. It creates disparity that translates to a 
competitive and economic disadvantage and works as a disincentive to 
market entry. In order to encourage the migration to an IP-based system 
that will be able to accommodate all new and emerging technologies, a 
liability protection is a ``must-have'' for ensuring success.
    In addition to these suggestions about the legislation, we offer 
the following:
Migration to an IP-Based 9-1-1 Network
    Intrado's vision for the next generation system is guided by our 
long held conviction that any communications delivery system or device 
accessing 9-1-1 must be able to take advantage of the most advanced 
emergency assistance available. We must continue to ensure the Nation's 
emergency communications infrastructure has enhanced change-capacity 
and is resilient, secure, robust and always available. As such, future 
policy must require that the next generation 9-1-1 network be able to 
integrate new 9-1-1 call services, data and users into a single, 
redundant and interoperable system. The careful planning and execution 
needed to migrate from the current infrastructure to the next 
generation infrastructure can not be underestimated. We must not allow 
ourselves to be seduced by those who may claim they have the magic 
solution to this complex environment.
Automatic Location Service Requirements
    Our final point addresses the immediate challenge of automatically 
identifying the precise location of a person requesting emergency 
services.
    With the advent of new and converged technologies comes the 
possibility for real degradation in E-911 services. For many years, the 
traditional, wireline E-911 system has provided emergency responders 
with the exact street address of the caller, enabling first responders 
to precisely locate the caller. With new technologies, the challenge 
becomes providing first responders with a meaningful address, including 
altitude, to allow them to know which door to kick in. Such fundamental 
public safety requirements are a part of a comprehensive 9-1-1 call 
continuum and must be included in future policy in order to preserve 
this level of service. Intrado believes the solution lies in 
establishing policy that is technology and device neutral to ensure 
that it does not need to be substantially modified every time a new 
technology or device is introduced.
    In conclusion, IP brings substantial benefits over current 
networks, but history tells us it won't be the end-all, as new 
technologies will eventually supplant it. We can't continue, as we have 
historically, to deal with new technologies as they are introduced and 
thrust upon us. If we deal only with VoIP, we'll be back here in 2 
years addressing the same issues. It is vital for policymakers to 
quickly and clearly define compliance requirements of the desired end-
state that includes specific timelines. Anything short of that kind of 
clarity risks having a shortage of willing participants and a 
likelihood of ill-placed and ill-timed investment in the 9-1-1 
infrastructure.
    Please know that we are more than willing to act as a resource as 
you explore policies that would meet your goals and objectives. Thank 
you again for the opportunity to testify here today. I would be more 
than happy to answer any questions you may have.
                               Attachment
Automatic Location Services
Introduction
    Technology advances in Voice over Internet Protocol (VoIP) and 
Internet telephony have generally strained the capabilities of the 
Nation's E-911/public safety infrastructure. While the industry has 
addressed the immediate challenge of dynamic location/routing of a VoIP 
caller who has ``self-provisioned'' their current location with their 
VoIP Service Provider (VSP), (as directed in the current Federal 
Communications Commission mandate for VoIP E-911),\1\ the solution is 
not foolproof. VoIP callers may not know their current address, may not 
have a postal valid address, or may enter a false address in order to 
bypass the registration process. It is anticipated that the Commission 
will further extend the VoIP mandate to incorporate some level of 
``autonomous registration'' and remove the VoIP caller from the 
equation of location determination (i.e., use an objective technology-
based approach to automatically identify the location of the caller). 
While Intrado is fully supportive of this approach, we encourage the 
Commission to take into account the recommendations laid out in this 
paper to ensure that our Nation's citizens continue to receive the 
level of emergency services that that they have come to expect, as well 
as to preserve the efficacy of the 9-1-1 infrastructure.
---------------------------------------------------------------------------
    \1\ IP-Enabled Services; E-911 Requirements for IP Enable Service 
Providers, WC Docket No. 04-36; WC Docket No. 05-196, First Report and 
Order and Notice of Proposed Rulemaking, 20 FCC Rcd 10245 (2005).
---------------------------------------------------------------------------
    The challenge of automatic location will be exacerbated in coming 
years, as VoIP moves from a predominantly static environment to a mix 
of static, nomadic and mobile use environments (e.g., VoWiFi, MESH WiFi 
voice networks, WiMAX) and end-user devices integrate location 
determination technologies and are capable of accessing multiple 
disparate networks. With the advent of these new and converged 
technologies, and absent the adoption of sound public policy for the 
short and long term, comes the possibility for a real degradation in E-
911 services. The foundation of such public policy is the fact that the 
traditional E-911 system returns the exact address of the caller, 
enabling first responders to ``kick open the door'' if they believe 
there is an emergency situation inside a structure. In order to 
preserve, at a minimum, this same level of service with VoIP, wireless, 
converged technologies as well as technologies yet to be developed, 
public policy must continue to ensure that these fundamental public 
safety requirements form the basis for future Automatic Location 
Services rules, i.e., the level of accuracy needed to locate a caller 
in distress must make it possible for a first responder to swiftly find 
the caller and render emergency assistance.
    Intrado encourages the Commission to employ this rationale for the 
basis and end goal of all future Automatic Location Services policies. 
Also, Intrado asks the Commission to remain technology and device 
neutral, in order to allow the industry to develop the appropriate 
solutions and to ensure that such policy is applicable and pertinent 
law, regardless of the communications device used.
Background
    For more than two decades, telecommunications providers, public 
safety organizations and government agencies have turned to Intrado for 
their communications needs. Intrado Inc., a subsidiary of West 
Corporation, provides the core of the Nation's 9-1-1 network and 
delivers innovative solutions to communications service providers 
(Wireline, Wireless and VoIP) and public safety organizations, 
including complex data management, network transactions, wireless data 
services and notification services. The company's unparalleled industry 
knowledge and experience reduce the effort, cost and time associated 
with providing reliable information for 9-1-1, safety and mobility 
applications. In addition, Intrado is continuing its leadership 
position to solve the challenge of automated location determination for 
VoIP via its recent trials in King County, Washington and New York 
City. It is this experience that provides Intrado the expertise to 
offer guidance to the Commission on future policy for Automatic 
Location Services.
Purpose
    The purpose of this paper is to provide future policy 
recommendations for Automatic Location Service requirements and 
conditions applicable to telecommunications (traditional and non-
traditional) service providers for communication devices where an end-
user has an expectation of emergency communications. For purposes of 
this paper, a communication device is a device that: (1) enables real-
time, two way voice and/or data communications; and (2) permits users 
to initiate and receive communications from another device.
Proposed Policy Guidelines
    Framework: Recognizing the evolution of existing telecommunications 
technologies and the dramatic impacts that new technologies have on the 
9-1-1 system, there is a clear need to provide public safety with the 
ability to respond to the specific location of an end-user trying to 
reach emergency services regardless of device, technology or access 
method being used. Sound public policy, both short and long term, must: 
(a) continue to ensure that the level of accuracy needed to locate a 
caller in distress is that which makes it possible for a first 
responder to swiftly find the caller and render emergency aid; and (b) 
provide clear guidance about the intended end result of the policy such 
that the businesses who are expected to abide by the policy, and those 
who invest in them, have a predictable means for meting out and 
measuring their efforts and investments. Policymakers can debate the 
time-frames for such location-accuracy requirements, but the underlying 
principles for the policy are constant.
    Intrado acknowledges there are numerous challenges and dependencies 
to implementing its proposed guidelines. To that end, these guidelines 
represent a desired goal for the 9-1-1 system while recognizing there 
is clearly a migratory approach required when addressing precise 
location delivery from disparate networks and end devices. The 
recommendations also take into account factors that are critical to 
ensuring a successful migration, thus providing the public safety 
community with the most precise location available in order to serve 
the public's emergency services needs.
    The following guidelines are segmented into two primary use case 
environments: indoor and outdoor. As the use of end devices and 
associated technologies becomes more transparent between fixed and 
mobile environments, there is a need to determine an approach that 
provides first responders with the most appropriate information to 
locate the end-user trying to reach emergency assistance. To that end, 
Intrado believes that whenever possible a ``dispatchable'' street 
address is the most suitable location information to enable rapid and 
efficient emergency response. Address information is still preferred 
over the alternatives until such time as the supporting infrastructure 
(e.g., GIS) is able to provide an equivalent level of the accuracy.
Indoor--Location Guidelines
Definitions

  <bullet> ``Acceptable Location for Indoor Usage''--an address that 
        has level of accuracy acceptable to the first responder(s) 
        which must include as part of the address the location within 
        the address (such as apartment, suite, floor or room number); 
        \2\
---------------------------------------------------------------------------
    \2\ Not to be confused with an Acceptable Location For Indoor Usage 
but rather for use as back-up location information if an acceptable 
address is not available, it may be appropriate to use x, y, z 
coordinates and an uncertainty value of the location coordinates which 
provide an equivalent level of precision to the acceptable address. 
From a policy perspective, anything less than an Acceptable Location 
For Indoor Use should be considered insufficient.

  <bullet> ``Access Point''--a wired or wireless network access or 
        termination point that provides voice or data connectivity to 
---------------------------------------------------------------------------
        an end-user device.

    Indoor Location Recommendation: For those locations that are a 
public or private structures that can uniquely be identified by a 
dispatchable address; including, but not limited to houses, apartments, 
offices, and businesses, service providers must be able to provide the 
(i) call back number or the equivalent based on the applicable 
technology, (ii) other defined attributes including end-user's name, 
type of communication device and service provider, and (iii) an 
Acceptable Location for Indoor Usage (as defined above).
Critical Success Factors
1. Automatic Location of all End-User Devices
    It is recognized that the Commission will be providing guidance 
relative to the elimination of a VoIP end-user's manual intervention 
for providing the end-user's location for emergency services. The 
impediments to providing such a transparent and ubiquitous service are 
addressed with more specificity below.
    Location Determination Technology (LDT)--Intrado considers LDT as 
specific technologies that can be utilized to determine the location of 
a communication device of an end-user and potentially the location of 
Access Points that connect the communication device to the service 
provider network. There are a variety of technology approaches to 
location determination that are either currently developed or in 
development. Each approach has its own strengths and weaknesses and 
generally aligns to different use case environments. While the 
achievement of the desired goal for precise location will in part 
depend upon the full maturation of these various location technologies, 
it is believed that each can play a role in supporting a migration path 
to that goal. Specific considerations around LDT that must be 
contemplated in establishing this migration path include:

  <bullet> The LDT ability to integrate with the end-user or other 
        network access devices. Depending on the specific LDT approach, 
        this may require software and/or hardware based integration 
        efforts.

  <bullet> The LDT ability to provide ubiquitous network coverage for 
        end-user or other network access devices. Depending on the LDT, 
        unique infrastructure deployments maybe required to support 
        acceptable location determination coverage.

  <bullet> The ability for a Z coordinates (altitude) to be determined 
        in accordance with the proposed guidelines. Altitude should be 
        provided as above ground level of the location from the Z 
        coordinate to be usable to first responders. While technologies 
        exist today to attain a Z coordinate, they still must integrate 
        into LDT and supporting infrastructure (e.g., GIS) solutions.

  <bullet> The public safety community's ability to accept and 
        translate a Z coordinate to achieve an Acceptable Location for 
        Indoor Use.

  <bullet> The ability for a network to automatically discover the 
        addition or movement of an Access Point serving a communication 
        device within the service provider's network. For some LDT 
        approaches, an understanding of the location of the Access 
        Point is a critical component to enable precise location 
        determination.

  <bullet> The service provider's ability to leverage LDT information 
        and translate to an Acceptable Location for Indoor Usage.

2. Ecosystem Adoption and/or Integration
    As LDT evolves and functionality becomes more readily available, 
service providers and equipment manufacturers will play an active and 
important role in driving adoption and integration of communication 
devices, customer premise equipment, or physical Access Point(s) within 
the service provider's network. This complex integration requires 
coordinated planning, with consideration to manufacturing lead time 
required for technology integration.
3. Location of a Cellular (CMRS) Caller
    Cellular adoption continues to exceed expectations; with this rapid 
growth, its use cases have evolved to include pervasive indoor use as a 
wireline service supplement or replacement. Given this evolution, the 
existing FCC requirements for cellular location accuracy are not 
adequate to address the proposed guidelines. Cellular location 
capability must evolve to support the stated goals above with respect 
to delivery of Acceptable Location for Indoor Use. Intrado acknowledges 
the significant investment already made to meet the existing FCC 
requirements for cellular location and that this infrastructure can 
continue to support the migratory path to the desired goal of these 
proposed guidelines.
4. Public Safety
    Intrado acknowledges that the public safety community operates in 
disparate environments with different needs and capabilities. The 
proposed guidelines are intended to enhance public safety's ability to 
respond in a dynamic and evolving technology environment. It is 
critical that the public safety community is actively engaged in the 
refinement and adoption of these guidelines.
5. Privacy Considerations
    Most state laws permit the use of private subscriber data (e.g., 
telephone number, service address, etc.) in connection with rendering 
emergency services, and such laws provide that a subscriber's 9-1-1 
call for help is deemed consent to utilize such data for that purpose. 
Analogies may be drawn with respect to new technologies. If location 
determination solutions attendant to new technologies require, for 
example, registration prior to an emergency call, the Commission is 
well-equipped to address these potential issues involving privacy. 
While these and other factors are critical to achieving the desired 
goal of these proposed guidelines, Intrado believes that certain 
technologies can be deployed and leveraged to support initial phases of 
their implementation. For example, in a converged network deployment 
with multi-mode communication devices and associated Access Points, 
correlations to an Acceptable Location for Indoor Use can be made. 
Intrado encourages the Commission to engage industry providers, in 
order to obtain additional input regarding this issue.
Outdoors--Location Guidelines
Definitions

  <bullet> ``Acceptable Location for Outdoor Usage''--an address that 
        has a level of accuracy acceptable to the first responder(s) 
        that includes the address of an Access Point and the X, Y, Z 
        coordinates of the communication device and an uncertainty 
        value of the location coordinates.

  <bullet> ``Access Point''--a wired or wireless network access or 
        termination point that provides voice or data connectivity to 
        an end-user device.

Outdoor Location Recommendation
    For those locations that are not in a defined structure and cannot 
be uniquely identified by an address; including but not limited to P.O. 
boxes, rural routes, parks, roads, fields, and cars, service providers 
must be able to provide: (i) call back number or the equivalent based 
on the applicable technology, (ii) defined attributes including end-
user's name, type of communication device and service provider, and 
(iii) the Acceptable Location for Outdoor Usage for the communication 
device and an indication of the coverage area of that Access Point 
(i.e. radius of a cell site or outdoor 802.x access point).
Critical Success Factors
    Intrado believes that all the previously stated indoor success 
factors also apply to the location guidelines for outdoor use with an 
additional requirement which takes into account the mobile 
characteristics of an outdoor use case:
Direction Tracking
    This is defined as the ability to track in real-time such factors 
as direction, velocity, trajectory etc., which may be indicative of 
mobile situations that require the public safety community or first 
responder to track the movement of an end-user. Clearly, inclusion of 
such real-time mobile data will require enhancements to critical 
infrastructure elements and support processes.
Implementation for Indoor and Outdoor Location Guidelines
    It is Intrado's belief that the acceptable address guidelines as 
defined above will only be achieved as technology evolves and market 
dependencies are addressed in a unified and coordinated effort. 
Additionally, Intrado believes it is realistic to address short term 
solutions while encouraging stakeholders to move rapidly toward the 
desired goal of a more robust Automatic Location Service. To avoid the 
degradation of the existing 9-1-1 system, the implementation of such 
short term solutions must not hinder the development and deployment of 
solutions to support the proposed guidelines.
Conclusion
    Intrado appreciates the opportunity to share with the Commission 
our perspective on this complex and important issue of Automatic 
Location Services. In order to support technology advances, a new 
paradigm must be adopted regarding location as well as its application 
within a broad range of technologies and end-user behaviors. Intrado's 
perspective is founded in the belief that it is paramount to ensure the 
safety and well-being of the public by enabling rapid and accurate 
response of public safety. As a nation, we must continue to preserve 
the efficacy and integrity of the 9-1-1 system by employing policy 
guidelines that provide first responders with the most appropriate 
information to locate an end-user trying to reach emergency assistance. 
A rapid and accurate response depends on a thoughtful and measured 
approach by all stakeholders who must be prepared for the advances in 
technology occurring in today's environment. Intrado believes that it 
is vital for the Commission to quickly and clearly define compliance 
requirements of the desired end-state to support investment and 
development of appropriate technologies and solutions. All interested 
parties must know with clarity what is expected of them by way of 
technical location performance as well as the date(s) by which those 
requirements will be mandated. Anything short of that kind of clarity 
risks having a shortage of willing infrastructure participants and a 
high likelihood of ill-placed and/or ill-timed investment in 
infrastructure. Intrado urges the Commission to promptly ``put a stake 
in the ground'' about the ultimate system location requirement, even if 
a phased approach is adopted.
                                 ______
                                 

    Mobile Radio Technology<SUP>'</SUP> (www.mrtmag.com), June 2006

                         Leaving No PSAP Behind

       leverage a next-generation 9-1-1 system to support mobile 
                             communications

                        By Stephen Meer, Intrado

    Today's 9-1-1 network is solely dedicated to enabling citizens to 
request emergency assistance by connecting a caller to a call-taker. 
The current system performs this single mission quite well, day in and 
day out.
    However, a next-generation emergency response infrastructure can 
more effectively support 9-1-1's broader mission--both call taking and 
subsequent dispatch operations--and be leveraged to more directly 
support a wide range of additional critical public-safety 
communications needs, including mobile emergency voice and data 
communications. As public-safety agencies develop migration plans to 
upgrade their legacy 9-1-1 infrastructure, it is imperative to make 
sure the radio-based needs of mobile responders are accommodated as 
well.
    In the current operating environment, the 9-1-1 network is on 
standby most of the time, prepared to provide access to emergency 
assistance on demand. A flexible next-generation operating environment 
can allow the emergency response community to use this excess capacity 
to support legacy voice radio communications needs, without adversely 
impacting 9-1-1's life-saving mission. It also can support transporting 
and sharing of radio-based data communications, with the right 
information automatically provided at the right time, directly to the 
right responder.
    Further, such a system can improve collaboration among a wider set 
of emergency responders by minimizing the limitations resulting from 
the current operating environment's heavy reliance on premises-based 
systems. As a result, the capabilities of all users, regardless of 
their technical sophistication, can be elevated.
    The opportunity is to deploy a next-gen platform that lets current 
operations to continue non-stop throughout the network but also offers 
new capabilities, regardless of the geographic location of the 
technology or the level of technical sophistication available to a 
specific jurisdiction.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





    Hurricane Katrina provides a real-world example of why such a 
technology migration is necessary and how a fully optimized next-
generation emergency response network can help improve interoperability 
and operational flexibility.
    From a technology perspective, one of the most interesting stories 
to come out of Katrina was the ability of public-safety and technology 
officials for the City of New Orleans to piece together an IP 
communications network in a hotel room. The ready availability of such 
a network to all public-safety agencies in the area could have 
dramatically improved the ability of emergency responders to do their 
jobs.
    This could have been the case regardless of a specific agency's 
level of technical sophistication or the functional limitations of 
premises-based infrastructure. The only caveat is that the system must 
be designed, deployed and maintained to the same performance levels as 
required for the current 9-1-1 network.
    In such a network, feature functionality is delivered via a secure 
IP connection, not a technically isolated, proprietary message-delivery 
system. Theoretically, if a public-safety communications center became 
inoperable--as was the case for several agencies in the aftermath of 
Katrina--personnel could have quickly reestablished operations anywhere 
using secure data links.
    Emergency dispatch and response operations could have seamlessly 
continued without pause. By implementing a system that allows common 
equipment to be geographically redundant and separated from the users, 
public-safety officials have a higher degree of operational flexibility 
than provided in the current premises-based approach.
    In addition, a network-based services-delivery platform enables the 
most advanced feature functionality to be available to all responders 
based on their authorized level of network access. With costs shared 
among multiple jurisdictions, and the network itself managed on behalf 
of public safety by a next-gen 9-1-1 service provider, economies of 
scale can be realized. Using network-based intelligence, all 
participating agencies benefit from cutting-edge technology without 
having to undertake expensive upgrades one at a time, jurisdiction by 
jurisdiction, while laboring to ensure continued compatibility.
    During Katrina, a next-generation network also could have been 
leveraged to support more effective collaboration between a broader set 
of users, such as FEMA and National Guard personnel. This is possible 
because network system access is based on standard interfaces and 
authorization layers, not specific premises-based or in-vehicle 
equipment. With functionality provided through the network, getting the 
right information to the right responder at the right time--as 
contextually appropriate--is a matter of gaining authorized 
connectivity to a managed, secure and reliable IP-based system.
    A specific example of where a next-generation system could have 
improved emergency response during Hurricane Katrina is in the 
challenges Federal and emergency personnel from other jurisdictions 
faced trying to locate a specific address. Even had rescue personnel 
been familiar with the area, it was difficult to find addresses because 
many street signs were knocked down or underwater. Armed with more 
contextually relevant information--specifically text-based driving 
instructions or latitude/longitude coordinates, delivered through the 
optimized emergency response network--mobile responders may have been 
able to get to many places faster.
    However, we must consider what it takes to deploy a robust and 
integrated set of IP-based applications as the technical foundation 
from which next-generation emergency mobile communications can operate. 
The entire public-safety community--and the public that it serves--
expects that emergency communications will be operational 24 hours a 
day, every day.
    Clearly, a robust IP-based next-generation 9-1-1 network must 
address this expectation. An effective next-generation 9-1-1 system 
that relies on IP must maintain the public-safety standards of 
security, reliability, performance and availability required of any 
life-safety system.
    Local public-safety agencies interested in ensuring that their 
mobile emergency communication needs are integrated into a next-
generation operating environment without adversely affecting the 
delivery of emergency services would be well-served to follow the 
current operating model.
    Like the current 9-1-1 system, the next-generation system must be 
deployed over a dedicated, secure and highly reliable IP 
infrastructure. This system must be managed by an experienced and 
trusted 9-1-1 service provider, such as the incumbent local exchange 
carrier (ILEC), on behalf of multiple local governments. Strict rules 
and standards will need to define which personnel and organizations are 
granted network access.
    Should a migration to IP not be part of a particular ILEC's overall 
strategy, there are other companies with the required expertise to help 
a community cost-effectively make the migration to IP-based 9-1-1, 
leveraged to also support the needs of emergency responders that rely 
upon mobile technology.
    Next-gen 911 has the ability to elevate the capabilities of all 
communications centers and improve collaboration among mobile 
responders, in addition to supporting expanded 9-1-1 functionality. But 
it must be designed and maintained to the same high performance 
standards as the current 9-1-1 network. Local public-safety 
communication center officials and state 9-1-1 coordinators can serve 
as good resources in determining the best alternative for your 
jurisdiction.

    The Chairman. Thank you very much, Mr. Meer.
    May I recognize Senator Stevens?
    Senator Stevens. Mr. Hatfield, I'm known for blundering 
into things, but recent announcements have been made about 
sunspots and emissions from the sun. We've got a system that's 
GPS-oriented. Have you been able to determine whether that's 
going to have an impact on this E-911 concept?
    Mr. Hatfield. That's a little bit about--outside my 
immediate area of expertise, but it is true that forms of solar 
radiation can have an impact. My impression is that it's--the 
errors that you get are relatively small compared to the 
current location accuracy requirements. But, I confess, that's 
not an area I've looked at in any great detail.
    Senator Stevens. OK. Do any of you know whether this 
concept of information being transmitted not being accurate--is 
totally related to GPS, or is it related to other factors? We 
have this study that I've just seen that indicates that there's 
a problem. I don't know if it's a technological problem or a 
problem in implementation by the public-safety officials or 
communications providers. Have you all seen this recent study 
we've just got news of today?
    Ms. McCarley, do you know about that?
    Ms. McCarley. Yes. And I think--because wireless Phase II 
is not--is technology neutral, there are several technologies 
in play, in terms of delivering accuracy information to PSAPs, 
the Commission clearly acknowledged that those technologies had 
variances in their capability in the way that they developed 
the rule. The rule for handset technology is far narrower than 
the rule for network technology. So, there are a number of 
factors that come into play there, in terms of determining the 
accuracy delivered to the PSAP.
    Senator Stevens. Thank you.
    What's a reasonable timetable for the transition to move 
into a national IP-enabled 9-1-1 system? Anyone have any 
suggestions?
    Ms. McCarley. That's a very difficult question, because I 
think that's very technology-dependent. But we're certainly 
doing everything that we can to expedite that and will move 
that forward as quickly as possible. The major concern, I 
think, is to make sure that as we move into that IP 
environment, we keep the standard 9-1-1 feature set--there are 
certain features that are inherent to 9-1-1 that we would need 
to make sure we migrate with us into that IP world. So, if 
there's anything that will cause us to pause and make sure that 
we research some of those issues more thoroughly, it's that 
feature set that supports 9-1-1 and the delivery of emergency 
services to the citizen.
    Senator Stevens. Mr. Meer, do you have any comment on that?
    Mr. Meer. I do. Intrado has been working for quite some 
time on IP-based 9-1-1 and Next Generation 9-1-1. The 
underlying principles and the components of it, from Intrado's 
view, will be moving out into the world later this year, with 
first calls happening before the end of this year. Of course, 
then we have a scaling issue and an adoption and rollout 
situation, as well as all the issues of the competitive 
landscape and the funding that go with that. But we believe 
that the fundamental technology components are certainly 
available; as we speak, they're coming to the reality.
    Senator Stevens. My last question would be, are the people 
involved in this, the parties involved in it, focusing on the 
rural areas, such as our State of Alaska, in terms of this 
next-generation of 9-1-1 and E-911? Or are you just focusing on 
the areas of potential hurricanes, like Florida or are you 
looking at the whole country from the point of view of rural 
America's being served by this, as well as those in 
concentrated areas?
    Ms. McCarley. I don't believe that we have the luxury of 
not focusing on the rural areas. The citizens in the rural 
areas of America deserve the same level of service as those 
people in the urban areas. So, certainly, we must address those 
issues for the people in the rural areas of America.
    Mr. Barbour. I would agree, too, Vice Chairman, that we've 
got to approach this in a holistic viewpoint. You know, no 
matter where a citizen lives in this Nation, if they have a 
call for help, we want to make sure that call gets answered, 
either on a traditional 9-1-1 system or the Next Generation 9-
1-1 system.
    Senator Stevens. Are any of you familiar with any kind of 
intersection of this next generation 9-1-1 concept with the 
locator beacons on small planes and aircraft that go down? We 
do have a locator beacon, but I'm not sure that they're 
connected into the 9-1-1 system. I think they're dependent upon 
triangulation right now.
    Mr. Meer. So, in the next-generation 9-1-1 world, we're 
really looking at extending the call continuum. Where today 9-
1-1 is a voice caller to a call-taker, we're really looking at 
extending it to many more devices, whether they be data-
oriented or video-oriented, and carrying that through in a way 
that we can integrate many more pieces into it. So, those 
beacons, for example, the output of that can be integrated in, 
or somebody's pacemaker that is embedded with a radio device 
could be automatically calling for help as a situation is 
unfolding. So, one of the promises of this IP world is much 
more of the interconnected relationship of all of the public-
safety adjunct technology and devices that can come together, 
so we're very excited about that.
    Senator Stevens. Have you looked into that, Mr. Hatfield?
    Mr. Hatfield. I was just going to comment that--I want to 
emphasize that when we talk about this, there are two critical 
areas. One is rural areas, where, if you only have one cell 
tower, it sort of follows that you can't triangulate; and so, 
that's a really difficult issue. I suggested perhaps some sort 
of a hybrid satellite and network-based solution might help 
solve that problem.
    And then the other thing I'd like to emphasize, again, as I 
touched on in my testimony, this indoor location problem, as 
people move further indoors to use their VoIP service or their 
wireless service, we have problems. We have problems, because, 
as I said in my testimony, that satellite signal is very weak, 
oftentimes, compared to the cellular signal; and so, therefore, 
you can't be located. So, I think we've got a fundamental 
problem, as a Nation, to make sure that we can locate people 
when they're indoors.
    Senator Stevens. Well, as I said in the beginning, thank 
you all for your interest. This is very vital to our area 
that's one-fifth the size of the United States. We've got to 
find a way to keep up with this technology as it develops.
    Thank you very much.
    The Chairman. Thank you very much.
    May I now recognize Senator Sununu?

               STATEMENT OF HON. JOHN E. SUNUNU, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. I apologize. I thought Senator Snowe was 
next. I just have a couple of questions.
    First and foremost, about the number of PSAPs that are out 
there--Mr. Hatfield. You talked about the advancement of the E-
911 network, as a whole, and the idea of building that network, 
and basing it, in part, in IP technology. How many PSAPs does 
that really mean we need? Do we need 1,000? Do we need 2,000 or 
3,000? Or is it a network that should be constructed in a much 
more efficient way?
    Mr. Hatfield. That's an excellent question. If I'm correct, 
I believe there are about 6,000 PSAPs today. And, of course, if 
you look at a large company, for example, that handles some 
volume of calls like this, you find that oftentimes they have 
much fewer number of answering locations, which suggests, just 
a little bit, that there might be some efficiency gained. But 
the difficulty is, there's local knowledge and things like that 
associated with that call-taking and dispatching capability 
that I think you have to factor in. In other words, it's not a 
pure economic-efficiency argument; there are other issues, as 
well. And there are other people at the table who can probably 
address those a little bit----
    Senator Sununu. Six-thousand main PSAPs? Talking about 
principal PSAPs, not backups?
    Mr. Hatfield. Yes, I believe that's correct.
    Senator Sununu. You know, New Hampshire's a relatively 
small state, but we're effectively served by one PSAP, and it 
works effectively. We have two backups. And I think that would, 
you know, speak to the belief that, you know, we could be doing 
this much more efficiently. When I say ``efficiency,'' I'm not 
talking just in terms of dollars, but in terms of performance 
of the network, as well.
    Mr. Meer, did you want to add something to that?
    Mr. Meer. I was going to just suggest that history has also 
shown that the location for call-taking and for dispatching and 
working with the emergency responders is also an important 
component of that. So, while there may be some right-sizing of 
it, you want to make sure and look at the broader system, not 
just the call-handling component of that.
    Senator Sununu. But do you believe that's been done within 
the current system? Do you think we've reached a point where 
you can say that both the location and the numbers speak to a 
pretty rational and efficient system right now?
    Mr. Meer. I think there are changes that happen every day, 
and I think it's certainly not as efficient as it could be at 
this point.
    Senator Sununu. Anyone want to add--yes, sir? Mr. Barbour?
    Mr. Barbour. I would just say, in Johnston County, North 
Carolina, we've sort of experienced what you're talking about. 
Four years ago, we had four different answering points, and now 
we've consolidated into one. So that--and I think having it all 
under one roof is making a more effective and efficient manner.
    Senator Sununu. And, in terms of performance, though----
    Mr. Barbour. Yes.
    Senator Sununu.--I mean, the needs, the response times, you 
feel those are being met, as well or better than they were 
before?
    Mr. Barbour. Yes. You know, the right hand knows what the 
left hand's doing in the environment that we're working in now.
    Senator Sununu. Yes?
    Ms. McCarley. I think it's important to remember, too, that 
the goal of 9-1-1 is not just to get the call answered, but to 
get the caller to a source of assistance. And the first 
responder infrastructure across America, as Mr. Hatfield 
mentioned, is vested in local governments. So, more than just 
the PSAP facilities, we have to think about the way we exchange 
information with those first responders.
    Senator Sununu. Ms. O'Leary, I've been provided with some 
statistics that show, of those customers in America that depend 
on traditional wireline services, 3 percent don't have access 
to E-911; of those that depend on Voice over IP, less than 
that, only 2.4 percent don't have access to E-911. Obviously, 
that's a good performance, and not all of those customers, 
unfortunately, are Vonage customers--unfortunately for you, 
anyways.
    [Laughter.]
    Senator Sununu. But I do want to talk about your experience 
and those customers that right now don't have E-911 capability, 
although I was certainly pleased that, over a relatively short 
period of time, we're down to less than 3 percent. But what 
portion of your remaining customers that don't have access to 
E-911, are denied those capabilities as a result of a lack of 
access to a component, a portion, of the 9-1-1 network?
    Ms. O'Leary. Well, we're talking about 5 percent for our 
network, and I think it's a combination of access and liability 
parity, because what happens is, you may not be allowed access 
to certain aspects of the network, because the other parties 
who are supposed to be providing those accesses are not 
compelled to do so, and have no requirement to do so. But then, 
when you get down to the individual PSAP level, there are PSAPs 
that will not enter into arrangements with us for E-911, 
because of the liability issues around that.
    Senator Sununu. Can you try to quantify those two portions, 
roughly? How much of it has to do with access? How much of it 
has to do with liability?
    Ms. O'Leary. I would say three-quarters are access, and 
about one-quarter is liability parity.
    Senator Sununu. I think that's important to know. I mean, 
anytime you get down to the last 2 or 3 percent of trying to 
get access, it's not easy. Given that we've had wireline 
services for a long, long time in America; the fact that 3 
percent still don't have access to E-911 in wireline speaks to 
how difficult and challenging it can be. But I think it's 
important that we understand that access and liability are two 
things that we absolutely need to address if we're going to 
solve this problem.
    Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Snowe?

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman. And thank you for 
holding this hearing on a very critical issue.
    And I'm very pleased to join Senator Nelson in introducing 
this legislation, because I don't think that technology should 
define public-safety issues and issues of a matter of life and 
death. Hopefully, we can develop a seamless system that is 
sustainable, predictable, and certain, irrespective of what 
technology one uses in any part of the country. And I know it 
is a challenge, but I think it's one that is necessary. And 
obviously, I think, the FCC did take an important step forward 
in that process, and now we have to ensure that the legislation 
that we pass will encompass all of the issues that you have 
addressed here, as well today.
    And I know our legislation, I think, addresses some of the 
gaps that exist with the FCC order. And the thing that you, Ms. 
O'Leary, are saying, that if the FCC's order is just codified, 
that that would not be enough, because it wouldn't allow for 
flexibility to expand the system or develop a new system. Is 
that correct?
    Ms. O'Leary. Well, I think what I was talking about was 
that it needs to encompass all of the participants in that 
process. So, for example, the FCC's order covers interconnected 
VoIP providers, but, on the same retail shelves where Vonage's 
devices are being sold, you have other VoIP providers right 
next door that are marketing themselves as alternative 
telephone services that do not have access--or are not required 
to provide access to 9-1-1.
    Senator Snowe. And so, in looking at our legislation, what 
would you recommend in how we, you know, address that issue, or 
modify the language? Do you have any ideas in that regard?
    Ms. O'Leary. I can certainly look at the specific language. 
I have not studied it as closely as I would like to, to be able 
to answer that question. But I can tell that you that there's 
also a lack of a compulsion around the other players, such that 
you have the native 9-1-1 network providers who are not 
compelled in any respect to provide access to their network, 
and then with regard to the PSAPs also being compelled in some 
fashion to connect with VoIP providers. But I would be happy to 
look at the language.
    Senator Snowe. Yes, and I certainly would like to get a 
feeling from members of the panel, in terms of what the 
recommendations for priority changes in this legislation are 
that you think are essential, either modification of language 
or additional provisions. And I know that each of you have 
suggested some issues.
    Can we start with you, Mr. Hatfield? Is there anything in 
the legislation that we have proposed that you would suggest 
should be different?
    Mr. Hatfield. No, I don't think so. I've not looked at it 
in enough detail to be able to comment. I do like, very much, 
the notion of providing Congressional impetus for the next-
generation 9-1-1 network, though. I was very pleased to see 
that language in the bill.
    Senator Snowe. Ms. McCarley?
    Ms. McCarley. I think what we'd like to do is take a much 
closer look at the legislation and submit some written comments 
to you.
    But certainly the liability issues are huge. The impetus 
toward next-generation 9-1-1 is certainly needed. But we'd like 
to study that in more depth and get back to you.
    Senator Snowe. Mr. Barbour?
    Mr. Barbour. Along the same lines, I would like to see us 
broadening the scope of liability parity, not only to address 
VoIP service, but whatever the service is, coming in the future 
that's going to be accessing the 9-1-1 system, so that we don't 
have to go through this situation again. Let's go ahead and 
take care of it this time.
    Ms. O'Leary. I do have one other point I'd like to make, 
and that is with regard to the request for a unified statewide 
funding system. We are in a particularly interesting situation, 
in that there were only six--I think six states that had 
enabling statutes that allowed us to pay into their 9-1-1 fee 
structure. And now, as we go out, we have to negotiate on a 
state-by-state, sometimes locality-by-locality, situation, and 
it would be very helpful for us to have that raised up to the 
State level so that we could have one unified structure across 
all 50 States.
    Senator Snowe. And Mr. Meer?
    Mr. Meer. I echo Mr. Barbour's comments. I think, in 
general, we should be looking at the future of telecom, and not 
specifically limiting any of the discussion here just to Voice 
over Internet Protocol, but really look at the broader issue of 
communications as it evolves for the foreseeable future so that 
we don't have to visit, not just liability, but any of the 
other issues that may come up.
    Senator Snowe. Well, you know, I couldn't agree with you 
more, and especially, what I think, really prompted this issue 
is, you know, making a distinction between telecommunication 
and information services. At this point, it should be not 
defined about how they're classified, but, rather, what 
technology people are using for public-safety questions, or 
using a 9-1-1 network of some kind. And I think it does have to 
be flexible, and I think the real key is going to be developing 
the next-generation plan.
    How long do you think that that would take? If we require 
that, as we do in this legislation, how long would that take, 
in terms of, implementation, to have a uniform system across 
this country that's flexible and irrespective of technology?
    Mr. Meer. Well, certainly from Intrado's view, we believe 
that there are pieces of it that will start rolling out even 
before the end of this year. Certainly, there is broad industry 
consensus work to be done, and some standards work, and other 
of the mechanical issues that are required because of the 
detail it takes to move forward. And certainly one of the 
largest challenges is, is we don't have the luxury of turning 
this off on Sunday night and waiting 6 months and turning it 
back on, so this has to operate in an environment through 
transition, where new and old work side by side, and then we 
emerge with a future environment--next-generation environment 
at the end, which adds some time to it.
    But we certainly feel like the industry is moving. There's 
a number of initiatives moving forward, both in the consensus 
world and from the manufacturers, to begin to move things. And 
I think you see activity happening already.
    Ms. McCarley. I think it's important to remember, too, that 
backward compatibility is certainly going to be an issue. And, 
because of the funding structures and funding as it exists 
today, allowing agencies to migrate their technology so that 
they can do that based on the funding that they have available, 
is important.
    Mr. Barbour. And I would just say NENA, as well as APCO, is 
working together on this issue to try to expedite the rollout, 
through the Project 41 that APCO has, the next generation 
partners program that NENA has, as well as the transitional 
planning committee that we both have. We're trying our best to 
get it out as quick as possible.
    Senator Snowe. I appreciate it. Thank you very much.
    And thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Nelson?
    Senator Nelson. Thank you, Mr. Chairman.
    Thank you, all, for your testimony. It's going to help us 
on the legislation Senator Snowe and I have filed.
    Mr. Hatfield, you were preparing a report, and you said, in 
your statement, earlier, that you gave us some of the tentative 
conclusions from the study. I want to see the finished study 
and your final conclusions. Tell us, why was the study 
canceled, and at what stage was it canceled?
    Mr. Hatfield. First of all, I don't know--I was never told 
why the study was canceled. I was at the stage where I had my 
preliminary--I had divided my report into findings and 
recommendations, and I had briefed the Commission staff on what 
my tentative findings and tentative recommendations would be. 
In the short-term time thereafter, the study was terminated. 
So, there's not a report in existence today, although my 
testimony essentially reflects where I was at the time that I 
stopped working.
    Senator Nelson. Well, what does it take for you to finish 
the study?
    Mr. Hatfield. Time and money. No. Time.
    Senator Nelson. Well?
    Mr. Hatfield. I don't mean to be flip, but----
    Senator Nelson. Do you need to have the specific 
authorization from the FCC to do that?
    Mr. Hatfield.--no, I think there is, I have been very free 
here today to talk about the report and what I did. I think I 
can go ahead and complete it on my own.
    Senator Nelson. Well, then, with the Chairman's permission, 
I'm going to pursue this with you, if for no other reason--and 
in a personal, one-to-one relationship between you and me--
because I'd like to see the results of your study.
    Let me ask the panel, What are the risks if we fail to pass 
this bill?
    Ms. McCarley. I think the risks are slowing down the 
advancement of 9-1-1. And as we've said here today, each member 
of this panel has articulated the importance of 9-1-1 to the 
American people. It's their lifeline to the service providers 
that provide them emergency assistance when they need it the 
most. So, you know, legislation that would support the 
advancement of the 9-1-1 system is critically important.
    Senator Nelson. If this bill were not to pass, what impact 
is it going to have on the development of the next generation 
IP 9-1-1?
    Ms. O'Leary?
    Ms. O'Leary. I'd be happy to answer that. You can see--I 
think we're a real, live case of what the risks are. The FCC 
compelled us to roll out E-911 in 120 days. We would have been 
happy to do that if we hadn't run into the access issues and 
into the individual issues we ran into with the PSAPs around 
liability parity and the fear that they were going to be pulled 
into some awful 9-1-1 suit. And so, we're 95-percent compliant 
today, but, I'll tell you, that came with a lot of feet on the 
street and a lot of individual, you know, hand-to-hand combat 
and negotiation to get us there. And I think that we are the 
real-life example of what would happen if you failed to do 
that, because I think that there are some wonderful 
technologies on the horizon, but if they're going to be 
compelled to offer E-911, then why make it difficult for them, 
and why put our citizens at risk?
    Senator Nelson. Other than what Mrs. McCarley said, if we 
fail to pass this bill, how is it going to impact the 
availability of 9-1-1 to VoIP customers?
    Ms. O'Leary. From Vonage's perspective, it's not going to 
impact us at all, because we're continuing to proceed, and 
we're going to get to 100 percent, we're hoping, by the end of 
the summer.
    Senator Nelson. Anybody else?
    Ms. McCarley?
    Ms. McCarley. I'd just like to point out, too, that the 
demographics of 9-1-1 are changing. You know, 2 years ago, I 
guess, in my home area, Fort Worth, Texas, in Tarrant County, 
40 percent, roughly, of the 9-1-1 calls came from wireless 
phones. Today that percentage is about 67 to 70 percent in most 
of our areas. The increase in the number of folks who use VoIP 
to dial 9-1-1 is increasing exponentially. So, I think we have 
to take into consideration the rapid change in the customer 
base, those people who dial 9-1-1, and the devices they use to 
do that.
    Senator Nelson. Anybody else?
    Mr. Barbour. I would just add, I agree with what Wanda was 
saying. You know, our society now is becoming a more nomadic 
society, and they're no longer dialing 9-1-1 from their home 
environment, they're out on the road, they're at their place of 
business, they're at their place of recreation. And there are 
devices they're going to be having in their possession that we 
need to ensure, when they press that panic button, that 9-1-1 
receives that panic call.
    Senator Nelson. Mr. Meer?
    Mr. Meer. The importance of Voice over IP at this moment is 
that even some of the incumbent providers that are using other 
technologies today are quickly moving toward the use of 
Internet protocol in their environments, whether it be wireline 
or traditional wireless. And certainly as the gap between the 
technology that's used to provide service to the consumer and 
the technology that's used to provide 9-1-1, as that gap gets 
larger and larger, it represents more monumental efforts and an 
incremental slowing of the ability to keep up. So, when Ms. 
McCarley speaks of ``it would slow down the progress of 9-1-
1,'' I guess I would categorize it as a little bit broader than 
that, and that is, the gap is growing, and we're more quickly 
losing the battle with each new technology that comes out, and 
we need to get to a system that has more change capacity, more 
robustness, more security, so that we can be on a level playing 
field to move as technology moves across the board.
    Senator Nelson. Mr. Hatfield?
    Mr. Hatfield. I'd just like to reiterate again that these 
changes that we're talking about have also impacted, because 
our current system has generally been aimed at locating people 
when they're outdoors rather than indoors. So, I just keep 
coming back to that, because I think that's a fundamental 
change that we need to take into account.
    Senator Nelson. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Ms. Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you, Mr. Chair. It's good to be 
here today.
    My background is in telecommunications, I first dealt with 
this as a lawyer; and then when I became a prosecutor, I saw 
another side of the work that you do. Some of the issues that 
we had in the rural parts of our State early on, when it was 
hard to trace where the 9-1-1 calls were coming from, and then 
a particular use to us as prosecutors as the evidence that we 
had from the 9-1-1 calls, particularly in domestic abuse cases, 
where we would have victims that would later get scared to 
testify, and the 9-1-1 calls helped us to build our case. So, I 
have a lot of respect for the work that you do in this area.
    First of all, I want to say, this next generation that 
Senator Snowe was talking about is incredibly important as we 
move forward, but I was curious--Dr. Hatfield, in your report, 
you talked about--that the FCC maintain its oversight of the 
rollout of E-911 services and the next generation of services. 
And could you explain why you think that's important? And maybe 
others would like to comment, as well.
    Mr. Hatfield. I believe what you're referring to is that I 
am suggesting that we have more publicly available information 
on the actual accuracies of which people are being located. 
Generally speaking, that information is not available. Now, 
there are obviously very sensitive and proprietary issues 
involved. But what I was suggesting is that, somehow, by 
aggregating the information, we would have a much better idea 
of whether things are getting better or are they getting worse. 
Are they getting better in rural areas? Are they getting better 
in urban areas, and so forth? Without that--there's an old 
management adage, you know, ``You can't manage what you don't 
measure.'' And I think that's true here, as well.
    Senator Klobuchar. Yes, I would agree. And you're right 
about the sensitivity of the information, but there must be a 
way to do it, where you wouldn't have to identify individual 
cases.
    Would anyone else like to comment on this issue?
    Ms. McCarley?
    Ms. McCarley. I think, in years past, accuracy information 
was kind of a nonissue, because you had hardwired phones, and 
the accuracy was extremely explicit to an address, a specific 
address, particularly in rural America. Now accuracy means 
locations that are on mountains, in forests, snowmobilers, and 
people in national parks. Being able to find people where they 
are, when they need help, is extremely important. And the more 
accurate the information we get, the less time we have to spend 
searching, and the more lives we can save.
    Mr. Barbour. You know, if you can imagine the call-taker 
and the caller when they're calling in an emergency, you know, 
a mother calling in that her child is choking, and they're not 
at home, they're in their car. And when they dial 9-1-1, and 
they've been trained that, ``9-1-1 knows where I am. I just 
have to dial 9-1-1. They're going to know where I am, they can 
get help to me''--and then when they realize that the 9-1-1 
center doesn't know where they are, that increases the 
frustration and the anxiety that that caller is experiencing. 
So, accuracy is just as important as getting a response to the 
call to the person that's in trouble.
    Senator Klobuchar. And to follow up on that, in your 
example, would be, you know, if they're calling somewhere, and 
the people don't know how to do it. I mean, I've heard there 
are issues with funding for training and equipment in rural 
areas. Do you want to talk a little bit about that and how we 
could solve that?
    Mr. Barbour. Funding's always an issue. You know, guidance 
through grants to help the rural areas, you know, the 
mechanism's in place now for them to do their funding. But the 
numbers just aren't there in a lot of the parts of rural 
America. So, some leadership, some guidance, and maybe open up 
some grants through the ENHANCE 911 Act, I believe--you know, 
that was passed, but hasn't been funded, if we could get that 
funded, I think it would be a huge step in achieving this.
    Senator Klobuchar. Ms. McCarley?
    Ms. McCarley. I don't think you can underestimate the 
impact of people. And this week is National Public-Safety 
Telecommunications Week, the week that we honor those people 
who man the 9-1-1 centers and take those calls every day. They 
require a lot of training. And the more sophisticated our 
technology becomes, the more we have to migrate our workforce. 
So many times, in the agencies where they do business, the 
first thing that gets cut, in terms of funding, are the 
training dollars. And that's almost the last thing that should 
be cut. So, any assistance that we could get for the training 
of those folks. APCO also has Project RETAINS, which explores 
how we solicit, we train and keep valuable people on the job. 
And that's extremely important. Once we get them, we need to 
keep them.
    Senator Klobuchar. Ms. O'Leary?
    Ms. O'Leary. I just wanted to go back to the auto-location 
comments that were made earlier. As the only service provider 
up here, I just want to provide some words of caution. I think 
that Vonage has proven that we are all for giving our customers 
greater access to public safety, but I would urge that the 
mandates or obligation to provide an auto-locate function not 
get out in front of the technology that's available. And I 
would defer to my esteemed colleague at NENA with regard to 
making sure that whatever devices are out there are capable of 
doing what you're asking them to do before anybody's mandated 
to provide that function.
    Senator Klobuchar. Thank you very much.
    The Chairman. I have one question. I'm fascinated by the 
benefits of high technology. However, I'm a technology moron. I 
know very little. But one thing I'm aware of, somebody will 
have to pay for the benefits of high technology. My question 
is, is the current funding mechanism adequate to pay for the 
next-generation 9-1-1 systems, or do we need alternative 
systems to pay for it?
    Please.
    Ms. McCarley. That's a very good question. And I'd like to 
stress, too, that the funding mechanism for 9-1-1 is 
essentially, in many ways, broken, because, as new technology 
comes onboard, we have to--you know, we've always relied on 
exchange access line fees. That doesn't work any more for the 
new technologies that are being rolled out. So, the 9-1-1 
community is continually looking at ways that we adjust our 
funding mechanism to account for some of these new 
technologies. And certainly the number of dollars that it will 
take to research, develop, and deploy new 9-1-1 systems that 
will accommodate new technologies is far beyond anything across 
the U.S. that we currently have funding for today.
    The Chairman. Does this bill provide any answers?
    Ms. McCarley. I think it's certainly a valid start. And, 
you know, we absolutely have to take a serious look at how we 
fund those services, not only today, but in the future.
    The Chairman. So, the fees that appear on the telephone 
bill, at the present time, would not be adequate.
    Ms. McCarley. Actually, no, because the fees that appear on 
your telephone bill apply to your exchange access line. A VoIP 
provider doesn't have an exchange access line, so there's a 
different funding mechanism there. Wireless phones, they're not 
an exchange access line; there's a different fee structure 
there. And then, we see new wireless devices come in, like the 
devices that are not a monthly fee, but a number of minutes-of-
use time. That's an entirely different scenario of funding. So, 
we have to address the issue of how we collect fees to support 
those callers who call from those kinds of devices. So, every 
new technology that comes on the horizon has to be addressed 
through our funding mechanisms in order that we keep 9-1-1 
current and moving forward.
    The Chairman. Any other views?
    Yes?
    Ms. O'Leary. I absolutely agree with making sure that 
there's adequate funding for any new 9-1-1 technologies, and 
for putting those technologies in place. But I would be 
cautious about--I would look very closely at the fees that are 
currently being collected, and how they are being spent, and 
whether or not they are being spent on the 9-1-1 system that we 
have, and whether or not they could be reallocated to the new 
next generation of 9-1-1.
    I would also argue that, with new technologies, in many 
instances the costs go down. I think it goes to what Senator 
Sununu was talking about earlier, in terms of greater 
efficiencies with the new technologies. And I would urge that 
we not just create another funding mechanism for the sake of 
creating another funding mechanism, without it being 
thoughtful, in terms of what we've got and where we need to go.
    Mr. Meer. I feel compelled to speak on the issue of costs 
going down. There's a lot of talk that the use of Internet 
Protocol and Voice over IP will lower the cost of 9-1-1. And, 
at the end of the day, I think there are some aspects of the 
costs that will go down, but, as the overall system becomes 
more complex, as there are more system participants, as there 
are more speed of evolution and introduction of new 
technologies and costs to keep the system up, as there are more 
participants that you need to coordinate amongst and do project 
and program management, I don't believe the costs go down. I 
believe they change dramatically; things that we used to pay 
for go away. But ultimately the system is bigger and more 
complex, and there are more participants. And so, we need to 
find ways to work more efficiently. But the net-net is, that 
there will be more costs paid by the American public to have 
similar levels of features as the system becomes more and more 
complex.
    Mr. Barbour. I would echo what each one of the panel 
members have said. You know, back in my home county, in 
Johnston County, one of the fastest-growing counties in North 
Carolina, we're seeing our landline or our wireline revenue 
decrease while our call volume is increasing. And, you know, 
only one can relate that to wireless or VoIP subscribers 
increasing. So I urge you to secure funding to assure that 9-1-
1 does not go unanswered.
    And I want to thank Vice Chairman Stevens for his 
leadership earlier this year in securing the $43\1/2\ million 
in this area, as well as urge what else can be done to make 
sure, in this year's fiscal year, that we fund the ENHANCE 911 
Act.
    The Chairman. In other words, just the passage of this 
measure will not suffice.
    Mr. Barbour. That's correct.
    The Chairman. If you do have suggestions on how we can 
adequately fund the next generation, I hope you will submit 
them to us, because, you know, we can have all the benefits, 
bring up the hopes of our folks, but if you can't pay for it, 
it's just a dream. So, I would appreciate if you would take 
some time and come forth with suggestions, and we'll look at 
them very seriously, because I don't think we can go into a 
markup to pass a bill that has no future unless you have money. 
So, can you do that for us?
    Mr. Barbour. Yes, we'll be glad to.
    And NENA, just like you, Mr. Chairman, you know, we look 
forward to the funding debate, because it's in our interest to 
ensure that the funding mechanism is in place to ensure that 
this technology's there, whether it be technology, people 
there--quality, trained people--because 9-1-1, as President 
McCarley said, you can no longer just go and hire people off 
the street; it's so technology-dependent, it takes several 
months to train someone just to learn the technology. It's no 
longer answer a phone and push a button in the 9-1-1 system, 
and it's not going to do anything but get worse as technology 
increases. So, funding is key, and we will definitely do that.
    The Chairman. Thank you very much.
    Senator Stevens. It seems to me we're dancing around the 
head of a pin. The wire systems, the customer has paid for 
this, and now we're going to VoIP, where it's to be a system 
that really is a part of the Internet system. But very clearly 
we can't envision that we'll annually have an appropriation to 
pay for E-911 services for everyone who wants them on any kind 
of system, other than the wire and fixed legacy systems. If you 
listened to what the Chairman said, we need some suggestions. 
And whoever has VoIP at least is paying the provider of the 
Internet services. Somehow or other, we've got to find a way to 
have people pay for this service, or it's not going to be 
sustained very long.
    So, I do think we have to put on our thinking caps and 
figure out how to get it, and spread it out as broadly as 
possible, so it's as small as possible, but someone's going to 
have to collect that money. And I hope that you'll come back to 
us with some suggestions.
    Thanks.
    The Chairman. We'll get the money, won't we?
    [Laughter.]
    Mr. Barbour. Yes.
    The Chairman. With that, the hearing is adjourned.
    [Whereupon, at 3:50 p.m., the hearing was adjourned.]
                            A P P E N D I X

            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey
    Mr. Chairman, thank you for holding today's hearing on this 
important subject.
    9-1-1 is a lifeline in an emergency, especially for victims of 
domestic violence. That is why it is absolutely critical that 9-1-1 
call centers have immediate and accurate information about the caller's 
location. Far too often, that is not the case.
    Take Misty Kirk of Cherokee County, Oklahoma. 9-1-1 operators 
listened for 27 minutes and 34 seconds while Ms. Kirk's ex-husband beat 
her in front of her two young daughters. Ms. Kirk had called 9-1-1 from 
her cell phone, but in Cherokee County, as in 40 percent of counties 
nationwide, the 9-1-1 operators did not have the technology to get her 
location. This is simply unacceptable and we must take steps to improve 
the system.
    I am proud that one hundred percent of New Jersey's counties 
provide ``Enhanced 911'' services. But we need to make sure that 9-1-1 
call centers can locate every caller, whether she is calling from 
Bergen County, New Jersey or Cherokee County, Oklahoma, and whether she 
is calling on a cell phone, a traditional landline phone, or over the 
Internet.
    I appreciate the Chairman's leadership on this issue, and I look 
forward to the testimony of our witnesses.
    Thank you Mr. Chairman.
                                 ______
                                 
      Prepared Statement of Skip Speaks, Chief Executive Officer, 
                           Rosum Corporation
    Chairman Inouye, Ranking Member Stevens, Members of the Committee. 
My name is Skip Speaks, and I am Chief Executive Officer of Rosum 
Corporation. Thank you for the opportunity to submit testimony on the 
subject of VoIP and the future of 9-1-1 services. 9-1-1 is a subject 
that affects all users of telephony services, and arguably all 
citizens, in some way or another, and I appreciate the Committee's 
thoughtful review of this important public safety issue.
    Rosum was founded in 2000 for the precise purpose of developing 
reliable location technology that works indoors and in urban canyons. 
Our founders come from the GPS world--our Chairman and co-founder, Dr. 
Jim Spilker, was one of the original architects of the GPS 
constellation. Our founders intimately know the strengths of the GPS, 
and in turn know of its shortcomings in urban and indoor environments. 
Rosum uses analog and digital terrestrial television signals for 
position location, signals which can be thousands of times stronger 
than GPS indoors and which were designed to deliver TV programming to 
indoor receivers. Rosum works by detecting those signals, at far weaker 
levels than required to deliver picture, and measuring their time-of-
flight from transmitter to receiver, much as you would with GPS. In 
sum, Rosum transforms the broadcast TV infrastructure into a high-
power, multi-channel GPS equivalent, right here on the ground. The TV 
infrastructure is distributed and robust to disaster, and is already 
used for emergency services such as the Emergency Alert System (EAS). 
The National Association of Broadcasters received commendation after 
its role in preserving communications in the wake of the Gulf State 
hurricanes of 2005.
    Rosum has also combined TV with GPS signals for what we call 
``hybrid'' positioning that utilizes the best available signals in a 
given location. This combines satellite GPS signals with terrestrial TV 
signals. TV is highly correlated with urban and suburban areas; 
conversely, GPS is strongest in more rural, open areas. The combination 
of the two gives us the best of both.
    In rigorous all-indoor testing in various cities across America, we 
consistently deliver accuracy that meets or exceeds the FCC's E-911 
requirements. Today our infrastructure has approximately 60 million 
people under coverage, with further plans to expand our coverage 
footprint in metropolitan areas of the U.S. this year.
Living Up to 9-1-1's Success
    9-1-1 is arguably a case where industry success has created high 
expectations. Since its inception in 1968, 9-1-1 has conveyed peace of 
mind. One can expect that a 9-1-1 call made over the traditional home 
phone connected by copper wire will result in first responders going to 
the right address. The challenge before us is to deliver comparable 
service to the consumer, regardless of the technology they have chosen.
    When I was with Ericsson's Wireless Infrastructure division, we 
designed and built many of the systems used in wireless communications 
in this country today. We responded to Craig McCaw's challenge of being 
able to dial a person, not a place, and made that vision a commercial 
reality. We also dealt with the issue of helping our carrier customers 
comply with E-911 requirements. It is with some confidence, therefore, 
that I can say the wireless industry has spent substantial time and 
resources working to address E-911, but I can say with equal confidence 
that there is still work to be done, and that we can and must do 
better.
    As such I support Federal Communications Commission Chairman Kevin 
Martin's recent comments on the need for more accurate location of E-
911 calls from mobile devices. I also thank this Committee for its 
attention today.
In-Building 9-1-1
    The subject of today's hearing is VoIP and the Future of 9-1-1 
Services. What I would like to do is present several trends in the 
consumer telephony market today that illustrate an overarching need for 
``In-Building 9-1-1'', or 9-1-1 that works indoors, regardless of the 
technology or service used to make the 9-1-1 call.
    Looking at the consumer telephony market today, there are four 
major trends or changes that draw a larger overall picture.
    1. Growth in wireless-only subscribers. Depending on the city, 
roughly 5 to 20 percent of households are now wireless-only, meaning 
that household uses its wireless handset not just as a mobile phone 
while on the go, but also as a primary home line. For Detroit, it is 19 
percent. For Tampa, it is 15 percent. For Boston, it is 10 percent. In 
San Diego, where I live, it is also 10 percent. Those percentages may 
seem small, but they are forecast to grow. In numerical terms, 
Detroit's 19 percent corresponds to 280,000 households; Tampa's 15 
percent corresponds to almost 180,000 households; Boston's 10 percent 
corresponds to 195,000 households; and San Diego's 10 percent 
corresponds to 105,000 households. These are numbers that make you 
stand up and take notice.
    This trend is most notable among the 18-24 demographic, of which 38 
percent is wireless-only. This means that this trend will likely 
continue to grow. For these subscribers, their wireless phone is both 
their mobile phone and their home phone. The boundary between the two 
is blurring.
    2. Data showing the majority of wireless calls and wireless 9-1-1 
calls are now made indoors. The Network Reliability and 
Interoperability Council (NRIC), a wireless industry standards group, 
in its NRIC VII final report in 2005, recommended that only 5 percent 
of E-911 tests be conducted indoors ``because no data currently exists 
that defines the actual number of wireless 9-1-1 calls made from 
indoors and because of practical limitations of location technologies 
currently deployed.'' That data now exists. Recent data indicates that 
60 percent of wireless calls are made indoors and the majority of 
wireless 9-1-1 calls are made from indoors. Here again, the boundary 
between the wireless phone and the home phone is growing blurry. 
Further, location technologies, such as Rosum's, designed from the 
ground up to deliver reliable location indoors also now exist.
    3. Growth in residential VoIP subscribers. As of Q4-2006, there 
were 9.5 million residential VoIP subscribers in the United States. 
VoIP services offer a new freedom to the consumer--the ability to place 
calls from anywhere a broadband connection can be found. This enables a 
new form of ``nomadic'' telephony, which chiefly takes place indoors.
    Here, too, industry has spent substantial resources addressing E-
911 implementation at a laudable speed. The VoIP industry is to be 
commended for addressing this public safety issue head on, without 
delay. Industry took an approach different than the automatic location 
approach taken in wireless--that of asking customers to self-provide 
their location, which, once verified, is then stored in a database and 
used to route the 9-1-1 call to the proper public safety answering 
point. This bypassed the handset upgrade cycle necessary in wireless to 
get E-911-capable handsets in the hands of consumers. While industry is 
to be praised for the speed with which it has implemented E-911 
service, it remains that some subscribers may not know their exact 
address, or may forget to update it after changing locations. Thus, the 
manual update model used today will face difficulty scaling over time, 
or in coping with more frequent nomadic usage. Here too, I will say 
that regardless of the technology or service they have chosen, 
consumers should expect rapid and accurate response to 9-1-1 calls, 
without the need for manual updates.
    4. New home base stations that augment residential wireless 
coverage. Home base stations or ``femtocells'' promise to alleviate 
residential wireless coverage issues by putting a mini base station in 
the home. Wireless subscribers can use their same wireless handset in 
the home. Calls are carried out over the Internet and then connected to 
carrier networks. For 9-1-1 purposes and subscriber activation 
purposes, base stations must be automatically locatable indoors. GPS, 
used in wireless both for E-911 and for network synchronization, will 
not work in indoor environments. As these devices are generally 
deployed where wireless coverage is poor, cellular network-based 
location technologies also cannot be used for 9-1-1.
Conclusions
    Looking at these trends, it is clear that there is increased 
diversity in services available to the consumer, and that the 
definition of what we once called the home phone has broadened. If 9-1-
1 calls are made over these new services and devices, they will likely 
be made from indoors. It is this general need for indoor location 
capability that I referred to earlier as ``In-Building 9-1-1'', or 9-1-
1 that works indoors, automatically. Further, while I have referred to 
four market trends here, the advance of technology ensures that new 
technologies will come to market. As such, policy that can incorporate 
new technologies will help us avoid our current situation of reacting 
to new services once they are already in the market.
    Choice presents the consumer with added flexibility, improved 
quality of service, and potential cost savings. From a 9-1-1 
perspective, this diversity of options represents a challenge. But as 
the boundaries between home, wireless and Internet telephony blur, it 
is clear that consumers should not have to sacrifice safety in choosing 
one option over another. There is every reason for consumers to expect 
rapid and accurate response to 9-1-1 calls, whether made indoors or 
out, regardless of the technology they have chosen.
    Thank you for your time and attention.
                                 ______
                                 
 Prepared Statement of John Murphy, President and CEO, Vector Security 
     Inc. on Behalf of the Alarm Industry Communications Committee
    My name is John Murphy and I am President and CEO of Vector 
Security, headquartered in Pittsburgh, Pennsylvania. Vector Security 
provides burglar and fire alarm services to over 170,000 homes and 
businesses across the country. I am submitting this testimony on behalf 
of the Alarm Industry Communications Committee (AICC) which is 
comprised of the major organized associations in the security alarm 
industry--the National Burglar and Fire Alarm Association (NBFAA), the 
Central Station Alarm Association (CSAA), and the Security Industry 
Association (SIA), as well as a number of national alarm monitoring and 
alarm equipment manufacturers. I serve as President of the Central 
Station Alarm Association.
Alarm Consumer VoIP Notification
    The AICC is pleased to have this opportunity to share with the 
Committee some of the problems and concerns the industry is currently 
experiencing when Voice over Internet Protocol (VoIP)/broadband phone 
service is installed. Let me begin by saying the security alarm 
industry welcomes new technologies such as VoIP phone services. In 
fact, many security alarm companies, including my own, are already 
availing themselves of this cost effective technology. However, as the 
Committee and the FCC have noted, while many VoIP providers are 
advertising their services as being virtually the same as utilizing 
traditional landline phone services, there are significant differences.
    A primary issue of concern is the need to ensure that consumers who 
select VoIP phone service have access to emergency services on which 
they have come to rely, including 9-1-1 emergency services and services 
provided by alarm companies. At the very least, consumers should be 
informed that if they choose VoIP, they may not have access to 9-1-1 or 
that their alarm services may not work. Consumers also should be 
informed that, unlike traditional facilities-based phone service 
providers, VoIP services may not work in the event of an electrical 
outage if the consumer and the VoIP provider have not installed the 
necessary power back-up systems. This means that even if a VoIP 
provider offers 9-1-1 services, if an electrical outage occurs, the 
lack of an alternative power source will result in the consumer not 
having access to emergency 9-1-1 services or, for that matter, alarm 
security services.
    For the burglar and fire alarm industry, we have learned, to our 
dismay, that alarm services often are disconnected or impaired when 
VoIP service is installed. Over the past 3 years as more and more 
consumers have elected to utilize VoIP services, we have been 
experiencing a steady increase in consumer complaints regarding the 
loss of service. The reason for this is quite simple. The twenty-six 
million alarm systems currently installed in this country utilize phone 
lines to transmit a signal to a central monitoring station when an 
alarm is trigged. When the central station receives that signal, we 
then contact the customer to ascertain whether an emergency has 
occurred. If we do not get a satisfactory reply, then the appropriate 
local emergency service provider is contacted--whether it is the 
police, fire, emergency medical service or, where appropriate, the 
local 9-1-1 dispatcher--and alerted of the need for emergency 
assistance.
    Unfortunately, what we have learned is that when the consumer 
installs VoIP phone services on their own or when a cable TV provider 
installs a VoIP phone service, all too often the alarm system is 
disconnected without the consumer's knowledge. In New Jersey alone, the 
state alarm regulatory board is currently receiving 16 consumer 
complaints a week regarding lost alarm services.
    Of the twenty-six million alarm systems currently in use in this 
country, approximately half of those installed since the mid-1990s, are 
capable of being self-tested on a monthly basis. In homes and 
businesses protected by systems that can be self-tested, the consumer 
could be without alarm service for up to thirty days. In the case of 
the 50 percent of systems installed prior to the mid-1990s, the 
consumer will never know that they don't have alarm security services 
until an emergency occurs and there is no response.
    The industry's nightmare is that someone who is depending upon us 
to protect their life or property will not receive the life-saving 
emergency services they depend upon. This concern is heightened by the 
realization that many senior citizens rely upon us to dispatch 
emergency medical services in the event of a health crisis.
    In most instances, we can make alarm services compatible with VoIP 
phone service if we know the consumer has chosen broadband phone 
service. However, the conumdrum is that unless we know that our 
customer has changed his phone service to VoIP, we cannot remedy the 
problem.
    To address the problem, most alarm companies, through billing 
inserts and other notices and publications, have advised their 
customers of the potential loss of alarm services if VoIP phone service 
is not properly installed. We have advised them to both test the alarm 
system and contact us should they decide to utilize VoIP phone 
services. However, in all too many instances, despite our efforts, 
consumers do not think about their alarm and health monitoring services 
when they decide to change to VoIP.
    We also have worked with a number of facilities-based providers 
such as Time Warner who install VoIP phone services for their customers 
and have been successful in educating them on how to make alarm and 
VoIP phone services work together. We also talked extensively with 
Vonage and after a year of talks and effort, Vonage did place a 
notification on the bottom of their home web page which apprised 
consumers of what they needed to do to make sure that their alarm 
system worked when they install VoIP phone service.
    While we want to compliment Vonage for working with us, we believe 
that the consumer is still not receiving adequate notice. This is 
because the notice Vonage included is at the bottom of the page and 
requires the consumer to seek out the information i.e., know he has a 
problem. Rather, we believe that VoIP providers should take the 
responsibility of asking the consumer whether they have alarm services 
and if so then tell them what they need to do to ensure that their 
systems are compatible with their new phone system. Since virtually all 
consumers are activating their VoIP phone systems online through their 
computers, this could easily be done through a series of questions 
starting with: Do you have an alarm system? If the answer is yes, then 
they would be told what they need to do to ensure the system continues 
to work.
    However, even with our limited success with Vonage it would be 
virtually impossible for us to reach individual agreements with the 
hundreds of companies that currently offer VoIP phone service and the 
untold number of companies that may offer such service in the future.
    We have also raised these issues with the FCC in comments filed 
with the Commission and in meetings. While we believe the FCC has been 
receptive to our concerns, it is unclear whether the FCC has the 
jurisdiction to require VoIP providers to affirmatively notify 
consumers before they install or activate VoIP phone service. That is 
why we are seeking your help to insure that our customers, if they 
change their phone service, will continue to have the alarm security 
and emergency services they currently depend upon.
    Our solution would be one of simple transparency and notice. What 
we are proposing is notification to the consumer before VoIP phone 
service is installed and/or number activation occurs that:

  <bullet> If he/she has alarm or emergency health alert services, 
        those services must be tested;

  <bullet> Their alarm company needs to be notified they installed 
        VoIP; and

  <bullet> To insure that alarm signals continue to work in the event 
        of a power outage, twenty-four hour battery backup is required.

    Since most consumers are purchasing VoIP equipment from consumer 
electronics stores and self installing that equipment, we strongly 
believe that the same consumer notifications should be included in any 
instructions accompanying equipment sold or provided directly to 
consumers.
    While we appreciate that last year the Committee included the 
notice requirement we are seeking at the point of number activation or 
installation by a service provider in your telecommunications rewrite 
bill and that Senator Stevens included the same language in his 
universal service fund bill this year, we urge the Committee to take 
the additional step of requiring that notice be included in the 
instructions that accompany equipment sold or provided directly to 
consumers.
    Attached is a copy of the proposed language for VoIP Consumer 
Notification which includes both; notification on the equipment sold 
directly to consumers as well as notification at the point of 
installation or number activation.
Alarm Monitoring Licensure Reciprocity
    I also want to take the opportunity at this point to bring to the 
Committee's attention another issue of concern to the alarm industry. 
When the 1996 Telecommunications Reform Act passed, alarm monitoring 
was provided in a much different manner than it is today. At that time, 
alarm monitoring was predominately provided to the consumer on an 
intra-state basis. The 1996 Act which led to a dramatic reduction in 
the cost of long distance phone service changed all that. As result, 
the industry has moved from local monitoring to providing monitoring 
services on a regional and national basis.
    For example, in 1996, the largest alarm company in the world had 
one hundred and twenty-six central monitoring stations. Today, even 
with significant customer growth, that company only has five central 
monitoring stations to serve approximately six million customers across 
the Nation. These new efficiencies have allowed us not only to provide 
better service, but also to hold the line on the cost of monthly 
monitoring services.
    As currently implemented, state and local regulation of alarm 
monitoring operates to impede the efficiencies that regional and 
national monitoring can provide. Currently, 16 states regulate alarm 
monitoring services. In addition, many localities also regulate alarm 
monitoring. For instance, while the State of Wisconsin does not 
regulate monitoring, the cities of Madison and Milwaukee do. Similarly, 
Nevada does not regulate alarm monitoring, but Las Vegas does.
    What this means for alarm monitoring companies is that in many 
cases to be allowed to transact business in a state that requires 
licensing, individuals need to travel to that state in order to 
complete the testing requirement for the license. They may also need to 
make repeat trips in order to meet renewal requirements. In addition, 
various levels of employees also need to be fingerprinted and go 
through background checks. For Vector Security this has meant that my 
senior staff has been fingerprinted more than 100 times over the past 
year or so. I myself have been fingerprinted nearly twenty times in the 
last 6 months. Each time, the FBI has had to check our fingerprints as 
well as conduct a background check. Given the national security demands 
on the FBI, the alarm industry thinks repeated fingerprint and 
background tests are not in the country's best interest.
    We would like alarm monitoring licensing to be treated in a manner 
similar to acquiring a driver's license. Once individual basic skills 
and rules are determined to be adequate, it is lawful to drive from 
state to state. We would like to see an approved license to monitor 
being honored by all states. At the same time, we recognize and support 
the right of individual states and jurisdictions to require monitoring 
companies to register, pay licensing fees and be subject to 
disciplinary action should they not conduct business in a manner that 
is deemed proper in a given state.
    Not only is it costly, but it is also very time consuming for 
national and regional monitoring companies to get each new employee 
certified in every jurisdiction which requires licensure. To make 
matters worse, we are often placed in the position of having to 
ascertain whether a monitoring employee is certified in a jurisdiction 
from where an alarm is going off. Since we know that every moment we 
delay in responding to an emergency can mean the difference between 
life and death, having to make sure that you are certified in the 
jurisdiction from which the alarm is coming places our customers 
needlessly at risk.
    Similarly, we are concerned that given the many Federal, state, and 
local buildings we monitor as well as the numerous ``at risk'' sites we 
serve such as ports, oil refineries, banks, and water reservoirs, we 
believe everyone--alarm companies, their consumers, as well as state 
and local governments--would benefit from a more efficient and 
effective licensing system for those companies who provide monitoring 
services across state or local jurisdictional lines.
    At the same time, we believe that consumers are losing out because 
restrictive state or local licensing requirements such as requiring a 
physical presence in a given jurisdiction is acting to reduce consumer 
choice in many areas. This in turn leaves them with few if any 
alternatives to a service provider they may not be satisfied with. 
Essentially what we are witnessing is a state and local regulatory 
process that has evolved over the past decade that is not keeping pace 
with the technical and business efficiencies that resulted from the 
1996 Act.
    After years of study of the various state laws and industry 
consultation, we have come up with a solution that we believe will not 
only improve the certification process, but will also make it much more 
effective and efficient. Our proposal would continue to leave the 
responsibility of licensing at the option of the states or local 
jurisdictions, but the Federal Government would establish a national 
model for monitoring licensure.
    Under our proposed model, the national standard would require: (1) 
a criminal background test: (2) fingerprinting; (3) verification that 
the applicant is not being treated for chemical, alcohol, or narcotics 
abuse; (4) participation in a recognized national or state training 
program; and (5) retention of training and employee records. If a state 
adopted these rules and the alarm monitoring company was either 
headquartered in that state or had a significant business presence in 
that state then the monitoring company could become licensed in that 
state. This license would have to be honored by any state which decides 
that a monitoring license is required. Under our proposal, states would 
retain the right to discipline or revoke a license issued by another 
state if they can show cause.
    The monitoring company would still be required to apply for a 
license in each state that has licensing, pay all fees being charged, 
and comply with any state rules requiring business registration. 
However, if they were licensed in a state which adopted the national 
model licensure procedures, then they would not be required to travel 
to any other state in which they are seeking reciprocity.
    The industry's proposed license reciprocity system would eliminate 
an arcane ad hoc regulatory system that has not kept pace with the 
dynamic changes that have occurred over the past 10 years. In many 
cases, our proposal would result in the upgrading of state licensure 
standards, while at the same time provide states with the authority to 
regulate whether a company was meeting the national standards. In 
addition, our proposal would not interfere with the ability of states 
to impose appropriate fees on those providing alarm monitoring services 
in their jurisdiction.
    We thank the Committee for listening to our concerns and welcome 
the opportunity to work with you to make sure that consumers do not 
inadvertently lose the alarm services that they have come to depend 
upon to protect their life, safety, health, and property.
Analog (AMPS) To Digital Cellular Alarm Sunset
    Finally, I would like to bring to the Committee's attention a 
serious problem the alarm industry is facing with the FCC Analog 
Cellular (AMPS). Sunset order which goes into effect on February 18, 
2008. The alarm industry has installed approximately 1,000,000 analog 
cellular systems across the country. These units are used as primary 
and back-up burglar and fire alert monitoring systems as well as for 
home health monitoring. Wireless alarm systems are used because of the 
fear that an intruder or arsonist will, if possible, cut the telephone 
line in an attempt to disable an alarm system. In many instances, 
insurance companies require the consumer to use two methods of 
monitoring protected premises, especially in the case of vulnerable 
businesses such as banks and jewelry stores or those facilities that 
are targets for attack. Similarly there are tens of thousands of 
medical alert devices that are dependent upon analog cellular-based 
monitoring services.
    Despite the fact that the original FCC Sunset order was issued on 
February 18, 2003, only recently has the industry had the capacity to 
install digital cellular alarm systems. Starting shortly after the FCC 
issued its order in 2003, alarm monitoring companies and those who 
manufacturer alarm monitoring equipment began meeting in an effort to 
develop digital cellular equipment. However, because alarm systems must 
meet an extremely high reliability standard and receive the 
Underwriters Laboratory seal of approval, it took time to develop a 
working prototype. That process took until late 2005, but alarm 
equipment manufacturers did not have their products available for sale 
until April of 2006. At the same time, it took AT&T/Cingular until 
October of 2006 to announce that they had a unified cellular network 
which was capable of transmitting digital alarm signals. Then in the 
fourth quarter of 2006, the only two suppliers of digital alarm radios 
began to experience product problems and had to initiate recalls. In 
November of 2006, the industry filed a petition with the FCC formally 
requesting that the AMPS deadline be extended 2 years to provide us 
with time to replace existing AMPS radios. This was followed by AT&T/
Cingular network readiness problems in January of 2007.
    A number of public safety associations have filed letters in 
support of the industry's request for a delay. They include the 
Association of Public-Safety Communications Officials (APCO), Fraternal 
Order of Police, International Fire Chiefs Associations, National 
Safety Council, National Crime Prevention Council, Home Safety Council, 
and various women's shelters and laws enforcement departments.
    Simply stated, it would be impossible for the alarm industry to 
replace the existing 1,000,000 analog units between now and February 18 
of next year. This will place hundreds of thousands of individuals who 
are dependent upon analog systems at risk.
    In an effort to remedy this problem, the industry has proposed a 
rolling geographic shutdown of the current analog cellular service. 
This would allow us to concentrate equipment and manpower to address 
the problem. But so far we have been stonewalled by the analog cellular 
carriers.
    Because the potential impact is so great, we are urging the 
Congress to step in and to support an up to 2 year delay in the 
implementation of the FCC's Sunset Order or at the very least to impose 
a geographic rolling shutdown that will better allow us to replace 
existing AMPs radios.
    The industry remains prepared to work with the Committee on all of 
these issues and welcomes the opportunity to talk further with you.
                               Attachment
Proposed VoIP Notification Draft 4-13-07
      ``(c) IP-Enabled Emergency Response Systems.----

      ``(1) notice prior to sale of equipment necessary to connect voip 
        services.--Any instructions accompanying equipment that is sold 
        in interstate commerce and necessary to connect VoIP service 
        shall contain a clear and conspicuous warning to ensure proper 
        functioning of emergency response systems that--

                  ``(A) such customer should arrange with his or her 
                emergency response system provider, if any, to test 
                such system after installation;

                  ``(B) such customer should notify his or her 
                emergency response system provider as soon as the IP-
                enabled voice service is installed; and

                  ``(C) a 24 hour battery backup is required for 
                customer premises equipment installed in connection 
                with the IP-enabled voice service in order for the 
                signaling of such system to function in the event of a 
                power outage.


      ``(2) notice prior to installation or number activation of voip 
        service.--Prior to installation or activation of an IP-enabled 
        voice service for a customer, an IP-enabled voice service 
        provider shall provide clear and conspicuous notice to the 
        customer that--

                  ``(A) such customer should arrange with his or her 
                emergency response system provider, if any, to test 
                such system after installation;

                  ``(B) such customer should notify his or her 
                emergency response system provider as soon as the IP-
                enabled voice service is installed; and

                  ``(C) a 24 hour battery backup is required for 
                customer premises equipment installed in connection 
                with the IP-enabled voice service in order for the 
                signaling of such system to function in the event of a 
                power outage.

      ``(d) No Effect on Tax Laws.--Nothing in this section shall be 
construed to modify, impair, supersede, or authorize the modification, 
impairment, or supersession of, any State or local tax law.
      ``(e) Definitions.--In this section:

      ``(1) emergency response system.--The term `emergency response 
        system' means an alarm or security system, or personal security 
        or medical monitoring system, that is connected to an emergency 
        response center by means of a telecommunications carrier or IP-
        enabled voice service provider.

      ``(2) emergency response center.--The term `emergency response 
        center' means an entity that monitors transmissions from an 
        emergency response system.

      ``(3) facilities-based.--The term `facilities-based' includes an 
        IP-enabled voice service provider with control and operation 
        within a local access transport area of--

                  ``(A) communications switching and routing equipment;


                  ``(B) long-haul trunks; or


                  ``(C) local transmission facilities.

    ``(4) ip-enabled voice service.--The term `IP-enabled voice 
        service' means the provision of real-time 2-way voice 
        communications offered to the public, or such classes of users 
        as to be effectively available to the public, transmitted 
        through customer premises equipment using Internet protocol, or 
        a successor protocol, for a fee (whether part of a bundle of 
        services or offered separately) with interconnection capability 
        such that the service can originate traffic to, and terminate 
        traffic from, the public-switched telephone network.''
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            Dale N. Hatfield
    Question 1. Are there technologies other than GPS that can be used 
for an E-911 type service? Globally, who are the leaders in researching 
these alternative approaches? Do any of these technologies offer the 
potential of addressing the in-building location issue you raised?
    Answer. Yes, there are technologies other than GPS that can be used 
for E-911 type services. Indeed, some carriers currently use a network-
based location solution that triangulates among the individual cellular 
carrier's towers to estimate the location of the caller's handset. 
There are also solutions that combine GPS with that solution. Such a 
combination is often referred to as a ``hybrid'' solution. In addition, 
a number of other solutions exist and are being promoted by various 
vendors. These vendors include Rosum Corporation, S5 Wireless, Skyhook 
Wireless, and others.
    With regard to the last two parts of this question, I am not 
familiar enough with the research and development going on in the rest 
of the world to be able to respond with confidence. Indeed, in the 
report that I was preparing for the Federal Communications Commission 
and in my prepared testimony, I proposed that the agency seek the 
advice of an independent group of scientists and engineers (e.g., 
through the National Research Council or a formal advisory committee) 
in order to ascertain the current state-of-the-art in location 
technologies for in-building use and to make recommendations on how the 
Nation might move ahead to address the in-building location issue. If 
this approach was adopted, the expert group would be tasked with 
assessing the advantages and disadvantages of the various technological 
solutions including the ones utilized currently and the ones proposed 
by the vendors mentioned earlier.

    Question 2. From your experience, how important is an E-911 
system's absolute accuracy as compared with the speed it can route an 
incoming call to where it needs to go? Are there significant system 
design tradeoffs?
    Answer. This is a very perceptive and important question--one that 
I do not think has been addressed adequately. I would note that 
accurate location information is important to two respects: first it is 
important to ensure that the emergency call is routed to the correct 
public safety answering point (PSAP) and second, and more obviously, it 
is important to the dispatcher and first responders who must quickly 
deploy resources to the location from which the call actually 
originated. Unfortunately, accurate subscriber location information may 
not be immediately available when the wireless 9-1-1 call is originated 
and, as the question indicates, the accuracy of the measurements may 
improve over time. Because accurate information may not be immediately 
available, it is my understanding that the carriers typically route 9-
1-1 calls to the correct PSAP based on Phase I (what cell tower or 
antenna is handling the call) rather than Phase II (the estimated 
latitude and longitude or X-Y coordinates) location information. The 
current rule for how fast the location information must be delivered to 
the PSAP was established years ago before we had the benefit of 
extensive experience with actual systems in the field. So my belief is 
that there are significant system design tradeoffs involved in both the 
routing decision and in the decision of how long to wait until the X-Y 
information is provided to the call taker. It is my further belief that 
these tradeoffs should be explored by the Commission and expert groups 
in an appropriate proceeding.

    Question 3. Today--and even more so in the future--there will exist 
electronic devices with communications features that can call 9-1-1, 
but where there is no consumer expectation that they should be used for 
calling 9-1-1. Do you believe that in the future any device capable of 
dialing 9-1-1 be required to provide its location? What difficulties do 
you envision in the creation of the necessary database? How would the 
legacy equipment issue be addressed?
    Answer. This is an important question and one that it is being 
addressed in the context of the planning for the Next Generation 9-1-1 
(NG-911) network. I agree that, as a general rule, any device that is 
capable of being dialed to reach 9-1-1 should be required to provide 
its location. It is my understanding that at the Virginia Tech tragedy, 
students tried to send text messages to 9-1-1 which is not an 
unreasonable thing to try to do since one can send text messages to 
other devices which have an ordinary ten digit telephone number 
associated with them. It is my further understanding that the experts 
that are working on the NG-911 network have included requirements to 
handle 9-1-1 calls from more modern end user devices such as PDAs with 
communications capabilities. With the NG-911 network, I do not think 
creating the necessary databases would be a major impediment. I believe 
the legacy equipment issue is very much device dependent and therefore 
I am unable to address the legacy question in general.

    Question 4. One county in Washington State tested the accuracy of 
its E-911 system with the intention of providing useful feedback to 
local PSAPs and carriers servicing the region. In response, the 
carriers challenged the design of experiment and measurement techniques 
for the locations where the accuracy fell short of what is required. 
Would a common testing methodology for location accuracy address this 
type of situation? Should there be one testing methodology for all 
handset-based E-911 and one testing methodology for all network-based 
E-911, or just a single testing methodology covering all E-911?
    Answer. Based upon both my original (2002) report and my more 
recent work in the E-911 area, I believe that it is critical that 
testing methodologies be standardized and that such tests be conducted 
according to the standard and in an open, transparent, and verifiable 
fashion. Since the FCC seems to be moving in the direction of a single 
accuracy standard for both network and handset-based solutions, I 
believe a single testing methodology would be appropriate.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                            Dale N. Hatfield
    Question 1. Have you identified significant problems with the 
accuracy of location technology when cell phones are used indoors?
    Answer. Yes. I regard the in-building location question as the most 
significant issue raised in my second study for the Federal 
Communications Commission. GPS satellite signals coming from great 
distances above the Earth tend to be much weaker than the signals 
received by a cellular handset from a relatively nearby tower. This 
means that while a person in a building may be able to complete an 
emergency call to the PSAP, the location information may be unavailable 
because of the comparatively weak signals from the satellite. This 
issue has grown in importance as people increasingly shift their 
telephone service from landlines to wireless.

    Question 2. What recommendations do you have for mobile phone users 
who call 9-1-1 from indoors?
    Answer. Mobile phone users should always be prepared to give/
confirm their location information to call takers when they dial 9-1-1. 
Consumers should also be made better aware of the limitations of 9-1-1 
location technology in the wireless environment--especially when they 
plan to rely entirely upon wireless devices for basic voice telephone 
services.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                           Wanda S. McCarley
    Question 1. What States are doing a good job of transitioning to E-
911? How are your organizations taking the lessons learned from these 
States and getting that information to those States who are struggling?
    Answer. Most states with and without state coordination are doing 
well on landline and wireless E-911 efforts, but some states that are 
not doing well often lack alternative funding methods (i.e., wireless 
surcharge, adequate general revenue, strict limitations on traditional 
wireline funding, and allowable fee imposition on alternate technology 
access to 9-1-1). The states that are doing a good job on transitioning 
to wireless E-911 are Texas, Virginia; and perhaps you could say Rhode 
Island (small state with a statewide program).
    APCO publishes and maintains on its website a state by state 
funding report citing the legislation currently in place, which can be 
used by other states for comparison and even suggestive purposes for 
legislative review and consideration. APCO has conducted and published 
a report on the funding issues in advance of VoIP and now other 
potential alternate access to emergency services via 9-1-1.

    Question 2. Next Generation 9-1-1 is being discussed as a national 
effort while 9-1-1 and E-911 have traditionally been considered local 
programs. What do you envision will be national versus local with 
respect to Next Generation 9-1-1? What will a national 9-1-1 
information backbone accomplish? Has your organization been working 
with the Department of Transportation's contractor that is developing 
specifications for the Next Generation 9-1-1 system?
    Answer. It will be very challenging to implement a national NG-911. 
The purported ability of NG to mix voice and data and provide the 
ability to move large diverse amounts of data to other than PSAP's is a 
promise that ``if'' fulfilled will drive NG across the country. But the 
transitional planning needed to bridge the gaps between the large well 
funded PSAPs and the small PSAPs will require a national plan and 
national funding. The undefined costs both initial and recurring as 
well as the hidden costs of maintaining in-house technical capability 
at the PSAP could put a strain on many small and mid-size agencies that 
lack proper funding mechanism to purchase and maintain these systems.
    The enthusiasm for NG-911 is based in part on a promised expansion 
of data interoperability between disparate systems to better manage 
events, resources assigned or committed as well as overall situational 
awareness critical to responder safety. NG systems should assure that 
they are capable of ``connecting'' to legacy systems which in most 
places within the country will remain in place for some years to come.
    Potentially, if done correctly, the backbone could demonstrate the 
actual benefits of the proposed network, help identify costs to all 
subscribers, provide proof of concept, and test the ability to merge 
with legacy systems, as well as document the end-user responsibility 
and new requirements to successfully utilize the network. The national 
backbone could provide a means to give interoperability to calls to 
9-1-1.
    USDOT is reportedly planning to test a solution in a real PSAP 
environment, which is long overdue and critically important since the 
commitment of funding and proposed development is based only on 
assumptions. APCO has pushed to become a part of the input to the USDOT 
NG-911 program by being represented and participating in focus groups 
and forums.

    Question 3. How are you preparing your membership for the 
transition to Next Generation 9-1-1? How are you planning to support 
the development of nationwide standards with your diverse membership?
    Answer. APCO established Project 41, as well as state, regional and 
national conferences, and publishes monthly magazine articles to be 
pro-active in preparing our members and industry for the transition to 
Next Generation 9-1-1. APCO is the only ANSI accredited standards 
developing organization (SDO) for public safety communications and 
continues to be involved with have been involved with ESIF/ATIS, NIEM 
and other groups to develop standards and models for this purpose.
    APCO is also partnering with NENA developing a PSAP Survivability 
MATRIX that could be used by PSAPs to determine where they are today 
and how they can survive in the future.

    Question 4. What is the ideal size for a PSAP in terms of 
population served? With over 6,000 PSAPs, can Next Generation 9-1-1 be 
implemented efficiently, particularly when some PSAPs receive only a 
few calls a day or have very small service territories?
    Answer. There is no ideal size for a PSAP. The choice of service 
capability within any community is at the local level. Until clear 
evidence can be documented regarding the significant benefit of the 
proposed network and related systems, the chance at improvement 
balanced against the undefined costs for local government may and is 
likely to cause incremental migration over time to the goal of Next 
Generation 9-1-1 being implemented efficiently. However, it is becoming 
increasingly obvious that the 2-3 position PSAPs of today are not cost 
efficient or able to keep up with technology. NG will no doubt drive 
consolidation but not too many people touting NG are talking about that 
part.

    Question 5. From your experience, how important is an E-911 
system's absolute accuracy as compared with the speed it can route an 
incoming call to where it needs to go?
    Answer. Both are very important but getting the correct location is 
everything even if it means giving up 20-30 seconds to get an accurate 
location.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                           Wanda S. McCarley
    Question. Domestic violence victims are told to call 9-1-1 in an 
emergency, but when they call from a cell phone or use VoIP, it's often 
impossible to get automatic, accurate information on the caller's 
location. Has APCO developed standards for call center professionals to 
get detailed location information from callers? Should that be the 
first question that call center professionals ask, as opposed to asking 
what the emergency is?
    Answer. Yes, APCO has developed standards for call center 
professionals. The standard for asking ``what is your emergency'' to 
``where is the emergency'' has already shifted and APCO International 
trains over 5,000 call takers a year through its Telecommunicator 
Training programs to ensure this is the first question asked by a call 
taker. All else is of little value if the location of the crises 
remains undefined.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                           Jason Barbour, ENP
    Question 1. What States are doing a good job of transitioning to E-
911? How are your organizations taking the lessons learned from these 
States and getting that information to those States who are struggling?
    Answer. There are currently fourteen states (and the District of 
Columbia) in which 100 percent of counties have Public Safety Answering 
Points (PSAPs) that are capable of receiving wireless Phase II E-911 
information. Those states are CT, DE, FL, ME, MD, MA, MI, MN, NH, NJ, 
RI, TN, VT and WA. Unfortunately, nearly twenty-five states still have 
more than twenty-five percent of their counties without PSAPs that are 
Phase II ready.
    Through the learning experience of deploying Phase II in the 
states, NENA has developed numerous items to assist those who have not 
yet deployed. We have developed three documents which are designed to 
help PSAPs who wish to request Phase II service from carriers. They 
include a form to submit to each wireless provider, along with two 
other documents explaining the package. This PSAP Readiness Checklist 
package was developed about 4 years ago with the involvement and 
approval of NENA, APCO, the major wireless providers and others within 
an industry group known as the Emergency Services Interconnection Forum 
(ESIF). The materials are available as follows:

    Introductory material:

  <bullet> http://www.atis.org/esif/docs/Final-Documents/Phase-II-
        Readiness-Checklist-Package.doc

    PSAP Readiness Checklist:

  <bullet> http://www.atis.org/esif/docs/Final-Documents/Phase-II-
        Readiness-Checklist-Form.xls

    PSAP Readiness Checklist Appendix:

  <bullet> http://www.atis.org/esif/docs/Final-Documents/Phase-II-
        Readiness-Checklist-Appendix.doc

    Additionally NENA has also developed NENA Operational standards and 
Operations Information Documents (OID) to assist with Phase II 
implementation which can be downloaded by anyone at no cost. The NENA 
OIDs are as follows:
NENA Wireless Phase I & II Features and Functions Operations 
        Information Document 57-501
    The NENA Wireless Phase I & II Features and Functions OID defines 
how E-911 Phase I and Phase II should work in a best practice 
operational environment, given the current technology limitations. 
Topics discussed within Phase I include call back number, cell site/
sector location, standard ALI data formats and troubleshooting. Topics 
discussed within Phase II include call back number, location data, 
standard ALI data formats, uncertainty factor/confidence factor, re-
bid/location updates, Phase II ALI interface and troubleshooting.
NENA Wireless Phase I/II Planning & Implementation Checklist & Modules 
        OID 57-502
    The NENA Wireless Phase I/II Planning and Implementation Checklist 
and Modules OID was approved by the NENA Operations Committee 
leadership, May 24, 2004. It is intended to serve as a best practice 
for deployment of wireless E-911 Phase I and Phase II. Its primary goal 
is to set expectations and improve communications among the many 
parties in the deployment process.
    Steps in the process include:

  <bullet> Determining whether or when to proceed with Phase I or Phase 
        II deployment,

  <bullet> Establishing the initial contact with the 9-1-1 service 
        provider,

  <bullet> Making the proper notifications,

  <bullet> Organizing the initial planning meeting,

  <bullet> Completing the call routing sheets and addressing database 
        issues,

  <bullet> Establishing an ALI delivery standard,

  <bullet> Establishing a GIS system,

  <bullet> Testing the initial deployment of the system, and

  <bullet> Dealing with post-deployment issues.

    NENA operational standards regarding wireless E-911 are available 
at http://www.nena.org/pages/Content.asp?CID=23&CTID=5 and include such 
subjects as Wireless E-911 Overflow, Default and Diverse Routing, PSAP 
Geographic Information Systems (GIS) and Wireless Call Routing and 
Testing Validation.
    Additionally, NENA received a grant from the U.S. Department of 
Transportation to stimulate wireless Phase I and Phase II 
implementation throughout the U.S. and to monitor wireless E-911 
implementation in the states. Two products of the Wireless 
Implementation Program are now available. The first product, the 
Wireless Deployment Profile, is the result of a six-month survey 
conducted by NENA. State and county 9-1-1 coordinators provided 
information on readiness of states, counties and PSAPs for wireless E-
911. The information from the survey is accessible via a ``point and 
click'' map combined with tabular data for each county. A user can 
simply click on the state and zoom to a county and view tabular data 
about the 
E-911 status of that county. That information, and several national 
reports comparing state progress in wireless E-911 deployment, is 
available at http://nena.ddti.net/. While the grant has expired, NENA 
continues to actively monitor E-911 implementation and updates the 
figures monthly. This information has proven to be very valuable as 
decisionmakers in states consider whether or not to invest in wireless 
Phase I and Phase II.
    The second product was a result of additional work done by NENA to 
estimate the costs to complete Wireless Phase II for those counties/
PSAPs that do not currently have Phase II. A survey was completed to 
estimate costs to complete Phase II. We then applied those costs to the 
number of counties of varying sizes to determine the total cost to 
complete Wireless Phase II as of June 2006. Those estimates are widely 
used by GAO, USDOT, and public safety organizations as the approximate 
cost to complete Phase II. Obviously, as more counties become Phase II 
capable, the remaining costs are reduced, but there still remain 
significant costs to complete Phase II, especially in rural areas of 
the country.
    As a result of the DOT contract, NENA was also able to conduct 
several Critical Issues Forums (CIF) where we presented information to 
PSAP managers and administrators on the wireless E-911 implementation 
process. Since there is no longer funding available through the DOT 
contract, travel to states and regions that are lagging in E-911 
deployment has diminished significantly. NENA would do more direct 
hands-on outreach if a funding source existed to pay for such efforts. 
We do still provide information to our members in a variety of forums 
and try to attend most or all of the NENA Chapter events to provide 
information on this and many other topics.
    Similar efforts are also ongoing concerning VoIP E-911 
implementation. NENA has held several free webinars on the subject for 
our members and has developed a VoIP E-911 implementation Operations 
Information Document which is available at http://www.nena.org/media/
files/NENAVoIPDeploymentOIDfinal060606a.pdf.

    Question 2. Next Generation 9-1-1 is being discussed as a national 
effort while 9-1-1 and E-911 have traditionally been considered local 
programs. What do you envision will be national versus local with 
respect to Next Generation 9-1-1? What will a national 9-1-1 
information backbone accomplish? Has your organization been working 
with the Department of Transportation's contractor that is developing 
specifications for the Next Generation 9-1-1 system?
    Answer. NENA has spent a significant amount of time analyzing 
current jurisdictional roles concerning 9-1-1. This has been a focus of 
the NENA Next Generation Partner Program which recommended that a 
general consensus suggests that the Federal Government should primarily 
play a role of coordination and provide initial funding to states to 
develop emergency service IP networks; states should manage such 
networks and coordinate NG-911 system implementation and operations 
efforts at the state level; while 9-1-1 operations and call-taking 
continue to be managed at the local level.
The Federal Role
    As we move toward IP-enabled emergency service networks, providing 
guidelines and funding for a national IP emergency services 
infrastructure that is coordinated at the state level is the most 
important role for the Federal Government. This will come in the form 
of physical infrastructure, along with the coordination of national 
standards, system interfaces and overall system architecture. The 
Federal Government should not dictate specific solutions; rather, it 
should provide detailed guidelines for state and local governments to 
meet when implementing IP emergency services networks and NG-911 
systems. Funding requirements must be tied to these guidelines. 
Additionally, there is a need to update Federal and state laws and 
regulations to enable NG-911 to become a reality. Current laws are 
based on legacy technology and business relationships and need to be 
reviewed and revised to reflect changes in technology.
    It is important to distinguish the different roles various Federal 
agencies have regarding emergency communications in general and 9-1-1 
in particular. All 9-1-1 specific functions at the Federal level should 
be managed by the joint NHTSA/NTIA national Implementation and 
Coordination Office (ICO) when it is established. While the ICO should 
be focused on national 9-1-1 specific coordination efforts, other 
efforts that focus on developing a national emergency services 
internetwork (a ``system of systems'') that includes 9-1-1 need to be 
continued. This internetwork needs to include but not be limited to 9-
1-1. Developing stand-alone 9-1-1 IP networks should be avoided. 
Economies of scale will be created through the use of shared and 
managed IP networks in which 9-1-1, law enforcement, public health 
networks and others operate on a shared IP backbone.
The FCC: Increased 9-1-1 Directive Influence and Coordination
    In addition to its existing role as a telecommunications regulatory 
body, the FCC should be responsible for convening and providing 
guidance to all constituents involved in emergency communications 
system development. As a matter of policy, the FCC should be more 
proactive and place a higher priority on 9-1-1 and emergency 
communications than it traditionally has done in the past. (The FCC's 
charge in the NRIC VII process to look more broadly into 9-1-1 and 
emergency service issues generally is a step in the right direction) In 
doing so, the FCC should seek out all available on-going work and 
perspectives before they undertake rulemaking, and it should be a 
priority of the FCC to closely coordinate its actions with all entities 
affected by a ruling, including appropriate non-government 
organizations, as well as others in the Federal Government.
9-1-1 and Homeland Security: Need to Increase Awareness and Voice 
        of 9-1-1
    It is also important to note that 9-1-1 has not been recognized as 
a ``first responder'' by the Federal Department of Homeland Security 
and thus has not been as integrated into homeland security discussions 
and initiatives as much as it should. Most outside of public safety 
assume that 9-1-1 is represented on equal footing with other first 
responder groups such as police, fire and EMS when it comes to homeland 
security. Unfortunately, this typically has not been the case at the 
national and state level. Leaders in homeland security and 9-1-1 need 
to work together to fix this oversight.
The Role of the State
    As we move toward a system of IP-based 9-1-1 and emergency service 
networks, a significant shift in the responsibilities between state and 
local government should be considered. It is perhaps most important 
that states be responsible for managing technical interfaces and 
requirements for PSAPs to access IP networks and maintaining the 
overall security and maintenance of the system. The state should be a 
central point in a hierarchical system where all 9-1-1 calls are routed 
over an IP network. Based on the location of the call, the call would 
then be routed to the correct local PSAP. Thus, most vendor 
relationships concerning call routing issues would be managed at the 
state level, taking the responsibility off of local PSAPs who often do 
not have the time or expertise to manage these relationships. Similar 
to the Federal role with states, state governments should not dictate 
specific solutions at the local level, but should provide detailed 
guidelines that local governments must meet when connecting to 
statewide IP emergency services networks. Funding requirements should 
be tied to meeting these guidelines. Existing state legislation will 
need to be updated based on the continuing evolution of technology in 
most, if not all, states to allow this policy measure to become a 
reality.
    For this model to be effective, emphasis needs to be placed on the 
importance of establishing a single, recognized central 9-1-1 planning 
or administrative function in every state. This state 9-1-1 entity 
should not be based on a particular technology (e.g., a wireless 9-1-1 
board), but should instead cover all aspects of 9-1-1.
The Local Role
    While routing the 9-1-1 call to the right PSAP via an IP-enabled 9-
1-1 network and NG-911 system should become the responsibility of the 
state, answering that call and providing the best possible response 
should remain the role of the local PSAP. That is, while call delivery 
should be the role of the state, assurance of service delivery 
(answering 9-1-1 calls from any device and properly dispatching the 
appropriate response) should be the primary role of the local PSAP. 9-
1-1 service will still be locally managed and maintained. This is not 
to suggest that local governments cannot manage their own private IP 
networks that are linked to state and national networks. Those local 
jurisdictions that have the funding, technical knowledge and desire to 
manage and operate local/regional private networks will have the 
ability to do so as long as they are in conformance with national 
standards and operated in a manner consistent with overall system 
requirements set by the state.
    Maintaining and managing information contained in databases that 
can only be obtained at the local level, such as the current master 
street address guide (MSAG) for fixed addresses should remain the 
responsibility of local government. Additionally, more and more IP 
services are being offered (e.g., wireless hotspots, WiFi and WiMAX 
networks) in cities across the country. Whether owned by a private 
entity or government, the physical location of known wireless access 
points, should be continually updated and provided in databases 
accessible to appropriate call-routing entities. Data collection and 
maintenance of this information should be done at the local level and 
provided to a state entity that is managing the statewide emergency 
services network to enable the appropriate routing of 9-1-1 calls. 
Providing the known civic address of such access points with a 9-1-1 
call is ideal, but depending on the coverage area of wireless networks, 
providing latitude and longitude coordinates with the call may be 
necessary as well. As callers are increasingly wireless regardless of 
technology type, this is a critical issue.
    NENA is working very closely with Booz Allen Hamilton, the prime 
contractor to the Department of Transportation for their NG-911 
Project. NENA is a subcontractor to Booze Allen Hamilton and is heavily 
involved in the work of the project.

    Question 3. How are you preparing your membership for the 
transition to Next Generation 9-1-1? How are you planning to support 
the development of nationwide standards with your diverse membership?
    Answer. The transition to NG-911 is a top priority of NENA and is 
infused into all that we do. It was the main topic of discussion at our 
recent conference in June and will be a highlighted topic at state 
Chapter events throughout the year. In fact NENA has established a 
``NG-911 Project'' which consists of numerous moving parts that all 
must work together cohesively for NG-911 to effectively become a 
reality (see http://www.nena.org/pages/ContentList.asp?CTID=65) and the 
Overall Status sub page. Some of these moving parts NENA controls 
directly. Others we are involved with but do not manage. And there are 
other ongoing initiatives that we simply monitor but are not closely 
engaged in. All of these elements are considered part of the NENA NG-
911 Project.
    Some specific efforts we have initiated or are involved in to 
prepare our membership for the transition to NG-911 include the 
development of NG-911 technical and operational standards and 
information documents through our technical and operations committees; 
the creation of a new NG-911 Transition Planning Committee (NGTPC) open 
to interested NENA members; the development of the NENA NG Partner 
Program (see http://www.nena.org/pages/ContentList.asp?CTID=14); 
participation in the U.S. DOT NG-911 Project with regular reporting to 
the NENA membership on progress made; the development of an NG-911 
education course; extensive education from national NENA to the state 
NENA chapters, as well as Alliances with the Voice on the Net (VON) 
Coalition and APCO concerning NG-911.
    On the standards front, the NENA Technical and Operations 
committees have made the development of national NG-911 standards a top 
priority. Participation on a NENA standards committee is open to any 
interested party and includes a broad spectrum of players from all 
aspects of the communications industry together with 9-1-1 technology/
database vendors, 9-1-1 system service providers and PSAP leaders. NENA 
has made a concerted effort to expand the participants in our 
committees to industries and companies beyond the traditional telephone 
companies that have been predominant in the NENA standards work of the 
past.
    NENA also has relationships with other organizations, including the 
Alliance for Telecommunications Industry Solutions (ATIS), the Internet 
Engineering Task Force (IETF)--which sets Internet related and 
communications standards worldwide; as well as cooperative efforts 
through an informal coalition of approximately 20 international 
communications SDOs. NENA is in the process of finalizing the first 
version of a very detailed NG-911 architecture and interface standard 
(known in short as i3). Other work leading to NENA standards, such as 
NG-911 database management, is in progress. NENA is also leading an 
effort to bring together all of the various groups involved with N-1-1 
services (2-1-1, 3-1-1, 5-1-1, 7-1-1, 8-1-1, 9-1-1) and toll-free 
hotlines (suicide prevention, poison control) to identify needed 
technical standards to enable the seamless sharing of information among 
all of the various N-1-1 and 800 number services.

    Question 4. What is the ideal size for a PSAP in terms of 
population served? With over 6,000 PSAPs, can Next Generation 9-1-1 be 
implemented efficiently, particularly when some PSAPs receive only a 
few calls a day or have very small service territories?
    Answer. The answer to this question depends if you are asking about 
today's 9-1-1 or NG-911. Today, many large PSAPs are seriously 
understaffed which can result in delayed or long call answer times. 
Thus if you over-consolidate, this problem can be exacerbated because 
governments cut budgets by cutting personnel. The challenge of 
adequately training and retaining qualified staff is a serious issue 
and consolidation does not necessarily solve the problem. While 
appealing on the surface, over-consolidation can actually have negative 
service impacts. On the other hand, having too many PSAPs can be 
economically and operationally inefficient. Of course, it is imperative 
that 9-1-1 telecommunicators have enough local knowledge to be able to 
recognize local landmarks and to be able to effectively dispatch based 
on the information provided by the caller. Having a PSAP jurisdiction 
that covers too large an area can make this a serious problem. Also, if 
the initial call is answered at a level higher than the dispatch level 
and is then transferred to someone else at a more local level to 
dispatch, some calls can take longer to respond to than would otherwise 
be the case.
    The drive to consolidate is generally economically motivated. In 
NG-911, technical consolidation of network and other system components 
will be what provides potentially significant cost benefits to numerous 
parties, including service providers and government. Thus, 
technological change may realize cost savings rather than physical 
consolidation of centers. Policies to adopt the right balance are 
needed.
    In NG-911, prior to a calltaker answering a 9-1-1 call, the system 
knows many more important details to help improve service and response 
than are known today. These can include the caller's precise/general 
location, the caller's language preference, possibly the caller's 
medical history and vital signs and other related details, and much 
more.
    These known details can be used to both help route to call takers 
responsible for special geographic zones, call takers with special 
skills such as other languages and other special call type handling 
skills. The call takers do not need to be physically co-located in the 
same building as long as they are logically linked under the same 
command structure. This is all part of the virtual PSAP concept that 
NG-911 enables. This dramatic change in call taking capabilities and 
processes can increase life-saving possibilities and reduce the 
negative factors related to the current number of PSAPs, including 
providing cost-savings benefits for parties involved ranging from 
providers to government.
    Yes, NG-911 can be implemented efficiently with over 6,000 PSAPs. 
As we move toward a system of IP-based 9-1-1 and emergency service 
networks, a significant shift in the responsibilities between state and 
local government should be considered. It is perhaps most important 
that states be responsible for managing technical interfaces and 
requirements for PSAPs to access IP networks and maintaining the 
overall security and maintenance of the system. The state should be a 
central point in a hierarchical system where all 9-1-1 calls are routed 
over an IP network. Based on the location of the call, the call would 
then be routed to the correct local PSAP. Thus, most vendor 
relationships concerning call routing issues would be managed at the 
state level, taking the responsibility off of local PSAPs who often do 
not have the time or expertise to manage these relationships.

    Question 5. From your experience, how important is an E-911 
system's absolute accuracy as compared with the speed it can route an 
incoming call to where it needs to go?
    Answer. Having the most accurate location information possible with 
a 9-1-1 call is very important. Similarly, it is always important not 
to hold up the call from getting to the PSAP since a significant amount 
of callers will disconnect after approximately 10 seconds of the call 
being unanswered (thus a NENA standard exists to have all calls 
answered within 10 seconds for ninety percent of all calls). For 
wireless calls, a balance needs to be struck to ensure that the calls 
can be routed to the right PSAP based on the actual location of the 
caller (preferred to calls being routed faster but based only on cell 
sector rather than an actual location).
    During the first 30 seconds of a wireless 9-1-1 Phase II call, 
location information can improve significantly, dependent on existing 
technologies in place today. While it is quite important to know enough 
location details to be able to route to the correct PSAP, call delivery 
should not be delayed because of existing technology limitations. The 
improved accuracy available in the first few seconds of the call, after 
it is delivered to the PSAP on a timely basis, can be utilized when 
needed, to appropriately assist in handling an emergency incident.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                              Stephen Meer
    Question. In your testimony, you describe the need for the Next 
Generation 9-1-1 network to be IP-based. Do you believe that this Next 
Generation 9-1-1 network will rely exclusively on GPS for determining 
location or is it possible that there may be other technologies 
employed?
    Answer. It is Intrado's belief that there will be a multitude of 
technologies employed, such as RFID, wiremaps, and hybrid technological 
solutions, to determine the location of a person in need of emergency 
assistance. GPS is only one type of location technology that will be 
utilized; however, it will not be the only one since it cannot 
guarantee an accurate and precise address that includes all the 
elements required to locate a person requesting emergency services. For 
example, utilizing GPS as the only Location Determination Technology 
(LDT) will not consistently provide first responders with ``Z,'' 
otherwise known as altitude and this data includes a person's exact 
apartment number or unit number. Such information is critical for the 
first responders to be able locate a person in need of assistance on a 
timely basis. To state it another way, when 9-1-1 calls are made from 
indoors, we will always need to know what door the caller is behind. We 
recognize that there will be no single LDT that can provide this 
precise address information to first responders; rather, the ultimate 
solution will employ a combination of many location technologies 
utilized in the Next Generation 9-1-1 network for location 
determination.
    In addition, Intrado considers LDT as specific technologies that 
can be employed to determine the location of a communication device of 
an end-user and potentially the location of Access Points that connect 
the communication device to the service provider network. There are a 
variety of technology approaches to location determination that are 
either currently developed or in development. Each approach has its own 
strengths and weaknesses and generally aligns to different use case 
environments. While the achievement of the desired goal for precise 
location will in part depend upon the full maturation of these various 
location technologies, it is believed that each can play a role in 
supporting a migration path to that goal. Specific considerations 
around LDT that must be contemplated in establishing this migration 
path include:

  <bullet> The LDT ability to integrate with the end-user or other 
        network access devices. Depending on the specific LDT approach, 
        this may require software and/or hardware-based integration 
        efforts.

  <bullet> The LDT ability to provide ubiquitous network coverage for 
        end-user or other network access devices. Depending on the LDT, 
        unique infrastructure deployments maybe required to support 
        acceptable location determination coverage.

  <bullet> The ability for a Z coordinate (altitude) to be determined 
        in accordance with the proposed guidelines. Altitude should be 
        provided as above ground level of the location from the Z 
        coordinate to be usable to first responders. While technologies 
        exist today to attain a Z coordinate, they still must integrate 
        into LDT and supporting infrastructure (e.g., GIS) solutions.

  <bullet> The public safety community's ability to accept and 
        translate a Z coordinate to achieve an Acceptable Location for 
        Indoor Use.

  <bullet> The ability for a network to automatically discover the 
        addition or movement of an Access Point serving a communication 
        device within the service provider's network. For some LDT 
        approaches, an understanding of the location of the Access 
        Point is a critical component to enable precise location 
        determination.

  <bullet> The service provider's ability to leverage LDT information 
        and translate to an Acceptable Location for Indoor Usage.

    Finally, Intrado recognizes that the evolution of existing 
telecommunications technologies and the dramatic impacts that new 
technologies have on the 9-1-1 system, there is a clear need to provide 
public safety with the ability to respond to the specific location of 
an end-user trying to reach emergency services regardless of device, 
technology or access method being used. Sound public policy, both short 
and long term, must: (a) continue to ensure that the level of accuracy 
needed to locate a caller in distress is that which makes it possible 
for a first responder to swiftly find the caller and render emergency 
aid; and (b) provide clear guidance about the intended end result of 
the policy such that the businesses who are expected to abide by the 
policy, and those who invest in them, have a predictable means for 
meting out and measuring their efforts and investments.
    More information can be found in the Automatic Location Services 
white paper that Intrado filed along with its hearing testimony.

                                  <all>

</pre></body></html>
